<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                  APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, APRIL 30, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:44 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mitch McConnell (chairman) 
presiding.
    Present: Senators McConnell, Stevens, Specter, Gregg, 
Shelby, Bennett, Campbell, Bond, DeWine, Leahy, Inouye, Harkin, 
Mikulski, Durbin, Johnson, and Landrieu.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE


             opening statement of senator mitch mc connell


    Senator McConnell. Good afternoon. The Secretary has to 
leave at 3 p.m., so we will limit our opening statements to 
Senator Leahy and myself and the chairman of the full commitee.
    Welcome, Mr. Secretary. Let me begin by expressing my 
gratitude to the President, his entire cabinet, and our 
soldiers and sailors for the quick and decisive victory in 
Iraq. Once again, we have affirmed that we have the best 
trained, equipped, and disciplined military in the world and 
the best leaders on and off the battlefield.
    The victory in Iraq belongs to the people of Iraq, and the 
challenge now falls upon the coalition to repair damaged 
infrastructure, establish democratic institutions, and vest the 
principles of freedom and justice in the consciousness and 
lives of the Iraqi people. While Congress included $2.5 billion 
for these efforts in the war supplemental, the country's 
natural resources provide an advantage that will hopefully 
sustain and accelerate the reform and recovery process. The 
United Nations should immediately end the sanctions against 
Iraq so that the profits from these resources can go directly 
to the people of that country.
    I might just say, Mr. Secretary, I saw a fascinating op-ed 
in the Wall Street Journal a few weeks ago suggesting that one 
way to convince the Iraqi people that they are going to benefit 
from the oil would be to set up a structure similar to what 
they have in the State of Alaska, where every Alaskan gets a 
check each year off of the oil revenue that the State secures.
    Senator Stevens. Not the oil revenue, but income from a 
fund created by a portion of the revenue.
    Senator McConnell. In any event, Alaskans get checks.
    It is a demonstration of their sharing the wealth, shall I 
say.
    While some believe that political transition in Iraq alone 
will be a harbinger of reform throughout the region, a more 
effective catalyst for change comes in the form of a trinity. 
First, a quick and successful democratic transition. Second, a 
workable road map for security and peace between the 
Palestinians and the Israelis that includes new Palestinian 
leadership, that, first and foremost, actively combats 
terrorism. And third, a bold, new approach to America's support 
of political and legal reforms across the region.
    If this trinity is realized, the impetus for political 
reform throughout the Middle East will be inevitable and 
unstoppable. The Arab street will find a voice in democratic 
institutions and through responsive leaders chosen by ballots, 
not bullets, bullying, or Israel bashing.
    The state of political reform in Egypt, including adherence 
to the rule of law and the functioning of democratic 
institutions, provides a good barometer of democratic change in 
the region. I believe that as goes Egypt, so goes the Middle 
East.
    Shifting to North Korea, the hermit kingdom's ongoing 
bluster and its appalling repression of the North Korean people 
continue to be a grave concern to everyone. Although attention 
to North Korea's nuclear program may have been overshadowed by 
military operations in Iraq, I am hopeful the State Department 
will continue to focus on the myriad challenges posed by this 
nation. From nuclear weapons to narcotics trafficking and a 
potential Northeast Asian nuclear arms race, the Korean regime 
poses a growing and dangerous threat to its neighbors and to 
us. Negotiating with North Korea is no small or easy task. This 
is a country that makes France look trustworthy.
    Let me make a few comments on the fiscal year 2004 request 
for foreign operations. Over $2 billion is requested for four 
new accounts that potentially offer more rapid responses to 
global crises. It would be helpful to the subcommittee if you 
could summarize the objectives of each of these accounts and 
provide greater detail on the management of these funds and 
overlap, if any, with existing foreign assistance programs.
    The funding request has again been reduced for assistance 
for Eastern Europe and the Baltic States and assistance for the 
NIS by $86 million and $179 million, respectfully, below the 
fiscal year 2003 enacted level. While I fully support 
graduating countries that receive U.S. aid, I remain concerned 
that too steep and rapid cuts may have unintended consequences.
    A case in point is Serbia. The recent assassination of the 
Serbian Prime Minister has spurred a massive crackdown on 
organized crime, some of which is linked to cronies of 
Milosevic. It is clear that political, legal, and economic 
reforms are still needed in Serbia, and instead of reducing 
assistance by $15 million, we should be considering additional 
support for programs and activities that actually bolster 
necessary reforms.
    Let me wrap it up with just a few comments on Burma and 
Cambodia. As predicted, we have not seen progress in the 
dialogue between the State Peace and Development Council, SPDC, 
and Aung San Suu Kyi since her release from house arrest. The 
news out of Burma reports no signs of reconciliation, only 
continued repression of the people of Burma by the SPDC, brutal 
rapes of ethnic girls and women, and unwillingness to meet with 
the NLD, the U.N. special envoy, and ethnic nationalities. I 
applaud the State Department's recommendation to the White 
House that the regime in Burma should not be certified as 
making progress or cooperating with the U.S. on narcotics 
matters. It is clear that additional sanctions against the 
junta in Rangoon are warranted, and I intend to introduce 
legislation to this effect in the very near future.

                           prepared statement

    In Cambodia, the attacks earlier this year against Thai 
interests in Phnom Penh, including the destruction of the Thai 
embassy, and the continuing assassination of opposition 
activists, monks, and judges underscores the lawlessness and 
impunity that has become the hallmark of the ruling Cambodian 
People's Party. In such a climate, talk of a Khmer Rouge 
tribunal using Cambodian courts and judges makes no sense. As 
parliamentary elections are scheduled in 3 months' time, I 
would encourage you to seize every opportunity to strengthen 
the hand of the democratic opposition in the run up to the 
polls.
    With that, let me turn to Senator Leahy.
    [The statement follows:]
             Prepared Statement of Senator Mitch McConnell
    Welcome, Mr. Secretary. It is always a pleasure to have you appear 
before this Subcommittee.
    Let me begin by expressing my gratitude to the President, his 
entire Cabinet, and our soldiers and sailors for the quick and decisive 
victory in Iraq. Once again, we have affirmed that we have the best 
trained, equipped and disciplined military in the world, and the best 
leaders on--and off--the battlefield.
    The victory in Iraq belongs to the people of Iraq, and the 
challenge now falls upon the coalition to repair damaged 
infrastructure, establish democratic institutions, and vest the 
principles of freedom and justice in the consciousness and lives of the 
Iraqi people. While Congress included $2.5 billion for these efforts in 
the war supplemental, the country's natural resources provide an 
advantage that will hopefully sustain and accelerate the reform and 
recovery process. The United Nations should immediately end the 
sanctions against Iraq so that profits from these resources can go 
directly to the people of Iraq.
    While some believe that political transition in Iraq alone will be 
a harbinger of reform throughout the region, a more effective catalyst 
for change comes in the form of a trinity: (1) a quick and successful 
democratic transition in Iraq; (2) a workable roadmap for security and 
peace between Palestinians and Israelis that includes new Palestinian 
leadership that, first and foremost, actively combats terrorism; and, 
(3) a bold, new approach to America's support of political and legal 
reforms across that region.
    If this trinity is realized, the impetus for political reforms 
throughout the Middle East will be inevitable and unstoppable. The Arab 
street will find a voice in democratic institutions and through 
responsive leaders chosen by ballots--not bullets, bullying, or Israel 
bashing.
    The state of political reform in Egypt, including adherence to the 
rule of law and the functioning of democratic institutions, provides a 
good barometer of democratic change in the region. I believe that as 
goes Egypt, so goes the Middle East.
    Shifting to North Korea, the Hermit Kingdom's ongoing bluster and 
its appalling repression of the North Korean people continue to be a 
grave concern to many of us. Although attention to North Korea's 
nuclear program may have been overshadowed by military operations in 
Iraq, I am hopeful the State Department will continue to focus on the 
myriad challenges posed by this nation. From nuclear weapons to 
narcotics trafficking and a potential North East Asian nuclear arms 
race, the North Korean regime poses a growing and dangerous threat to 
its neighbors and the United States.
    Negotiating with North Korea is no small or easy task. This is a 
country that makes France look trustworthy.
    Let me make a few comments on the fiscal year 2004 request for 
foreign operations. Over $2 billion is requested for four new accounts 
that potentially offer more rapid responses to global crises. It would 
be helpful to the Subcommittee if you could summarize the objectives of 
each of these new accounts--the Millennium Challenge Account, the U.S. 
Emergency Fund for Complex Foreign Crises, the Famine Fund, and the 
Global AIDS Initiative--and provide greater detail on the management of 
these funds, and overlap, if any, with existing foreign assistance 
programs.
    The funding request has again been reduced for the Assistance for 
Eastern Europe and Baltic States (SEED) and Assistance for Independent 
States (NIS) accounts by $86 million and $179 million, respectively, 
below the fiscal year 2003 enacted levels. While I fully support 
graduating countries that receive U.S. foreign aid, I remain concerned 
that too steep and rapid cuts may have unintended consequences.
    A case in point is Serbia. The recent assassination of Serbian 
Prime Minister Zoran Djindic has spurred a massive crackdown on 
organized crime, some of which is linked to cronies of Slobodan 
Milosevic. It is clear that political, legal and economic reforms are 
still needed in Serbia, and instead of reducing assistance by $15 
million, we should be considering additional support for programs and 
activities that the bolster these necessary reforms.
    Let me close with a few brief comments on Burma and Cambodia. As 
predicted, we have not seen progress in the dialogue between the State 
Peace and Development Council (SPDC) and Daw Aung San Suu Kyi since her 
release from house arrest. The news out of Burma reports no signs of 
reconciliation--only continued repression of the people of Burma by the 
SPDC, brutal rapes of ethnic girls and women, and unwillingness to meet 
with the NLD, the U.N. special envoy, and ethnic nationalities. I 
applaud the State Department's recommendation to the White House that 
the regime in Burma should not be certified as making progress or 
cooperating with the United States on counternarcotics matters. It is 
clear that additional sanctions against the junta in Rangoon are 
warranted, and I intend to introduce legislation to this effect in the 
very near future.
    In Cambodia, the attacks earlier this year against Thai interests 
in Phnom Penh--including the destruction of the Thai Embassy--and the 
continuing assassination of opposition activists, monks, and judges 
underscores the lawlessness and impunity that has become the hallmark 
of the ruling Cambodian People's Party. In such a climate, talk of a 
Khmer Rouge tribunal using Cambodian courts and judges makes no sense. 
As parliamentary elections are scheduled in three months time, I 
encourage the State Department to seize every opportunity to strengthen 
the hand of the democratic opposition in the run up to these polls.
    Thank you again, Mr. Secretary, for appearing before this 
Subcommittee and I look forward to your testimony.

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman, and Mr. Secretary, 
I welcome you to the first hearing of the subcommittee this 
year. Many people here don't know about the exclusive club that 
Secretary Powell and I belong to. We both had the honor of 
speaking at the Mitch McConnell Center for Political Leadership 
in Louisville, Kentucky. We also, the Secretary and his lovely 
wife and my wife and I were married the same year, the same 
day, virtually the same hour.
    I appreciated, Mr. Chairman, the opportunity that you gave 
to both the Secretary and myself. I also appreciate the 
Louisville Slugger they gave me. I am not much of a baseball 
player, but I have been practicing. I was actually thinking of 
changing my career, until realized that was your real motive in 
having me come down.
    But I know the Secretary has a lot of demands on his time, 
and I am one who feels that President Bush made a superb choice 
in selecting the Secretary for this job. I think he has been an 
invaluable voice for our country.
    We have worked hard in this subcommittee to give you the 
funds you need. We have exceeded the administration's budget 
request for foreign assistance every year. Senator McConnell 
and I worked closely to get bipartisan support for that. I hope 
that trend continues, because we face a lot of challenges.
    The President's fiscal year 2004 budget is a step forward, 
but even if we appropriate every dime of it, it is still less 
than 1 percent of the total Federal budget. I don't think we 
can mount a credible challenge to global poverty, international 
terrorism, and all the other threats we face. We need more 
resources.
    I am concerned about the development assistance account, 
which would be cut under this budget. The funding for child 
survival and health programs, including funding to combat 
infectious diseases, would be cut, and that is wrong. Aid to 
Russia would be cut. Aid to our Central American neighbors 
would remain a fraction of what it should be. There are a 
number of areas, from promoting renewable energy to building 
democracy, where we could do much more.
    I know that the State Department's leading role in foreign 
policy goes back more than two centuries, when one of your 
predecessors, Thomas Jefferson, was the first Secretary of 
State. I am concerned that that role is under assault, 
including by some within the administration. Most recently, it 
was challenged by former Speaker of the House Newt Gingrich, 
now a member of the Defense Policy Board. He called the State 
Department a ``broken instrument of diplomacy.'' I reject that 
view. I believe his attacks against people who work for you are 
unfair and misguided.
    Like any government agency or congressional bodies and many 
private companies, there are things that could be done better, 
of course. We all know that. But there are many, many things 
that State Department employees do every single day that are 
not reported in the news, but they advance U.S. interests, they 
help make the world safer, and you and I know that you have 
some of the most talented men and women in the world working 
for you.
    Now, Mr. Gingrich, like some in the administration who 
promote unilateralism and favor military force over diplomacy, 
claimed the war in Iraq involved 6 months of diplomatic failure 
and 1 month of military success. That is a misstatement of 
history. Diplomacy achieved important results, including a 
unanimous vote in the U.N. Security Council. It was senior 
Pentagon officials who engaged in name-calling, such as ``Old 
Europe,'' and exacerbated tensions with key allies, making the 
State Department's job more difficult.
    The war in Iraq has raised serious questions about the 
appropriate roles of the Pentagon and State Department in 
diplomacy and managing foreign aid programs. Over the past 
couple of years, we have seen the steady encroachment by the 
Pentagon into areas where the State Department and USAID have 
far more expertise, in formulating U.S. foreign policy and 
post-conflict reconstruction.
    The Defense Department is second to none at fighting wars. 
I agree with Senator McConnell on that. We have the best men 
and women, the best Navy, the best Army, the best Air Force, 
the best Marine Corps in the world. I also point out that a lot 
of that, though, began during a time when you, Mr. Secretary, 
were Chairman of the Joint Chiefs of Staff. The Pentagon has a 
role to play after conflicts end, but the State Department 
should have the final say when it comes to foreign policy and 
foreign assistance. It is disturbing that key officials in the 
administration seem determined to weaken the State Department.

                           prepared statement

    I have a number of questions, and because of the shortness 
of time, I will pass on the others to your legislative affairs 
people, who I have found to be excellent in getting back to us 
with the information we need. Thank you, Mr. Chairman.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Mr. Secretary, welcome to the first hearing of this Subcommittee 
this year. I should begin by pointing out for those here who may not 
know, that Secretary Powell and I are both members of a very 
distinguished, selective club. We both had the honor of speaking at the 
Mitch McConnell Center for Political Leadership in Louisville, 
Kentucky.
    I very much appreciated that opportunity. And I especially 
appreciated the gift of the Louisville Slugger baseball bat with my 
name on it. I have never been much of a baseball player, but Senator 
McConnell's gift might inspire me to consider a new career--maybe that 
was his reason for inviting me down there.
    On a serious note, thank you, Mr. Secretary, for testifying today. 
I know you have a lot of other demands on your time. But I also know 
you agree that without the budget this Committee appropriates, you 
would not have the resources to do much of anything.
    As I have said before, President Bush made a superb choice in 
selecting you for this position. You are doing an excellent job. You 
have been an invaluable voice of reason and moderation for the 
Administration's foreign policy.
    This Subcommittee has worked hard to give you the funds you need. 
We have exceeded the Administration's budget request for foreign 
assistance every year. I hope this trend continues, because I do not 
believe we are yet responding adequately to the many global challenges 
we face.
    The President's fiscal year 2004 budget request is a step forward, 
but even if we appropriate every dime he has asked for it will still 
amount to only about 1 percent of the Federal budget. How can we 
possibly mount a credible challenge to global poverty, international 
terrorism, and all the other threats we face, with so few resources? We 
cannot.
    I am concerned about the Development Assistance account, which 
would be cut. Funding for Child Survival and Health Programs, including 
to combat infectious diseases, would be cut. This is foolhardy. Aid to 
Russia would be cut. Aid to our Central American neighbors would remain 
a fraction of what it should be. And there are many areas--from 
promoting renewable energy to building democracy, where we should be 
doing far more. We are missing so many opportunities.
    Mr. Secretary, this Subcommittee knows well that the State 
Department's leading role in foreign policy dates back more than two 
centuries, when Thomas Jefferson became the first Secretary of State. 
But today that role is under assault, including by some within the 
Administration. Most recently, it was challenged by former Speaker of 
the House Newt Gingrich, now a member of the Defense Policy Board, when 
he called the State Department a ``broken instrument of diplomacy.''
    I reject that view, and I believe his attacks against people who 
work for you are unfair and misguided.
    Like any government agency and many private companies, there are 
things that the State Department could do better. I know that you are 
working on that. But there are many, many things that State Department 
employees do every day, that are not reported on CNN, to advance U.S. 
interests and help to make the world safer.
    Mr. Gingrich, like those in the Administration who promote 
unilateralism and favor military force over diplomacy, claimed that the 
war in Iraq involved ``six months of diplomatic failure and one month 
of military success.'' That is a misstatement of history.
    I believe the Administration abandoned the diplomatic track too 
soon. Diplomacy achieved important results, including a unanimous vote 
in the U.N. Security Council. It was senior Pentagon officials who 
engaged in name-calling such as ``Old-Europe'' and exacerbated tensions 
with key allies--making the State Department's job more difficult.
    Like everyone in this room, I am glad that Saddam Hussein is no 
longer in power. However, had we been more patient, I believe we could 
have dealt with Saddam Hussein without damaging relations with 
important allies. These were not mutually exclusive goals.
    The war in Iraq has raised serious questions about the appropriate 
roles of the Pentagon and the State Department in diplomacy and in 
managing foreign aid programs. Over the past couple of years, we have 
seen the steady encroachment by the Pentagon into areas where the State 
Department and USAID have far more expertise--from formulating U.S. 
foreign policy to post-conflict reconstruction.
    The Defense Department is second to none at fighting wars. It also 
has a role to play after conflicts end, but the State Department should 
have the final say when it comes to foreign policy and foreign 
assistance. It is disturbing that key officials in this Administration 
seem determined to weaken the State Department.
    Mr. Secretary, I will only have time to ask a few of the many 
questions I have today. Those that I do not have time for I will pass 
on to your Legislative Affairs staff, who do an excellent job of 
quickly getting us the information we ask for. We appreciate that very 
much.

    Senator McConnell. Thank you, Senator Leahy.
    Mr. Secretary.

               SUMMARY STATEMENT OF HON. COLIN L. POWELL

    Secretary Powell. Thank you very much, Mr. Chairman. Thank 
you for your opening remarks and observations, and thank you 
also, Senator Leahy, for your comments.
    Before beginning my brief oral statement, I would like to 
offer a full statement for the record, Mr. Chairman.
    Senator McConnell. Without objection, it will be included 
in the record.
    Secretary Powell. And let me respond to a few of the points 
that were made in your opening statements, if I may.
    With respect to oil revenue and how to use it in Iraq, the 
interesting concept that has been used in Alaska for so many 
years is under consideration. We are looking at that. Senator 
Stevens has educated me over the years as to the merit of this 
approach to the use of oil, a portion of the revenues going 
into a fund which then can be used to compensate the people in 
a way that they can make a choice as to how the wealth of the 
state is being used. I think that is a concept that applies in 
the case of Iraq, at least for consideration.
    The ultimate judgment, of course, will be up to the Iraqi 
people. We made it clear that this is oil that belongs to them, 
for them, by them. They will figure out how to use it and we 
will help them to get started down the road to responsible 
stewardship of this marvelous treasure that the Iraqi people 
own.
    I am sure, in the course of our questioning I can get into 
specific answers on Iraq, the Middle East, the Middle East 
peace process and what has happened in the last 24 hours with 
respect to the appointment of a Palestinian Prime Minister. 
Earlier today, as a result of that appointment and his 
confirmation by the PLC, the Palestinian legislature, we 
presented the Road Map. Earlier this morning, Ambassador 
Kurtzer, Ambassador to Israel, presented the Road Map to Prime 
Minister Sharon. Representatives of the courts have presented 
the Road Map to the Prime Minister now, first Prime Minister of 
the Palestinian Authority, Mr. Mahmoud Abbas. I had an 
opportunity to call both Prime Ministers early this morning to 
encourage them to do everything in their respective powers to 
make sure we get a good start down this path to peace. A new 
opportunity is being created. It is an opportunity that must 
not be lost, and I was very pleased at the response from both 
Prime Ministers, who are anxious to move forward.
    Senator, I do share your concerns about Burma and Cambodia, 
as well. I will be passing through Cambodia briefly in a few 
weeks' time, in a month and a half or so, attending the ASEAN 
regional forum meetings there. I won't be there for a very long 
period of time, but enough to at least talk to my ASEAN 
colleagues about the situation in the country we will be 
visiting and also have some conversation with the leadership 
there and, once again, express our concerns to them.
    Senator Leahy, let me especially thank you for your 
comments about the Department of State, and let me express my 
thanks to this committee for the confidence that you have 
placed in the men and women of the State Department. Just as we 
have the finest soldiers, sailors, airmen, and marines, I can 
tell you, we have the finest foreign service officers and civil 
servants and foreign service nationals working for the interest 
of the United States of America.
    When I became Secretary, I had about five reports on my 
desk of improvements that people suggested could be made in the 
State Department from different task forces and panels. I had 
been on one of those panels and had made the recommendations 
for that panel, and now I am the Secretary of State to 
implement them. So we are always willing to receive helpful, 
constructive comment as to how to improve our operation. With 
the support of this committee and other committees in the 
Congress and the Congress, we have done a lot with respect to 
recruiting, with respect to security, with respect to putting a 
sense of purpose and morale into our troops, esprit de corps in 
all the members of our State Department family.
    I send young State Department officers out to the most 
difficult places in the world to serve their country, taking 
their families with them where there may not be any hospital 
care, where there may not be any school for their kids, or 
where they are separated from their families for a longer 
period of time than the average soldier gets separated from his 
family. They go willingly and they go with a smile on their 
face because they are happy to serve the American people.
    Now, ever since Thomas Jefferson was sworn in as the first 
Secretary of State, an uninterrupted line of Secretaries of 
State, from number 1 to number 65, have been criticized at one 
time or another for being diplomats: for trying to find 
peaceful solutions, to building friendships around the world, 
to creating alliances. That is what we do. We do it damn well, 
and I am not going to apologize to anybody. I am on the offense 
for the people who work in my Department, doing a great job, 
and if you come after them, come after them with legitimate 
criticism and we will respond to that. We are not above 
criticism.
    But if you come after us just to come after us, you are in 
for a fight. I am going to fight back and I am going to protect 
my Department and my people. I am also going to defend the 
policies of the President, which were attacked even more 
vigorously than any sideways attack on the contributions and 
the loyalty and the dedication and the courage and the 
willingness to serve of the men and women of the State 
Department. Hopefully, we can pursue the issue of how the State 
Department is functioning in a reasonable manner, with 
constructive comments welcomed and open debate taking place.
    With respect to what is going on within the administration, 
it is not the first time I have seen discussions within the 
administration between one Department or another. I have been 
in four straight administrations at a senior level, and thus it 
has been and thus it has always been, and thus it should be. 
There should be tension within the national security team, and 
from that tension arguments are surfaced for the President, and 
the one who decides, the one who makes the foreign policy 
decisions for the United States of America is not the Secretary 
of State or the Secretary of Defense or the National Security 
Advisor. It is the President. It is our job, my job and Don's 
job and Condi's job and the Vice President's job and George 
Tenet's job to give the President our best advice, and the 
President is the one who decides.
    Complicated issues come along. How do you go into a place 
like Iraq, which is a military operation that has to be run by 
the military. The initial reconstruction period has to be under 
the control of the military and there has to be unity of 
command and purpose. We fully appreciate and support that. I 
have, I think it is now five ambassadors working for General 
Franks and for Jay Garner.
    But in due course, as a government is set up, the interim 
authority being the embryonic state of that government, as it 
grows into a fully representative government for the people of 
Iraq, slowly but surely, that will shift over. USAID and non-
governmental organizations and bodies of the United Nations and 
other international institutions will play a much more 
important and significant role during that transition. And so 
will the State Department, as we put in place our diplomatic 
presence, as we put in place an embassy, and as we get back to 
normal sorts of relations.
    Now, in this transition, the gears will grind from time to 
time and it is my job and Don's job and Condi and the Vice 
President to put some oil on those gears to make sure it isn't 
a distraction. All of these things are manageable, and what we 
have is the finest group of young men and women working for the 
security of this nation and our foreign policy interests, 
whether they are wearing a suit similar to mine or wearing a 
suit similar to the one I used to wear. We are all part of one 
team trying to get the job done for the American people.
    Mr. Chairman, if I may, I will briefly summarize my 
statement because I think you have had a chance to examine it. 
It has been before the members of the committee for some time 
now.
    I am pleased to appear, to testify in support of the 
President's International Affairs budget for fiscal year 2004. 
Funding requested for the next fiscal year for the Department, 
USAID, and other foreign affairs agencies is $28.5 billion. The 
funding will allow the United States to target security and 
economic assistance to sustain key countries supporting us in 
the war on terrorism; it will allow us to launch the Millennium 
Challenge Account, a new partnership that I think 
revolutionizes the way in which we help the neediest of nations 
around the world who are committed to democracy and the free 
enterprise system.
    The budget will also allow us to strengthen the United 
States' commitment and global commitment to fighting HIV/AIDS 
and other humanitarian hardships. It will allow us to combat 
illegal drugs in the Andean region, as well as bolster 
democracy in Colombia. I will be meeting later this afternoon 
with President Bush and President Uribe to get a report from 
President Uribe on his strategy for going after narco-
traffickers in Colombia.
    It will also allow us to reinforce America's world class 
diplomatic force. I have often said to this committee that I am 
not only foreign policy advisor, but leader and manager of the 
Department, and I take that charge seriously. We have done a 
great job in starting to hire people again. In the 3 years that 
I have been responsible for the budget and in the 25 months 
that I have been Secretary of State, over that period, we have 
brought in a little over 1,100 new hires over and above 
attrition.
    We are finally putting blood back into the Department, new 
people coming in. Tens upon tens of thousands of young 
Americans are signing up to take the Foreign Service exam. I 
swore in another class last week. Three weeks ago on a 
Saturday, 20,000 Americans assembled to take the Foreign 
Service exam at sites all over the country. They want to be a 
part of this team. They are proud of what this team is doing 
and they want to be a part of it, and as a result of the 
generosity and understanding and support of the Congress, we 
are now able to hire people.
    For those who criticize the Department who were in Congress 
in the 1990s, they ought to take a look at the record as to how 
they spent part of the 1990s cutting the budget of the 
Department of State and prohibiting the Department of State 
from hiring individuals that were needed to keep strength and 
vitality within the Department.
    I hope that you will continue to support me in those 
efforts, not only to bring first class people into a first 
class force, but also to bring state-of-the-art information 
technology to the Department. That was also one of my 
commitments. I wanted to make sure that every member of the 
Department of State anywhere in the world had access to the 
Internet. We are 24/7, instantaneous communications, 
instantaneous decision making. We can't be typing out cables on 
teletypes any longer. Before I leave as Secretary of State, I 
want the entire Department wired so we are talking to each 
other electronically and instantaneously through the power of 
the Internet in a completely secure, classified manner, and 
every member of the Department hooked up.
    I also committed myself and to the President that we would 
wipe the slate clean and straighten out our overseas building 
operation. We have done that, and I think we can all be proud 
of the job that General Williams and his great team have done. 
Our embassies are coming in on time, under cost, and secure, 
and beyond that, they are attractive and we are meeting the 
standards that the Congress set for us. I need your continued 
support and the support of all Members of Congress for embassy 
security and construction and other matters related to the 
infrastructure needs of the Department.
    The number one priority with respect to our Foreign 
Operations budget is to fight and win the global war on 
terrorism. This budget furthers this goal by providing 
economic, military, and democracy assistance to key foreign 
partners and allies, including $4.7 billion to countries that 
have joined us in the war on terrorism. Of this amount, the 
President's budget provides $657 million for Afghanistan, $460 
million for Jordan, $395 million for Pakistan, $255 million for 
Turkey, $136 million for Indonesia, and $87 million for the 
Philippines.
    In Afghanistan, the funding will be used to fulfill our 
commitment to rebuild Afghanistan's road network, especially 
the important ring road that really connects the country. And 
now that warm weather is there, paving will begin very soon and 
I hope we will have most of the work done by the end of the 
year.
    In addition, we are using funding of this kind to establish 
security throughout the country and putting in place an Afghan 
police force, border guards, and working with the Pentagon on 
the creation of an Afghan national army. Our assistance will be 
coordinated with the Afghan government. We want to make sure 
the money is seen as going to the central government to empower 
President Karzai. We are also working with other international 
donors and with the United Nations.
    I want to emphasize our efforts to decrease the threats 
posed by terrorist states, by terrorist groups, rogue states, 
other non-state actors with regard to weapons of mass 
destruction and related technology. We have to strengthen our 
partnerships with countries that share our views in dealing 
with the threat of terrorism and resolving regional conflicts.
    The budget also promotes international peace and prosperity 
by launching the Millennium Challenge Account. This will be an 
independent government corporation. It will have a board that I 
will chair with other cabinet officers supervising the work of 
the corporation. There is a transition team now in the 
Department of State starting to put the corporation together 
and we will be briefing the Congress regularly as this work 
proceeds.
    As President Bush told African leaders earlier this year, 
this aid will go to nations that are committed to economic 
freedom, democracy, rooting out corruption, making sure that 
societies are resting on the rule of law, and which have 
respect for the rights of their people. They just need help to 
get going, to get started, to get a leg up so that they can 
then attract the kind of investment and participate in the kind 
of global trading activity needed to generate wealth within 
their country.
    The President's budget request also offers hope and a 
helping hand to countries facing health catastrophes, poverty, 
and despair. The budget includes more than $1 billion to meet 
the needs of refugees and internally displaced peoples. The 
budget also provides more than $1.3 billion to combat the 
global HIV/AIDS epidemic, the worst weapon of mass destruction 
on the face of the earth today. The President's total budget 
for HIV/AIDS is over $2 billion, which includes the first 
year's funding for the new emergency plan for HIV/AIDS relief.
    The budget also includes almost half-a-billion dollars for 
Colombia. The funding will support Colombian President Uribe's 
unified campaign against terrorists, and the campaign is also 
now directed against terrorists and the drug trade that fuels 
the activities of terrorists. The aim is to secure democracy, 
extend security, and restore economic prosperity to Colombia. 
Our total Andean counter-drug initiative is $731 million, and 
that includes restarting the air bridge denial program and 
stepped up eradication in alternative development efforts and 
technical assistance to strengthen Colombia's police and 
judicial institutions.
    Mr. Chairman, you talked about the Middle East and why we 
have to move forward and bring hope to those people. In our 
budget, we have included $145 million for the Middle East 
Partnership Initiative. This initiative gives us a framework 
and funding for working with the Arab world, to expand 
educational and economic opportunities, empower women, and 
strengthen civil society and the rule of law.
    The peoples and governments of the Middle East face 
daunting challenges. Their economies are stagnant, unable to 
provide the jobs needed for millions of young people who are 
entering the workplace each year. Too many of their governments 
appear closed and unresponsive to the needs of their citizens 
and their schools are not equipping students to succeed in 
today's globalized world.
    In the programs these dollars will fund, we will work with 
our Nation's groups and individuals to bridge the jobs gap with 
economic reform, business investment, and private sector 
development. We will close the freedom gap with projects to 
strengthen civil society, expand political participation, and 
lift the voices of women, and we will bridge the knowledge gap 
with better schools and more opportunity for higher education.
    Finally, Mr. Chairman, I want to address the issue of 
hunger, famine, and food aid. Historically, America has been 
the largest donor of assistance for victims of famine and food 
emergencies. Thanks to the help of the Appropriations 
Committees, Congress provides $1.44 billion in urgently needed 
Public Law 480 Title II food aid for fiscal year 2003. Our 2004 
food aid request of $1.19 billion will be complemented with a 
new famine fund, one of the funds that you touched on, sir, a 
famine fund initiative of $200 million. This initiative will 
provide emergency food grants for support to meet crisis 
situations on a case-by-case basis, giving us that extra 
flexibility to respond where needed. I really need this fund. 
Too often, I find when faced with a sudden problem, I am 
robbing Peter to pay Paul and someone comes up short. This will 
give me and the President the needed flexibility to respond to 
crises.

                           prepared statement

    Mr. Chairman, that ends my opening remarks and I am now 
pleased to take your questions or respond in depth to any of 
the particular issues you raise in your opening statements.
    Senator McConnell. Thank you, Mr. Secretary.
    [The statement follows:]
                 Prepared Statement of Colin L. Powell
    Mr. Chairman, members of the subcommittee, I am pleased to appear 
before you to testify in support of the President's International 
Affairs Budget for fiscal year 2004. Funding requested for fiscal year 
2004 for the Department of State, USAID, and other foreign affairs 
agencies is $28.5 billion.
    The President's Budget will allow the United States to:
  --Target security and economic assistance to sustain key countries 
        supporting us in the war on terrorism and helping us to stem 
        the proliferation of weapons of mass destruction;
  --Launch the Millennium Challenge Account--a new partnership 
        generating support to countries that rule justly, invest in 
        their people, and encourage economic freedom;
  --Strengthen the United States and global commitment to fighting HIV/
        AIDS and alleviating humanitarian hardships;
  --Combat illegal drugs in the Andean Region of South America, as well 
        as bolster democracy in one of that region's most important 
        countries, Colombia; and
  --Reinforce America's world-class diplomatic force, focusing on the 
        people, places, and tools needed to promote our foreign 
        policies around the world.
    I am particularly proud of the last bullet, Mr. Chairman, because 
for the past two years I have concentrated on each of my jobs--primary 
foreign policy advisor to the President and Chief Executive Officer of 
the State Department.
    I know this subcommittee's specific oversight responsibilities lie 
in the area of Foreign Operations, but I also know that you are all 
members of the larger Appropriations Committee. In that capacity, I ask 
for your strong support for funding for my CEO initiatives. And I would 
like to highlight for you three of the most important of those 
initiatives.
          the ceo responsibilities: taking care of operations
    First, we have been reinforcing our diplomatic force for two years 
and we will continue in fiscal year 2004. We will hire 399 more 
professionals to help the President carry out the nation's foreign 
policy. This hiring will bring us to the 1,100-plus new foreign and 
civil service officers we set out to hire over the first three years to 
bring the Department's personnel back in line with its diplomatic 
workload. Moreover, completion of these hires will allow us the 
flexibility to train and educate all of our officers as they should be 
trained and educated. So I am proud of that accomplishment and want to 
thank you for helping me bring it about.
    Second, I promised to bring state-of-the-art communications 
capability to the Department--because people who can't communicate 
rapidly and effectively in today's globalizing world can't carry out 
our foreign policy. We are approaching our goal in that regard as well. 
In both unclassified and classified communications capability, 
including desk-top access to the Internet for every man and woman at 
State, we will be there at the end of 2003. The budget before you will 
sustain these gains and continue our information technology 
modernization effort.
    Finally, with respect to my CEO role, I wanted to sweep the slate 
clean and completely revamp the way we construct our embassies and 
other overseas buildings, as well as improve the way we secure our men 
and women who occupy them. As you well know, that last task is a long-
term, almost never-ending one, particularly in this time of heightened 
terrorist activities. But we are well on the way to implementing both 
the construction and the security tasks in a better way, in a less 
expensive way, and in a way that subsequent CEOs can continue and 
improve on.
    Mr. Chairman, the President's fiscal year 2004 discretionary 
request for the Department of State and Related Agencies is $8.497 
billion. As you review this funding in the larger committee, I ask for 
your support for these dollars.
    Let me turn now to your primary oversight responsibility, Foreign 
Operations.
    the foreign policy advisor responsibilities: funding america's 
                       diplomacy around the world
    The fiscal year 2004 budget proposes several initiatives to advance 
U.S. national security interests and preserve American leadership. The 
fiscal year 2004 Foreign Operations budget that funds programs for the 
Department State, USAID and other foreign affairs agencies is $18.8 
billion. Today, our number one priority is to fight and win the global 
war on terrorism. The budget furthers this goal by providing economic, 
military, and democracy assistance to key foreign partners and allies, 
including $4.7 billion to countries that have joined us in the war on 
terrorism.
    The budget also promotes international peace and prosperity by 
launching the most innovative approach to U.S. foreign assistance in 
more than forty years. The new Millennium Challenge Account (MCA), an 
independent government corporation funded at $1.3 billion will redefine 
``aid''. As President Bush told African leaders meeting in Mauritius 
recently, this aid will go to ``nations that encourage economic 
freedom, root out corruption, and respect the rights of their people.''
    Moreover, this budget offers hope and a helping hand to countries 
facing health catastrophes, poverty and despair, and humanitarian 
disasters. It provides $1.345 billion to combat the global HIV/AIDS 
epidemic, TB, and Malaria; more than $1 billion to meet the needs of 
refugees and internally displaced peoples; and $200 million in 
emergency food assistance to support dire famine needs. In addition, 
the budget includes a new $100 million proposal to enable swift 
responses to complex foreign crises, including support for peace and 
humanitarian intervention operations to prevent or respond to foreign 
territorial disputes, armed ethnic and civil conflicts that pose 
threats to regional and international peace, and acts of ethnic 
cleansing, mass killing, or genocide.
    Mr. Chairman, let me give you some details.
    The United States is successfully prosecuting the global war on 
terrorism on a number of fronts. We are providing extensive assistance 
to states on the front lines of the anti-terror struggle. Working with 
our international partners bilaterally and through multilateral 
organizations, we have frozen more than $110 million in terrorist 
assets, launched new initiatives to secure global networks of commerce 
and communication, and significantly increased the cooperation of our 
law enforcement and intelligence communities. Afghanistan is no longer 
a haven for al-Qaeda. We are now working with the Afghan Authority, 
other governments, international organizations, and NGOs to rebuild 
Afghanistan. Around the world we are combating the unholy alliance of 
drug traffickers and terrorists who threaten the internal stability of 
countries. We are leading the international effort to prevent weapons 
of mass destruction from falling into the hands of those who would do 
harm to us and others. At the same time, we are rejuvenating and 
expanding our public diplomacy efforts worldwide.
                     assistance to frontline states
    The fiscal year 2004 International Affairs budget provides 
approximately $4.7 billion in assistance to the Frontline States, which 
have joined with us in the war on terrorism. This funding will provide 
crucial assistance to enable these countries to strengthen their 
economies, internal counter-terrorism capabilities and border controls.
    Of this amount, the President's Budget provides $657 million for 
Afghanistan, $460 million for Jordan, $395 million for Pakistan, $255 
million for Turkey, $136 million for Indonesia, and $87 million for the 
Philippines. In Afghanistan, the funding will be used to fulfill our 
commitment to rebuild Afghanistan's road network; establish security 
through a national military and national police force, including 
counter-terrorism and counter-narcotics components; establish broad-
based and accountable governance through democratic institutions and an 
active civil society; ensure a peace dividend for the Afghan people 
through economic reconstruction; and provide humanitarian assistance to 
sustain returning refugees and displaced persons. United States 
assistance will continue to be coordinated with the Afghan government, 
the United Nations, and other international donors.
    The State Department's Anti-Terrorism Assistance (ATA) program will 
continue to provide frontline states a full complement of training 
courses, such as a course on how to conduct a post-terrorist attack 
investigation or how to respond to a WMD event. The budget will also 
fund additional equipment grants to sustain the skills and capabilities 
acquired in the ATA courses. It will support as well in-country 
training programs in Afghanistan, Pakistan, and Indonesia.
              central asia and freedom support act nations
    In fiscal year 2004, over $157 million in Freedom Support Act (FSA) 
funding will go to assistance programs in the Central Asian states. The 
fiscal year 2004 budget continues to focus FSA funds to programs in 
Uzbekistan, Kyrgyzstan and Tajikistan, recognizing that Central Asia is 
of strategic importance to United States foreign policy objectives. The 
fiscal year 2004 assistance level for Uzbekistan, Kyrgyzstan and 
Tajikistan is 15 percent above 2003. These funds will support civil 
society development, small business promotion, conflict reduction, and 
economic reform in the region. These efforts are designed to promote 
economic development and strengthen the rule of law in order to reduce 
the appeal of extremist movements and stem the flow of illegal drugs 
that finance terrorist activities.
    Funding levels and country distributions for the FSA nations 
reflect shifting priorities in the region. For example, after more than 
10 years of high levels of assistance, it is time to begin the process 
of graduating countries in this region from economic assistance, as we 
have done with countries in Eastern Europe that have made sufficient 
progress in the transition to market-based democracies. United States 
economic assistance to Russia and Ukraine will begin phasing down in 
fiscal year 2004, a decrease of 32 percent from 2003, moving these 
countries towards graduation.
             combating illegal drugs and stemming terrorism
    The President's request for $731 million for the Andean Counterdrug 
Initiative includes $463 million for Colombia. An additional $110 
million in military assistance to Colombia will support Colombian 
President Uribe's unified campaign against terrorists and the drug 
trade that fuels their activities. The aim is to secure democracy, 
extend security, and restore economic prosperity to Colombia and 
prevent the narco-terrorists from spreading instability to the broader 
Andean region. Critical components of this effort include resumption of 
the Airbridge Denial program to stop internal and cross-border aerial 
trafficking in illicit drugs, stepped up eradication and alternative 
development efforts, and technical assistance to strengthen Colombia's 
police and judicial institutions.
   halting access of rogue states and terrorists to weapons of mass 
                              destruction
    Decreasing the threats posed by terrorist groups, rogue states, and 
other non-state actors requires halting the spread of weapons of mass 
destruction (WMD) and related technology. To achieve this goal, we must 
strengthen partnerships with countries that share our views in dealing 
with the threat of terrorism and resolving regional conflicts.
    The fiscal year 2004 budget requests $35 million for the 
Nonproliferation and Disarmament Fund (NDF), more than double the 
fiscal year 2003 request, increases funding for overseas Export 
Controls and Border Security (EXBS) to $40 million, and supports 
additional funding for Science Centers and Bio-Chem Redirection 
Programs.
    Funding increases requested for the NDF and EXBS programs seek to 
prevent weapons of mass destruction from falling into the hands of 
terrorist groups or states by preventing their movement across borders 
and destroying or safeguarding known quantities of weapons or source 
material. The Science Centers and Bio-Chem Redirection programs support 
the same goals by engaging former Soviet weapons scientists and 
engineers in peaceful scientific activities, providing them an 
alternative to marketing their skills to states or groups of concern.
                      millennium challenge account
    The fiscal year 2004 Budget request of $1.3 billion for the new 
Millennium Challenge Account (MCA) as a government corporation fulfills 
the President's March 2002 pledge to create a new bilateral assistance 
program, markedly different from existing models. This budget is a huge 
step towards the President's commitment of $5 billion in annual funding 
for the MCA by 2006, a 50 percent increase in core development 
assistance.
    The MCA supplements U.S. commitments to humanitarian assistance and 
existing development aid programs funded and implemented by USAID. It 
will assist developing countries that make sound policy decisions and 
demonstrate solid performance on economic growth and reducing poverty.
  --MCA funds will go only to selected developing countries that 
        demonstrate a commitment to sound policies--based on clear, 
        concrete and objective criteria. To become eligible for MCA 
        resources, countries must demonstrate their commitment to 
        economic opportunity, investing in people, and good governance.
  --Resources will be available through agreements with recipient 
        countries that specify a limited number of clear measurable 
        goals, activities, and benchmarks, and financial accountability 
        standards.
    The MCA will be administered by a new government corporation 
designed to support innovative strategies and to ensure accountability 
for measurable results. The corporation will be supervised by a Board 
of Directors composed of Cabinet level officials and chaired by the 
Secretary of State. Personnel will be drawn from a variety of 
government agencies and non-government institutions and serve limited-
term appointments.
    In fiscal year 2004, countries eligible to borrow from the 
International Development Association (IDA), and which have per capita 
incomes below $1,435, (the historical IDA cutoff) will be considered. 
In 2005, all countries with incomes below $1,435 will be considered. In 
2006, all countries with incomes up to $2,975 (the current World Bank 
cutoff for lower middle income countries) will be eligible.
    The selection process will use 16 indicators to assess national 
performance--these indicators being relative to governing justly, 
investing in people, and encouraging economic freedom. These indicators 
were chosen because of the quality and objectivity of their data, 
country coverage, public availability, and correlation with growth and 
poverty reduction. The results of a review of the indicators will be 
used by the MCA Board of Directors to make a final recommendation to 
the President on a list of MCA countries.
              the u.s.-middle east partnership initiative
    The President's Budget includes $145 million for the Middle East 
Partnership Initiative (MEPI). This initiative gives us a framework and 
funding for working with the Arab world to expand educational and 
economic opportunities, empower women, and strengthen civil society and 
the rule of law. The peoples and governments of the Middle East face 
daunting human challenges. Their economies are stagnant and unable to 
provide jobs for millions of young people entering the workplace each 
year. Too many of their governments appear closed and unresponsive to 
the needs of their citizens. And their schools are not equipping 
students to succeed in today's globalizing world. With the programs of 
the MEPI, we will work with Arab governments, groups, and individuals 
to bridge the jobs gap with economic reform, business investment, and 
private sector development; close the freedom gap with projects to 
strengthen civil society, expand political participation, and lift the 
voices of women; and bridge the knowledge gap with better schools and 
more opportunities for higher education. The U.S.-Middle East 
Partnership Initiative is an investment in a more stable, peaceful, 
prosperous, and democratic Arab world.
    The timing now is critical. As we work to establish a peaceful and 
prosperous Iraq, and as we commit our energy and resources to realizing 
President Bush's vision of two states--Israel and Palestine--living 
side by side, we must also work to ensure that the Middle East as a 
region does not fall farther and farther behind with respect to 
economic and political freedom. We need these MEPI dollars to assist us 
in laying the broader foundation for a better tomorrow for all.
                   fighting the global aids pandemic
    The fiscal year 2004 budget continues the Administration's 
commitment to combat HIV/AIDS and to help bring care and treatment to 
infected people overseas. The HIV/AIDS pandemic has killed 23 million 
of the 63 million people it has infected to date, and left 14 million 
orphans worldwide. President Bush has made fighting this pandemic a 
priority of U.S. foreign policy.
    The President believes the global community can--and must--do more 
to halt the advance of the pandemic, and that the United States should 
lead by example. Thus, the President's fiscal year 2004 budget request 
signals a further, massive increase in resources to combat the HIV/AIDs 
pandemic. As described in the State of the Union, the President is 
committing to provide a total of $15 billion over the next five years 
to turn the tide in the war on HIV/AIDs, beginning with over $2 billion 
in the fiscal year 2004 budget request and rising thereafter. These 
funds will be targeted on the hardest hit countries, especially in 
Africa and the Caribbean with the objective of achieving dramatic on-
the-ground results. This new dramatic commitment is reflected in the 
Administration's over $2 billion fiscal year 2004 budget request, which 
includes:
  --State Department--$450 million;
  --USAID--$895 million, including $100 million for the Global Fund, 
        $150 million for the International Mother and Child HIV 
        Prevention; and $105 million for TB and Malaria; and
  --HHS/CDC/NIH--$695 million, including $100 million for the Global 
        Fund, $150 million for the International Mother and Child HIV 
        Prevention, and $15 million for TB and Malaria.
    In order to ensure accountability for results, the President has 
asked me to establish at State a new Special Coordinator for 
International HIV/AIDS Assistance. The Special Coordinator will work 
for me and be responsible for coordinating all international HIV/AIDS 
programs and efforts of the agencies that implement them.
                           hunger and famine
    Historically the United States has been the largest donor of 
assistance for victims of protracted and emergency food crises. 
Congress provided $1.44 billion in USAID-administered food aid for 
fiscal year 2003. Our fiscal year 2004 food aid request of $1.19 
billion will be complemented with a Famine Fund, as I mentioned before, 
which is a $200 million fund with flexible authorities to provide 
emergency food, grants or support to meet dire needs on a case-by-case 
basis.
                          supplemental funding
    As you are aware, Mr. Chairman, on April 16 President Bush signed 
the Supplemental legislation in which the Congress granted the 
President over $79 billion, with almost $8.2 billion of that for 
International Affairs. I want to thank you and our other oversight 
committees as well as the entire Congress for being so responsive. We 
have a huge challenge facing us in Iraq and these dollars will go a 
long way toward helping us meet that challenge successfully.
                                summary
    Mr. Chairman, members of the subcommittee, to advance America's 
interests around the world we need the dollars in the President's 
Budget for fiscal year 2004 and his supplemental request for this 
fiscal year. We need the dollars under both of my hats--CEO and 
principal foreign policy advisor. The times we live in are troubled to 
be sure, but I believe there is every bit as much opportunity in the 
days ahead as there is danger. American leadership is essential to 
dealing with both the danger and the opportunity. With regard to the 
Department of State, the President's fiscal year 2004 budget is crucial 
to the exercise of that leadership.
    Thank you and I will be pleased to answer your questions.

    Senator McConnell. What we will do now is go to the 
chairman of the full committee, Senator Stevens. We will have 
5-minute rounds of questions, which will give us the maximum 
opportunity to give everyone a chance to participate. Senator 
Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Mr. Secretary, I welcome your statement and the whole 
committee respects this budget that has been presented for you. 
I heard your comments about your involvement in the 
intergovernmental process. If there is a crucible down there, I 
am not worrying about you being the one that is being ground 
down, Mr. Secretary.
    But I obviously support the AIDS/HIV initiative that you 
have and I hope that you will keep us informed as much as you 
can about the process of the cooperation you are talking about.

                              RUSSIAN AID

    I am concerned about one item here, though. I look across 
from several cities in my State and see Eastern Russia. This 
budget cuts the Russian aid by more than 50 percent. When the 
cuts come in a program like that for Russia, or any program 
that affects a country like Russia, it is the rural parts of 
the country that are ignored after the cuts take place. The 
Russian Far East is very much in need of help. It is still 
lagging behind their whole country in terms of coming out of 
the processes that have strangled them during the period of the 
Soviet days. I want to urge you to take a look again at that.
    Alaskans go over to the Russian Far East quite often and we 
see the conditions over there and know that they need help. I 
think that this cut in the budget that is before us for Russia 
is much too deep, Mr. Secretary, and I would like to find some 
way to be assured that we can find a way to allocate more money 
into the areas where there is a great need for assistance from 
us to assure the processes of democracy are working in Russia.
    I do appreciate your being here and I hope you will excuse 
me, Mr. Chairman. I welcome you here, my friend, and look 
forward to working with you.
    Secretary Powell. Thank you, Mr. Chairman, and thank you 
for your continuing support and the support of the full 
committee and I will look at that account again. It is just a 
matter of where the greatest needs are and the ability of 
Russia to generate its own revenues, especially through its oil 
sales, to deal with these problems.
    Senator Stevens. Thank you very much.
    Senator McConnell. Thank you, Senator Stevens.

                                 SYRIA

    Mr. Secretary, with the liberation of Iraq, there is 
renewed attention to its neighbors. We look at Syria with a 
little more focus than some of us did in the past, and observe 
a two-decade-old occupation of Lebanon and ongoing support for 
terrorism. We look at the other neighbor of Iraq--Iran--and we 
see a country that aspires to be a nuclear power and a country 
that clearly supports terrorist organizations.
    On the assumption that you are going to be focusing even 
more on both of these countries, could you discuss the 
prospects for convincing the Syrians that it might be time to 
leave Lebanon and discontinue support for terrorist groups. 
Could you also discuss what prospects, if any, there are for 
discouraging the Iranians from becoming a nuclear power or to 
continue to support terrorism?
    Secretary Powell. Mr. Chairman, I will be leaving this 
evening for Europe, make a couple of stops in Europe, in Spain 
and Albania, and then I will be heading into Syria to have 
conversations with my colleague, Foreign Minister Charaa and 
President Bashar Assad, on all of the issues that you just 
touched on and others, as well.
    I think the last several weeks have given Syria a rather 
sobering experience as to the changing circumstances in the 
region, and there was a great deal of chatter a few weeks back 
about whether or not the U.S. Army was going to take a left at 
Baghdad and go on up to Syria. That was not the case. The 
President did not intend that. But I think that a clear 
indication was given that the world was losing patience with 
those nations that support terrorism, those nations that 
continue to move down a path toward development of weapons of 
mass destruction, those nations that do not mean well by their 
neighbors and for their neighbors.
    We also made it clear to the Syrians that during the course 
of Operation Iraqi Freedom, if they continued to allow 
unhindered access going into Iraq of Fedayeen or weapons or 
equipment that would sustain Baghdad, that was not a wise 
policy choice on their part; and if they allowed people to find 
haven in Damascus or other parts of Syria when it was clear 
that the regime was collapsing, that also was not a wise policy 
choice. The Syrians took note of all this, very careful note of 
it, and then the President asked me to get in touch with the 
Syrians and to go and have a conversation with them.
    What I will say to my Syrian colleagues and to President 
Bashar Assad is that there are two things that are happening 
that have fundamentally changed the circumstances in the 
region. One, Iraq. You are about to have a neighbor that is not 
a dictatorship anymore, not a regime that oppresses its people. 
Quite the contrary, we see people demonstrating. We see people 
performing religious pilgrimages that a Muslim leader kept them 
from performing for 25 years, and now they are doing it and 
they are doing it freely and peacefully.
    You are seeing a regime that is about to be put on a 
democratic footing that will be representative of all of its 
people. You might want to watch how that is happening, because 
it fundamentally changes your economic relationship with this 
country, your political relationship with this country, and 
just your door-to-door relationship with this country. No more 
subsidized oil coming your way. No more free oil coming your 
way. You ought to take a look at that.
    Today, we released the Road Map to both parties, Palestine 
and Israel; the Palestinian authority hoping to become a 
Palestine state in due course committed themselves to trying 
again in the face of enormous difficulty, but trying again to 
move down a path of peace.
    We are also interested in a comprehensive solution. A 
comprehensive solution at the end of the day must include Syria 
and Lebanon. And if Syria wants to be a part of that 
comprehensive solution, and I believe it does--President Bashar 
Assad has said it to me on a couple of occasions--then it has 
to review the policies it has been following with respect to 
the support of terrorist activities and the control they have 
over forces in Lebanon that present a threat to Northern 
Israel.
    So we will have a good discussion of all of these issues 
and I will gauge the willingness of Syria to engage with us. I 
am sure these meetings will be candid, straightforward, 
friendly, and I hope they will lead to at least the beginning 
of a changed point of view. But it is a decision that Syrians 
will have to make as to what kind of future they wish to be a 
part of and to see take place in their own country.

                                  IRAN

    Senator McConnell. We are out of time, but do you want to 
touch quickly on Iran?
    Secretary Powell. If I may, sir. Forgive me for practicing 
my talking points a day before my trip.
    We have a similar situation where Iran continues to support 
terrorist activities. It is on our list of states that do so 
and we have seen even more evidence in recent months of their 
pursuit of nuclear technology and ultimately, obviously, a 
nuclear weapon. A nation with all that oil doesn't have an 
immediately obvious need for nuclear power to generate 
electricity. There should be cheaper alternatives, so we have 
always been suspicious of their efforts. In recent months we 
have evidence to suggest we were correct in our suspicions and 
now the whole world ought to be very suspicious.
    But there is a churning taking place within Iran. There is 
a great deal of foment there. So many of the Iranian young 
people are expressing a view that there should be a better life 
for them. They are expressing dissatisfaction in different 
ways, through demonstrations and through their participation as 
best they can in the political process. They want to have a 
choice in their destiny and their future and there is some 
strain between the political figures and the religious figures 
within the country as they try to accommodate what I believe 
are the desires of the younger population.
    This gives us something to work with. I think we can appeal 
to that young population, give them a message, give them the 
example of Iraq, of what Iran should also be thinking about and 
considering as they see this fundamental change taking place 
just across the border, in a nation that was their sworn enemy 
for the last 20 years.
    So I think we have ways of influencing Iran, as well, not 
quite as directly as we influenced Iraq, I might say, or we 
might be able to influence Syria, but there are ways to 
influence Iran. I think all of them are now taking another look 
at their situation and the reality of these new circumstances 
as we move forward.
    Senator McConnell. Thank you. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I would say, in 
following up on that a little bit, the Ayatollahs in Iran make 
no secret of the fact that they want very much for a new 
government in Iraq to resemble theirs in Iran.
    Iran may be slowly changing. The irony would be if Iran 
became less of a theocracy, more of a democracy, and the 
opposite happened in Iraq.
    Secretary Powell. We are going to do everything we can to 
make sure that such irony does not occur. I hope that the 
people of Iraq, as they continue the process that has now 
started to create an interim authority, an embryonic 
government, and as it starts to grow into a full government 
with free elections, will realize that they do not want to look 
like Iran. What has it done for Iran? It is not a model to be 
emulated.
    Senator Leahy. I agree with that.
    Secretary Powell. There are much better models about. What 
we have to watch out for is what the Iranians might try to do 
in the southern part of Iraq, and we have some concerns about 
that and we are sharing those concerns with the Iranians, 
suggesting it is not in their interest to try to in any way 
exercise undue influence within the Shi'ia population in the 
southern part of Iraq or try to infiltrate it.
    Senator Leahy. Thank you.
    Mr. Secretary, you know, we talked earlier about this idea 
of unilateralism versus multilateralism and there is a 
temptation--we are the most powerful nation on earth, we are 
the wealthiest nation on earth and we have a worldwide economic 
and military reach--to go it alone. You can do that in 
individual instances, but at some point it wears thin.

                    SEVERE ACUTE RESIRATORY SYNDROME

    I am thinking, isn't the SARS epidemic an example where to 
go it alone just does not work? If we are going to combat SARS, 
or terrorism for that matter, there are a lot of other nations 
we have got to be involved with--China, France, Mexico, Canada, 
countries that disagreed with us on the war in Iraq. No matter 
whether they agree or disagree with us on an issue like Iraq, 
doesn't SARS illustrate why we have to work together?
    Secretary Powell. We do have to stay engaged and I think we 
are staying engaged. We are increasingly interconnected with 
respect to dealing with transnational problems, whether they 
are epidemics, such as HIV/AIDS or SARS, or whether it is 
responding to terrorism, and President Bush and his team 
understands this fully. I spend a great deal of my time working 
with the international community, whether it is regional 
organizations, the United Nations, NATO, whatever it might be, 
and the number of visitors who come here and the number of 
places that I visit.
    When you look at this charge, though, that America is too 
unilateral, I start to lay down exhibits of our unilateralism 
or our multilateralism. I look at Operation Iraqi Freedom, and 
everybody says we went off on our own and we split Europe and 
Europe wasn't with us. Europe was with us. There were some 
nations in Europe who weren't with us, but more NATO nations 
were with us than against us. More EU nations were with us than 
against us.
    Senator Leahy. I understand that. That is not precisely, 
though, what I was getting at. I was thinking, like we read in 
the paper, Chile may be punished because of----
    Secretary Powell. Chile----
    Senator Leahy. My point is that there may be issues where 
they disagree with us. But on other issues, we have got to work 
together, SARS being one.
    Secretary Powell. Oh, sure. Sure.
    Senator Leahy. Terrorism being an example, too.
    Secretary Powell. Chile will not be punished. I met with 
the Foreign Minister of Chile the day before yesterday and we 
assured her that there might be some delay as we put things in 
queue, but the President remains committed to the U.S.-Chile 
Free Trade Agreement.
    But there come occasions, Senator Leahy, where as the 
result of a disagreement or some other disappointment in a 
relationship we have with a particular country, without 
breaking up the friendship or breaking an alliance, you can 
take another look at your policies to see whether those 
policies are still the right policies to follow in light of the 
disagreement that was just passed through.
    Senator Leahy. Let me ask you one other question. We could 
go on for hours.

                        IRAQI NATIONAL CONGRESS

    We have talked about Mr. Chalabi, the head of the Iraqi 
National Congress, INC, who seems to be favored by some in the 
administration, but the Foreign Minister of Jordan warned 
against supporting him, saying he had been convicted of fraud 
in Jordan, among other things.
    Is the INC going to be the dominant party? We have given 
them $5 million recently. We have given them tens of millions 
of dollars before, we airlifted them in there, and yet we know 
from the audits done that some of the money we gave them in the 
past was misspent. Is this a fait accompli or are they just one 
of the parties?
    Secretary Powell. They are just one of the parties. Ahmed 
Chalabi spent many years of his life working hard for the 
liberation of Iraq and he believes that he should participate 
in public life. He has been one of the most effective leaders 
of the external opposition and he is now in Iraq and there is 
no reason he should not be in Iraq participating in public life 
in Iraq.
    This Congress provided a great deal of support and 
direction as to how this support should be used to the INC. 
There were some accounting problems and we controlled the flow 
of money while those accounting and accountability problems 
were dealt with by our staffs.
    But the President has made absolutely clear that the 
leadership of the new government in Iraq would be determined by 
the people of Iraq, all the people, and we would expect that 
the new government would include those who fought so hard in 
the external opposition as well as those inside the country who 
are now free of Saddam Hussein and his regime and his thugs and 
can speak out and present their case to the Iraqi people and 
see if the Iraqi people have confidence and trust in these 
individuals. So it will be a combination, we are not putting 
our bets on any particular individual or any particular group. 
It is up to the Iraqi people. The President has made this very 
clear.
    Senator Leahy. Thank you.
    Senator McConnell. Thank you, Senator Leahy.
    Senator Shelby.

               DEATH OF AMERICAN CITIZENS IN SEOUL, KOREA

    Senator Shelby. Mr. Secretary, you may have been briefed, 
and I am not sure, on the recent unexplained death of American 
citizens in Seoul, Korea.
    Secretary Powell. I don't think so.
    Senator Shelby. Mr. Matthew Sellers was from Alabama, and 
some of his family has contacted me with questions regarding 
the discrepancies in the facts and circumstances surrounding 
his death. The family has had some contact with State 
Department officials at our embassy in Seoul and two letters 
have been received from Ambassador Hubbard, but they continue 
to feel very strongly that not enough information has been 
shared with them about their brother's death and that a full 
investigation of this matter is necessary.
    So since you are not familiar with it, I will get you some 
information on it and ask you to look into it because they are 
really concerned that--there are just a lot of unanswered 
questions about his death. He was a teacher, an American from 
Alabama and had been teaching there for 17 years and he died en 
route from one hospital to the other. It is inexplicable. So I 
will get you the information.
    Secretary Powell. No, it does ring a bell now, Senator. 
When you said the name Matthew----
    Senator Shelby. Matthew----
    Secretary Powell. It didn't click, but Sellers----
    Senator Shelby. Maybe my mike wasn't on.
    Secretary Powell. I know that the family has been in touch 
with Ambassador Hubbard----
    Senator Shelby. Right.
    Secretary Powell [continuing]. And we are trying to get the 
answer and I will look into it again when I get back to the 
Department.
    Senator Shelby. I appreciate it very much and I know his 
family does.
    Secretary Powell. In circumstances like that, one always 
can't find the answer, but we should do everything we can to 
try to find the answer for the family.
    Senator Shelby. We appreciate that.
    Secretary Powell. Thank you.
    Senator Shelby. That was at the request of the family that 
I am pursuing this.

                                 KOREA

    I would like to ask you to comment where you can, 
considering the sensitivities of what is going on the peninsula 
of Korea, what can you tell us about what is going on in Korea, 
Mr. Secretary?
    Secretary Powell. We know the North Koreans have continued 
to pursue nuclear weapons technology. We discovered that last 
summer and it became clear that they were continuing to pursue 
this even though they had agreed not to as a result of the 
agreed framework of 1994 signed with the United States, and 
even though in 1992, they had entered into an agreement with 
South Korea not to have nuclear weapons, but they did anyway.
    We thought we had bottled it up with the agreed framework, 
only to discover that they popped out somewhere else. There was 
another bottle with another genie in it that we discovered with 
no cork.
    So we confronted them. They first denied it, then they 
admitted it. We have been telling them for a number of months, 
since last October when this broke out, that the only way we 
can deal with this in the future is not to deal with it the way 
we did within the past because that didn't work. So we are not 
going to get back into an ``agreed framework'' kind of 
arrangement where you make promises but you don't get rid of 
the capability; and it is ready to pop out again, and 
meanwhile, we are giving you aid and light-water reactors and 
all kinds of other things.
    We also told them that this time, the solution has to 
involve your neighbors, not that we don't have a role to play, 
and we know you are worried about us attacking you, but it is 
your neighbors who are threatened by this capability and their 
interests have to be served and they have to be part of the 
solution. Why shouldn't they be? This is part of our 
multilateral approach to problems, Senator.
    So we pressed and pressed and finally persuaded the Chinese 
to play a more active role in setting up a multilateral 
meeting. It started with trilateral, but even though it was 
just trilateral last week, we had the interest of the South 
Koreans and the Japanese in the room with Assistant Secretary 
Jim Kelly. We briefed them every step of the way, total 
transparency with Tokyo and with Seoul. We had a three-way 
meeting, the Chinese, the United States, and North Korea.
    The Chinese were full participants, not just conveners. 
They made it clear that they wanted a de-nuclearized peninsula 
and they, for the first time, publicly acknowledged the 1992 
agreement between South and North Korea. The Chinese said: ``we 
now acknowledge that and why are you violating that, too,'' was 
the implication.
    The North Koreans, in very typically bellicose fashion, 
accused us of everything imaginable and then said, we have 
reprocessed all the fuel rods that were in storage. We can't 
establish that as a matter of fact with our intelligence 
community, but they said they did it. That is their assertion. 
That is their position.
    Then they told Mr. Kelly that, by the way, we confirmed 
that we have nuclear weapons and we told you 10 years ago, in 
1993, that we had nuclear weapons, although we can't verify 
they told anybody that. With these nuclear weapons, they said, 
we can display them, we can make more, or we can transfer them. 
And then they said, it is up to you. It depends on the American 
reaction. Take your time. Think about it.
    So they have essentially laid their programs out and are 
anxious to see whether anybody will pay them for their bad 
behavior. So we had a good, as we say in the diplomatic world, 
candid, direct exchange of views. We briefed our Japanese and 
South Korean friends on the way out and we are now examining 
the proposal they put on the table which would get rid of all 
of this and the missiles that they have and we will examine it. 
But we will examine it with the greatest care and only with our 
other friends, and then we will see how to deal with it, 
whether further meetings are warranted, whether another 
proposal is appropriate.
    All the options are on the table and available to the 
President. We will not be rushed. We will not be panicked. We 
are not afraid, we will not be scared into doing something, we 
will not be blackmailed, and we will not be intimidated. They 
are the ones who have the problem with people who are starving 
to death, an economy that is not working, and they are 
investing what little wealth they have in fools' gold called a 
nuclear capability that will not scare us and will not feed a 
single child.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator McConnell. Thank you, Senator Shelby.
    Senator Landrieu.

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary, for your leadership. I agree with your 
assessment that it would be wise for us to be both a military 
superpower and a diplomatic superpower and I really commend you 
and all that you have had to handle to really be aggressive in 
stepping up our State Department and making sure that our 
people have the resources and the tools and the 21st century 
tools they need to complete the mission, because both are 
important.
    Just to note for the record, and, of course, you know I 
have supported a strong defense appropriation and we have seen 
that increased. Of course, you had a great role to play in a 
former role in that regard. But Mr. Chairman, just for the 
record to state that our defense appropriation for 2002 is $331 
billion, but our diplomatic investments are $23.9, less almost 
5 percent. It might be wise for us, whether we can do it this 
year--probably not--but over the next few years to think about 
at least having our diplomatic budgets match at least 10 
percent of our military budgets to keep it in a good 
proportion. That conversation, I probably should have with the 
budget folks, but I just wanted Mr. Secretary's support----
    Secretary Powell. I will mention it to them for you.
    Senator Landrieu. [continuing]. That effort because I just 
think the principle of it is important for America, that we 
intend to be the primary military superpower in the world. We 
intend for that to continue, but we will also match that to be 
a diplomatic superpower, and in order to do that, I think our 
budget has to reflect it.
    But these are my questions. One, what is your view of the 
dangers, if any--you might not think there are, but if you do--
associated with the premature pull-out in Iraq? I think I agree 
with you that this is a very crucial time, that it wasn't just 
the time when the bullets are flying, but now that the bullets, 
or some, most of the bullets have stopped, what do you think, 
or could you describe the dangers associated with a premature 
pull-out?
    Secretary Powell. I don't believe there will be a premature 
pull-out. The President has made it clear that we don't want to 
stay a day longer, but we are not going to leave a day too 
early. So we will stay as long as it takes to do the job.
    But we can share the burden, and as we sit here today, we 
and our British friends and other members of the coalition are 
soliciting other nations to provide peacekeeping forces and 
reconstruction forces and funds so that we are not pulling out 
but changing our presence. They don't have to be American 
soldiers and British soldiers throughout the country for 
whatever time it takes. We can bring in other nations. Other 
nations have volunteered; off the top of my head, Italy, for 
example. Now that the active part of the campaign is over, they 
are prepared to send in up to 3,500 troops, to include the kind 
of troops we need, the kind of presence we need, policemen, not 
tankers or artillery men.
    So we are going to different countries around the world 
now, asking what are you able to contribute to this effort, so 
that we can remove some of our troops. But that would not be 
seen as premature because they are being substituted for with 
the kind of troops that can do the job.
    Senator Landrieu. But I guess my question--maybe I didn't 
ask it as clearly--is I realize that our intention is not to 
pull out prematurely, and I most certainly agree with that 
assessment. But could you describe, just for the record, what 
some of the dangers would be if we did or if we misjudged it? 
What could potentially happen if we left too early?
    Secretary Powell. My greatest concern would be if we were 
to pull out before there was security throughout the country 
and there was a sense of stability and the people were 
comfortable with their new governmental institutions and 
ministries. That the new government has put in place an 
adequate police force and a responsible military answerable to 
the government to protect the nation, keep it one nation, and 
defend it against potential enemies.
    So there is a lot of work to be done, and in the absence of 
those kinds of institutions and a government that the people 
could believe in, trust, and that is functioning to a proper 
standard, the worst case you talk about could be total disorder 
of the kind we have seen in Lebanon in previous times, and the 
last thing we want to see is that kind of collapse of society. 
Then we would have, frankly, failed in our mission.
    Senator Landrieu. Mr. Secretary, as I was coming in, I 
heard--one more question, if I could.
    Senator McConnell. And then Senator DeWine.
    Senator Landrieu. I will be very, very quick. The chairman 
mentioned, and I wanted to support him in this comment about 
the potential establishment of a trust fund for the oil 
reserves. Being an oil-producing State, we have some experience 
with this. I think you referenced Alaska. The Senator from 
Vermont, I think, is somewhat familiar with Texas, Alaska, 
Louisiana having had some experience, and we don't have to go 
into the details of it, the benefits, now, but they are 
extraordinary, the benefits to a community that wisely set 
aside some of the riches of their oil reserves for the benefit 
of the people.
    I think that that practice that we have somewhat developed 
in the United States could actually be quite applicable for 
Iraq, both in a direct benefit as well as the psychological 
benefit to ensure them that we are going to try to promote 
policies that that oil belongs and should be used for the 
development of their people in long-term investments.

                           prepared statement

    Mr. Chairman, I thank you for your patience here, but urge 
us to pursue that in a pretty aggressive way, because over the 
short, medium, and long term, it would be a great advantage to 
the country.
    Secretary Powell. Thank you, Senator. We are looking at the 
various models that we have used to do this so that a portion 
of the revenue doesn't get laundered through the government. 
Serving the people could mean going directly to the people so 
that they can make choices as to where they want the money to 
go. As long as the money stays in the country and circulates 
and generates growth within the country.
    Senator Landrieu. Thank you.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    December 7, 1941 was a date that changed the world. The Japanese 
attacked America, and we were dragged into World War II. After years of 
fighting, the United States succeeded in liberating two continents 
oppressed by Germany and Japan. On September 11, 2001, the United 
States was, once again, attacked because of her virtues as a country 
where we are free to practice multiple faiths, women are free to vote, 
and we are free to live the dreams so many people around the world only 
wish they could experience. Congress and the Administration share a 
vision that the military operations in Iraq and Afghanistan, in 
response to September 11th, will create a world where Americans can 
live in security. Moreover, the citizens of Iraq and Afghanistan and 
people around the world will be able to realize their dreams to speak 
and pray freely, have access to the classroom and the boardroom, vote 
and more. We are already seeing early instances of freedom blossoming 
in Iraq and Afghanistan. But, these aspirations will only thrive and 
become realities if America makes a long-term commitment to the 
promotion of liberty, justice, and civil society. At the end of World 
War II, America did not quickly end its presence in Japan and Germany. 
In fact, we are still engaged in both countries. The Marshall Plan was 
a long-term road-map to re-establish Asian and European economies and 
restore Germany and Japan as responsible members of the international 
community. The U.S. dedicated $13 billion in aid for the reconstruction 
of Europe and Asia or $88 billion in today's dollars. We must make a 
similar, long-term commitment to Iraq, Afghanistan, the Middle East and 
Southern Asia. We cannot sustain the successes of Operations Enduring 
Freedom and Iraqi Freedom if the United States is not dedicated, once 
again, to a long-term commitment in the Middle East and Southern Asia. 
A failure to maintain our presence will permit fanaticism and 
fundamentalism to re-emerge.
                              afghanistan
    The President's budget request dedicates $657 million for the 
reconstruction of Afghanistan. As Secretary Powell's testimony states, 
Afghanistan is no longer a haven for Al Qaeda; a transportation system 
is being established; a military and police force are being trained to 
respect civilian authority and the rights of Afghan citizens; and an 
accountable government to the people of Afghanistan is beginning to 
send anchor roots into the soil. But, we cannot rest here. Regrettably, 
the Administration requested no funding for Afghanistan in fiscal year 
2003. Remnants of the Taliban and Al Qaeda still pose threats to Hamid 
Kharzai and his government. In fact, numerous assassination attempts 
have been made on his life. Moreover, they still pose a danger to our 
troops, and our troops continue to conduct operations in Afghanistan. 
Certainly, America cannot give the all clear sign in Afghanistan that 
the military threat no longer exists.
    Nor, can we give the all clear sign that a civil society and 
personal freedoms are ready to stand on their own. In particular, women 
still face obstacles that prohibit them from full participation in 
Afghani society. Dr. Sima Samar was initially named Deputy Premier and 
Minister of Women's Affairs in the Kharzai government. Her nomination 
was defeated because she was a deemed a threat to the status quo. 
Equality for women does not endanger society. Rather, it is a catalyst 
for economic growth and a check to ensure justice is not denied. As 
Paula Dobriansky, Under Secretary of State for Global Affairs recently 
said on April 11, 2003, ``Ensuring women's rights benefits not only 
individuals and their families, it also strengthens democracy, bolsters 
prosperity, enhances stability, and encourages tolerance. It thereby 
helps every society realize its full potential, which is an overarching 
goal of our own national security strategy.'' Women captained the 
abolition movement to end slavery in the United States. An economic 
boom occurred simultaneously with the granting of the right of suffrage 
for women in the United States. Afghanistan's economic ascension will 
be tied to the increase of rights for its women. Democracy cannot be 
said to have been fully established until women have a say in their 
government and can take leadership roles in their communities.
    Again, we have sewn the seeds of a bright future for Afghanistan. 
But, this future will only be realized if America maintains a strong 
economic and visible physical presence in Afghanistan.
                      long-term commitment to iraq
    The situation in Iraq differs little from that seen in Afghanistan 
last year. An oppressive regime was deposed, but confusion ensued soon 
after. Today, electricity, food, and water are still scarce in parts of 
Iraq. We must improve this situation in order to convince the Iraqi 
people that life without Saddam Hussein is better than life with Saddam 
Hussein. Again, we will only be able to convince the Iraqi people a new 
type of government is better for them if we make a long-term commitment 
to improving their plight. A quick departure will only allow Saddam's 
totalitarianism to be replaced with fundamentalism. Such a solution 
does not benefit the Iraqi people, the region, Israel, or the United 
States.
    America must apply lessons learned from Afghanistan to make the 
transition more seamless in Iraq. Lt. General Jay Garner (retired) 
appears to be a wise choice to head the Pentagon's Office of 
Reconstruction and Humanitarian Assistance. Already, he has convened 
meetings with Iraqis representing a myriad of religious and political 
view-points to discuss the crafting of an Iraqi future based on a 
constitution built on the pillars of freedom and self-rule. As one 
Iraqi political aspirant said of the meetings with General Garner, ``It 
was the first time I entered an open political meeting in Iraq in more 
than 35 years. Under Saddam there was no way to speak like this.'' It 
is hoped that these meetings will produce a solid foundation to allow 
the Iraqis to flourish.
    Nevertheless, I am dismayed by comments from the Administration 
calling for the earliest possible exit from Iraq. Rather, we need to 
ensure our DOD engineers and civil affairs officers are available 
beyond the immediate future to rebuild Iraq's infrastructure and advise 
Iraqi civilians how to restore the fabric of a civil society. Such a 
move should not be feared within Congress, the Administration, or the 
Middle East as a heavy handed attempt to establish an American enclave 
in the Arab world. We should have no designs on an American colony in 
Iraq. But, it is folly to think that the reconstruction effort required 
by the DOD and an eventual transition to the Department of State to 
promote economic development can be done quickly. A long-term 
commitment will prove our sincerity to the fate and well-being of the 
Iraqi people. A quick exit will embolden fundamentalists and send a 
message to despotic leaders that they only need endure a short war and 
presence of American forces before they can return to power and their 
old ways.
    We must also consider the establishment of a ``permanent fund,'' 
like the one found in Alaska, that allows the Iraqi people to share in 
the riches of its petroleum resources. The people of Alaska receive a 
check each year based on the royalties collected from Alaska's oil. 
This revenue in the hands of Alaska's citizens has greatly benefitted 
the Alaskan economy and its citizens. A similar fund would benefit a 
cash starved Iraqi populace and ensure Iraq's oil riches benefit the 
people of Iraq and not outside interests.
                          role of iraqi women
    As in Afghanistan and the United States, Iraq will only truly 
thrive when its women can participate alongside men in government, 
commerce, medicine, and education. Saddam Hussein's regime was brutal 
to women. Such treatment cannot be permitted to occur in the new 
government. Saddam's regime crushed the voices of women through 
violence and intimidation. Under Saddam Hussein, rape was a common form 
of political torture. The wives, mothers, and sisters of Iraqi 
dissidents were often raped and even killed. Death was the proscribed 
punishment for women who ``dishonored'' their families, and 
``dishonor'' was interpreted all too loosely.
    However, Iraqi women have not always been subjected to torture and 
sexual discrimination. Prior to Saddam, Iraq was a country with a long 
history of prominent women in positions of leadership. Currently, women 
in Kurdish sections of Iraq enjoy freedoms not permitted by Saddam. As 
Undersecretary of State for Global Affairs Paula Dobriansky has said, 
``Kurish women travel there freely, hold high-level economic and 
political positions and have been critical to the region's revival. 
Several Kurdish women serve as judges, and two regional government 
ministers are women.'' Arab women regularly frequent Kurdish hotels 
because there is a no-veil requirement in the Kurdish territories. What 
is possible in Northern Iraq is certainly possible throughout Iraq, but 
it will not be achievable if the United States does not provide a long-
term stability that fosters and allows women to take a stake in society 
without fear of reprisal from Iraqi men.
                               conclusion
    The reconstruction of Iraq and Afghanistan can change the paradigm 
of governance in the Middle East and Southern Asia. However, this shift 
will not occur overnight, and it will not form without resources from 
nations, especially the United States, wishing to see democracy and 
liberty prosper in the region. The commitment must be lengthy, and the 
commitment must be made to men and women. While we need not duplicate 
the Marshall Plan in its entirety, there can be no doubt that a quick 
solution is no solution at all.

    Senator Leahy [presiding]. Senator DeWine.
    Senator DeWine. Mr. Secretary, thank you for being with us 
and thank you very much for your good comments about the men 
and women who represent us in the Foreign Service. It has been 
my experience, as I am sure it has been for members of the 
committee and Congress as we have traveled around the world, 
that these are our best and brightest and they are very 
dedicated people, and thank you for commenting about them and 
thank you for leading them.
    I may also say it is always a privilege to deal with 
Secretary Armitage, as well. He is a pleasure to deal with, as 
well.
    Let me say it was good to be at the White House yesterday, 
and thank you for your leadership and thanks to the President 
for his leadership in regard to the AIDS issue. I want to ask 
about that. I want to ask about the new Special Coordinator for 
International AIDS Assistance which we are going to appoint at 
State. Let me ask you how that is going to work, how that 
person is going to coordinate his or her work with HHS, CDC, 
NIH. How is that all going to come together?
    Secretary Powell. The coordinator will be in the Department 
of State, and I am still looking at the best organizational 
arrangement, whether it remains a special office or it actually 
becomes a bureau. There is a lot of money here and I have to 
make sure I have the right kind of organizational structure for 
it.
    But even though the person is lodged in State, the very 
title of ``coordinator,'' or ``special coordinator,'' suggests 
that he has a much broader role and I would expect that I would 
enter into memoranda of understanding and agreement with 
Secretary Thompson and with all of the other agencies of the 
administration that have an equity and an interest in how this 
money is used.
    I don't think there will be any coordination problem, but 
this individual will be the one who would have the authority to 
allocate the funds to USAID, to HHS, and who would also be 
tasked with developing partnerships between government, private 
sector, and international organizations, whether it is UNICEF, 
WHO, UNDP, as to how the money will be spent.
    Senator DeWine. What is the time table on that?
    Secretary Powell. As soon as I can and as soon as we have 
the necessary authorities and appropriations from the Congress, 
we are on it. We are looking through the organizational 
arrangement, trying to establish the organizational 
arrangements now and we are looking at candidates for the job.
    Senator DeWine. Good. Let me turn, if I could, to this 
hemisphere, and I appreciate your efforts and so on in this 
hemisphere. It is vitally important, particularly meeting with 
the President of Colombia. I wish you well in that. I had the 
opportunity to travel to Colombia about a month ago and meet 
with him and the President is a courageous individual. We need 
to hang in there.
    Secretary Powell. I was there a couple months ago myself.
    Senator DeWine. I know you were. I know you were.

                                 HAITI

    Let me ask about Haiti continuing--my impression is, the 
situation continues to deteriorate. Assuming the OAS mission is 
unable to facilitate a political solution, where do you think 
we go from there? Let me just say, I support the 
administration's position. We cannot, with the current 
political situation in Haiti, we cannot channel money through 
the government of Haiti. Let me also add, before you answer the 
question, I believe for humanitarian reasons, as poor as the 
country is and what I have seen in Haiti, and I have traveled 
there many times, I believe we need to consider increasing the 
humanitarian assistance through the NGOs. There are a lot of 
places we can put that money to do a lot of good down there and 
that would be my pitch today----
    Secretary Powell. No, I----
    Senator DeWine [continuing]. But I would ask you, where do 
we go politically, do you think?
    Secretary Powell. You hit the key element there, Senator. 
This is a country and a people who are desperately in need of 
international assistance. We have tried to be as forthcoming as 
we can be, subject to the constraints that are placed on us by 
a government that simply hasn't been responsive to the needs of 
its people. We can't do much more with them until they solve 
the political problem.
    I followed this matter very closely. You know my history 
with Haiti; I am the one that President Clinton sent down there 
with President Carter and Senator Nunn, your former colleague, 
to talk to General Cedras and have President Aristide come back 
in. He did that, and that is going on 9 years ago and there 
hasn't been any improvement basically since then. And so I have 
always found it difficult to predict what is going to happen 
next politically in Haiti. They are just stuck in what I want 
to say is a time warp. This is a country that has had the 
opportunity to create a democracy longer than any other nation 
in the hemisphere or in the world, for that matter, almost 200 
years, or over 200, or whatever the amount has been. It is a 
long period of time and they haven't been able to bring the 
pieces together because of squabbling and quarreling and the 
disparity of wealth between those on the hill and those not on 
the hill. But I would not know what to say to you honestly 
about where it is going next politically, but we have got to 
get past the current political crisis.
    Senator DeWine. Thank you.
    Senator McConnell [presiding]. Thank you, Senator DeWine.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here today, and thank you for your 
tremendous leadership during these very trying times.
    I am going to have a question for you here, or a statement 
and a bit of a question which I guarantee you none of your 
staff ever prepared you for. But I believe it is important and 
it is something that requires U.S. leadership.

                        PEOPLE WITH DISABILITIES

    As you know, Mr. Secretary, I have been a longtime advocate 
for people with disabilities, one of the main authors of the 
Americans with Disabilities Act. I think it is very important 
that any reconstruction supported with U.S. funding be 
accessible to people with disabilities and allow them to 
equally participate in civic and community life.
    As we begin this crucial period in Iraq and Afghanistan, 
where these two peoples are rebuilding their futures, I know a 
lot of voices will be heard, and you are reaching out to 
different sectors of society in both of those countries. It is 
my hope that the administration would give some thought to 
reaching out to the disability community, and there are going 
to be a lot of people, obviously, that already are disabled in 
those countries for natural reasons or because of the effects 
of war, and I am just hopeful that as we begin this 
reconstruction, that we begin to impress upon them our hope and 
our, maybe more than hope, but our strong support for ensuring 
that their institutions are accessible.
    Secretary Powell. Thank you, Senator, and you are right, my 
staff did not prepare me for that question, but I didn't need 
it. It is a very good observation and I will try to find the 
right way to insert it into our thinking. My son, you may 
recall, was retired from the Army with 100 percent disability, 
and so I became very knowledgeable about 15 years ago what it 
is like to be in a wheelchair and on crutches and on a cane, or 
to drive a car with one leg that doesn't really work and what 
the access means. He is now fully functional, although still 
carries some of the consequences of his injuries.
    But if you look at the Financial Times today, you will see 
two pictures of him and one of me, and both of us are being 
criticized.
    So I have more than a passing interest or awareness of this 
subject.
    Senator Harkin. I appreciate that, Mr. Secretary, and in 
following up on that, I had spoken with Mr. Armitage about this 
about a year ago. In June, the United Nations in New York will 
convene a meeting of member nations to draft an international 
convention on the rights of individuals with disabilities. 
This, I think, is the second such meeting. The first meeting 
was last year, and that is why I called Mr. Armitage at that 
time.
    Again, I would like to urge the administration and your 
leadership to take a role in the drafting of this convention, 
just as former President Bush took the lead role in helping us 
get the Americans with Disabilities Act through the Congress 
and signing it into law. So I would hope that we would really 
be forward on this and that you would send instructions down to 
be heavily involved. Since we have had 13 years of experience, 
some ups and downs, but good experience in how to deal with 
this, I think the United States should take a big leadership 
role on this important issue.
    If I could just ask you, as a personal favor or 
professional favor, or whoever is in charge of this in your 
office, if I could be in touch with them or if they could be in 
touch with me, I would sure appreciate that.
    Secretary Powell. I will make sure that happens, Senator. 
Thank you.
    Senator Harkin. I appreciate that very much.

                             HUMAN SHIELDS

    Last, if I have any time left, I have a constituent in Iowa 
who was born in my State, but his parents came from Kuwait. He 
happened to be back there visiting during the time of the first 
Gulf War. He was one of about 100 people that were used as 
human shields. Fortunately, he lived and he came back, a young 
man. He wasn't going to take this sitting down and he sued and 
he got a judgment against the government of Iraq. They had a 
lot of problems in getting the money for the judgment. That 
recently happened with the finding of some money in the Federal 
Reserve Bank in New York, by the way.
    He and his attorneys have told me they have had a difficult 
time with the State Department on this, and now there is about 
50--I could be off a little bit, but there are about 50 
similarly situated people who are suing because they were used 
as human shields and other things like that, but they are U.S. 
citizens and they have gotten judgments, but there doesn't seem 
to be any money or something. They have got money against 
assets held by Iran. I hope that the State Department will look 
at that as a possible source of meeting the judgments rendered 
in favor of these claimants.
    Last, I have another constituent who is one of the Iranian 
hostages and they sued, but because of the Algiers Accord, they 
can't get fulfilled. We have got to work this out. That was 
never a treaty. It was blackmail, pure and simple, by the 
government of Iran at that time in order for us to get our 
hostages back, and because of that Algiers Accord, we can't 
permit our citizens the right that they ought to have--like we 
can sue governments, we can't sue the government of Iran to go 
after them for unlawful, illegal incarceration for all those 
days they were held.
    Secretary Powell. This is a very complex issue, Senator. In 
the Iranian case and the Algiers Accord, because of that 
accord, if we were to start paying claims using frozen Iranian 
assets, because of the nature of that accord, the Iranians 
would have then a recourse in international law and the cost of 
this might come back to the U.S. taxpayer.
    With respect to Kuwaiti issues, there are frozen Iraqi 
assets and there are also compensation claims being paid out of 
the oil for U.N. Oil for Food Program for victims. But the real 
solution to this whole problem is the Victims of Terrorism Fund 
that we would like to see created, and we are still working 
with OMB and other agencies of the administration to get that 
one moving.
    Senator Harkin. One last thing, Mr. Chairman. I don't think 
our taxpayers ought to be paying for it. If they have got 
assets and they have got money, they ought to pay for it.
    Secretary Powell. If it flows through, if there are assets 
that are not protected in some way by other agreements that the 
U.S. Government has entered into and if we break those 
agreements, then there really are significant foreign policy 
implications to such--you know, walking away from agreements 
that have been entered into.
    Senator McConnell. How much time do you have remaining, Mr. 
Secretary?
    Secretary Powell. Mr. Chairman, it is almost 3. I am at 
your pleasure, sir, but I do have to get to the White House in 
due course for President Uribe, but whatever you want.
    Senator McConnell. If you have got a few more minutes, 
Senator Durbin, in an example of exquisite timing----
    Secretary Powell. He does that all the time, I have 
noticed.
    Senator McConnell. Yes, arrived at just the right time to 
get in one quick round.

                              GLOBAL AIDS

    Senator Durbin. If I could, and I will be very brief, I 
only have two questions. One relates to the global AIDS 
situation. Thank you for your leadership and thanks to the 
President. I think it is an extraordinary commitment by this 
administration and I hope that we can read into the statement 
this week by the President that the administration is committed 
to the approach on global AIDS that has been successful and 
proven, to urge abstinence as the first goal; fidelity, to be 
faithful, as the second goal; and the third goal, if necessary, 
to use condoms and other protection to avoid spreading the 
disease. Is that a fair statement of the administration's 
belief in how we should approach this global AIDS crisis?
    Secretary Powell. Yes, sir, and I think the President spoke 
to that yesterday in the White House, and the example he is 
using is how Uganda went after the problem.
    Senator Durbin. Exactly, a success story.
    Secretary Powell. And we have got a very fine booklet that 
USAID has put out that describes the Ugandan experience. I 
would be delighted to send one up to you, Mr. Durbin.

                      WEAPONS OF MASS DESTRUCTION

    Senator Durbin. My last question is unrelated to that. How 
important is it to the credibility of the United States and to 
your personal credibility as Secretary of State for us to 
actually find weapons of mass destruction in Iraq?
    Secretary Powell. Well, I think we will find them and I 
think it will be very, very helpful in not only making the case 
that we went in under, but I am the one who made the case 
before the United Nations on the fifth of February.
    But it is important to remember a couple other aspects to 
this. When Resolution 1441 was passed by a vote of 15 to zero, 
every country that voted for that resolution accepted the fact 
that Iraq had weapons of mass destruction as a result of 12 
years of avoiding answering the questions, as a result of all 
those years of stiffing the inspectors. So they were found 
guilty of possession of weapons of mass destruction on the 
eighth of November when 1441 was passed.
    Also remember that some of the things we are looking for 
were not actual weapons but answers. You had x-number of liters 
of anthrax or botulinum toxin. You have never accounted for it. 
What happened to it? Now, we may never find that botulinum 
toxin. We are still trying to find out what happened to it. And 
the Iraqis said, we are not going to tell you. We are not going 
to show you anything. We are not going to answer the question. 
Any reasonable person should assume at that point that they 
were hiding something.
    Now that our troops are there and we have exploitation 
teams around the country and as more and more individuals are 
being found or turning themselves in to be interviewed, I think 
we will be able to queue our efforts a little more effectively 
and find the infrastructure.
    We are quite sure that they had facilities that might be 
called just-in-time factories for the development of chemical 
weapons. In other words, they might be making another product, 
but with just a few adjustments to its manufacturing process, 
it is making a chemical or biological weapon. Some promising 
leads have turned up, so I am quite confident we will be able 
to make the case and make it in a way that will be convincing 
to the world.
    Senator Durbin. Thank you, and thank you Mr. Chairman.
    Senator McConnell. Mr. Secretary, I am going to exercise 
the chairman's prerogative and ask the final question and then 
we will leave the record open for written questions for you and 
your staff to respond to.

                                 BURMA

    Clearly, one of the most outrageous and repressive regimes 
in the world is Burma. Nobody pays any attention to it. It 
abuses its people. It doesn't honor the results of the election 
that the National League for Democracy and Aung San Suu Kyi won 
in 1990. What, if anything, could we or any of our allies do to 
try to bring about the recognition of the election that was 
fairly won some 13 years ago in Burma?
    Secretary Powell. Mr. Chairman, your characterization of 
Burma is absolutely correct. It is a despotic regime and we 
condemn its policies, we condemn the manner in which they have 
kept Aung San Suu Kyi away from the political process and 
participation in civil society and civil life. But it has been 
difficult to find a solution to crack the rule of this ruling 
regime. We must continue to work within the U.N. framework, 
continuing to work with our ASEAN partners. I am sure that when 
I attend meetings later this spring, in June, in the region 
with our ASEAN partners and----
    Senator McConnell. Do any of the ASEAN partners care about 
this?
    Secretary Powell. They do, but they are at a loss, also, as 
to what to do. They care. Most of them are moving in the right 
direction, the direction we want them to move in, of democracy 
and representative government. But they have not yet generated 
the collective political will to apply the kind of pressures 
that might change the nature of this regime or this regime 
itself.
    Senator McConnell. I know you have a lot on your plate, but 
I would encourage you to pay some attention to this if you have 
any time at all because it truly is an outrageous regime.
    Secretary Powell. I shall, sir.
    Senator McConnell. Thank you so much for being here.
    Secretary Powell. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator McConnell. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Mitch McConnell
    Question. What is the status of the State Department's review of 
U.S. assistance programs to Egypt?
    Answer. We are reviewing all of our assistance programs in the 
Middle East beginning with our program in Egypt. The review is focused 
on ensuring that we are reaching as many Egyptians as possible with our 
aid; that our programs deliver assistance efficiently; that our funds 
promote the reforms targeted by the Middle East Partnership Initiative; 
and that we improve our measurement of results.
    We have completed a review of activities comprising the majority of 
the total U.S. Government economic assistance program for Egypt. The 
areas reviewed so far include economic reform, education reform, 
infrastructure, environment, and democracy and governance. We expect to 
complete the review by late June. We anticipate that, as part of this 
review, we will be spending a larger portion of our assistance 
resources on programs that encourage economic, educational, and 
political reform. The Egyptian government supports these new areas of 
focus.
    Question. How will democracy programs in Egypt be conducted in a 
manner free from the Egyptian government's oversight and interference?
    Answer. The United States emphasizes the importance of a strong 
commitment to the rule of law, transparency, and good governance 
through its U.S. Agency for International Development Mission. A six-
year, $32.5 million grant, for an NGO Service Center, supports 
strengthening the institutional capacity of local Egyptian NGOS in the 
areas of internal governance, sound financial management, and 
advocating for citizens' interests and participation in civic action. 
This NGO Service Center is helping citizens to bring street lighting to 
slum areas, introduce garbage collection, advocate for the rights of 
children and those with special needs, obtain documentation essential 
for voter registration, and help women become important and active 
members of society.
    During its September 2002 conference, Egypt's National Democratic 
Party adopted a policy document that advocated for movement toward a 
more open, democratic society with increased public participation. We 
support the strengthening of democratic institutions in Egypt and are 
working with reformers--both in and outside of the government--to 
ensure that our assistance furthers that objective.
    As part of our on-going review of assistance programs to Egypt, we 
are examining new mechanisms to assist non-governmental organizations, 
to ensure that the most active and effective civil society advocates 
are represented in U.S. programming.
    Question. How will the Middle East Partnership Initiative (MEPI) 
program ensure that U.S. assistance programs in the region will no 
longer be ``business as usual,'' and how will MEPI be coordinated with 
ongoing State and USAID education and health programs?
    Answer. The Department of State and USAID have established a common 
set of Middle East Partnership Initiative (MEPI) goals and objectives 
for Arab education reform: to expand access and enhance quality of 
basic formal education and higher education, especially for girls, so 
that Arab youth are empowered and prepared to participate in the global 
marketplace. The MEPI expands the reach of USG-directed education 
reform programs, especially in making greater resources available in 
countries that lack an AID presence.
    Building on pilot projects and through the development of country 
strategies, the MEPI will achieve increases in critical thinking 
skills, literacy (especially important for girls and women), English 
language skills, parental and community involvement, and early 
childhood education.
    Further, the MEPI will narrow the gap in educational attainment 
between men and women, and expand partnerships between United States 
and Arab universities involving private sector and civil society 
partners.
    These objectives guide MEPI education funding decisions; provide a 
basis for AID mission program reviews; and set the foundation for 
outreach and future competitive proposal processes.
    The MEPI education goals and objectives also help establish common 
ground between the U.S. Government and our Arab partners. Enhanced 
funding for MEPI gives us leverage in forging bilateral and regional 
consensus on Arab education reform efforts. Moreover, the resources we 
bring to partnering relationships both test the commitments made by 
education officials and allow flexibility in supporting educators who 
may have the will, but not the tools, to foster innovation.
    The MEPI builds on existing education development programs in the 
Middle East and North Africa. Health issues, by contrast, are beyond 
the scope of the MEPI, and will continue to be managed bilaterally 
through AID Missions and U.S. Embassy officers as appropriate.
    Question. How can the United States assist Abu Mazen and Minister 
of State for Security Affairs Mohammed Yusuf Dahlan in cracking down on 
Hamas and other extremist organizations operating in the West Bank and 
Gaza?
    Answer. We have made clear to the Palestinians that they must keep 
a clear endpoint in sight as they take security steps: disarmament and 
dismantlement of groups that oppose a two-state solution and employ 
terror or violence to achieve their aims. This will not be easy, and 
will require the assistance of Israel, the United States, regional 
states, and others in the international community.
    As Abu Mazen takes steps to consolidate control over the 
Palestinian security forces, the United States is ready to provide 
specific assistance through security channels.
        saddam hussein's support of terrorism in west bank/gaza
    Question. Has any information been uncovered in Iraq that provides 
new insights on cooperation between Saddam Hussein's repressive regime 
and terrorists on the West Bank and Gaza?
    Answer. On April 14, U.S. military forces in Baghdad arrested 
Muhammad Zaydan (a.k.a. Abu Abbas), the leader of the Palestinian 
Liberation Front and suspected planner of the Achille Lauro hijacking 
in which one American citizen was killed. Abu Abbas' group is known to 
have infiltrated operatives into the West Bank during the current 
intifada. His arrest was a clear example of Iraq's harboring of 
Palestinian terrorists. Abu Abbas' interrogation has just begun and the 
full extent of his terrorist activities will not be evident until it is 
complete.
    More time will be required to fully exploit thousands of documents 
seized during and subsequent to the war before a complete picture 
emerges of possible Iraqi links to Palestinian terrorists.
                                 syria
    Question. Is the Administration considering keeping the oil 
pipeline that runs from Iraq to Syria closed until such time that Syria 
ceases its support of international terrorists, particularly Hizballah?
    Answer. he Administration's policy regarding future Iraqi commerce, 
including oil, is that Iraqis will ultimately hold responsibility for 
making decisions about what they trade and with whom.
    Regarding Syria, the Secretary has publicly conveyed our strong 
concerns about Syria's support for Palestinian rejectionists and 
Hizballah. As the Secretary outlined in his testimony, a new strategic 
dynamic is emerging in the region and Syria stands at a crossroads: it 
can make choices that will lead to improved relations with the United 
States or it can decide to continue current behavior and face further 
isolation. The Administration retains the full range of diplomatic, 
economic, and military options to confront states such as Syria that 
harbor terrorist groups and are developing weapons of mass destruction. 
We will continue to measure Syria's progress by its actions, not its 
words.
    Question. To what extent is Iran hampering reconstruction and 
democratic reform in Iraq?
    Answer. We are concerned about Iranian attempts to influence the 
outcome of the political process in Iraq, and to encourage the Shia to 
not cooperate with Coalition efforts to move this process forward. We 
expect the Iranians to support, or at the very least not obstruct the 
effort to establish a legitimate, stable, and representative government 
in Iraq. A stable Iraq at peace with its neighbors is vital for the 
future stability of the Middle East and is in the interest of all the 
states in the area, including Iran.
    Question. Does Iran today possess the independent capability to 
produce its own nuclear weapons?
    Answer. We do not believe Iran currently possesses the capability 
to produce independently a nuclear weapon. However, we are gravely 
concerned by Iran's ambitious efforts to acquire an indigenous 
capability to produce weapon-grade fissile material that we assess 
would be used to manufacture nuclear weapons. Unless these efforts are 
stopped, Iran might be able to produce its first nuclear weapon by the 
end of this decade. We are using all the diplomatic tools available to 
us to prevent that from occurring.
    The February visit of IAEA Director General ElBaradei to Iran with 
his senior safeguards staff, followed by monthly IAEA inspections since 
then, has helped raise awareness, and growing concern, in the 
international community about Iran's nuclear program. The Iranian 
regime only recently publicly acknowledged an ambitious (and extremely 
costly) pursuit of indigenous nuclear fuel-cycle capabilities, 
including enrichment and ``spent fuel management''--a euphemism for 
reprocessing. The IAEA has noted that Iran's nuclear program appears 
significantly more advanced than they had realized previously. It is 
highly unlikely that Iran could have achieved such an apparent state of 
technical progress in its gas centrifuge enrichment program without 
having conducted experiments with nuclear material, an activity that 
Iran denies. Such experiments would be a serious violation of Iran's 
safeguards obligations. The IAEA is thus examining Iran's nuclear 
activities and seeking answers to the many unresolved questions. We 
look forward to a detailed report on the inspection results to date 
from Dr. ElBaradei to the mid-June IAEA Board.
    Question. The fiscal year 2003 Foreign Operations bill includes a 
provision authorizing funds ``to support the advancement of democracy 
and human rights in Iran.'' What democracy and human rights programs 
does the State Department intend to support?
    Answer. The State Department welcomes this authorization to expand 
our current efforts across the Middle East to foster greater democracy 
and respect for human rights to such a critical country as Iran. We 
believe it is expressly in the interest of the United States to include 
Iran in our current efforts to help get information to people 
throughout the region seeking political reform.
    Iran is unique in the risks the Iranian people have taken to call 
upon their government for change. The Iranian government has ignored 
the call for constructive reform and chosen instead to continue 
pursuing destructive policies, including support for terrorism and 
pursuit of WMD.
    We see a variety of opportunities for outreach programs, but 
because of the repression inside Iran against social activists, we will 
look largely to external non-governmental organizations to implement 
the programs, such as the International Republican Institute and the 
National Democratic Institute, as well as the media, and the Internet.
    The Bureau of Democracy, Human Rights, and Labor (DRL) has begun 
programming fiscal year 2003 Human Rights and Democracy Fund (HRDF) 
money and is considering projects that would include Iran. The Middle 
East Partnership Initiative (MEPI) is seeking ways to work with 
nongovernmental organizations, such as developing a website with 
practical guidance on running election campaigns. Through DRL and MEPI 
democracy and rule of law programs, we will explore pilot projects to 
see what works and then build from there.
    Meanwhile, we have recently launched a State Department website in 
Farsi that will give the Iranian people direct access to information 
about U.S. policy on Iran, including key policy statements, translation 
of the Iran Human Rights report, and excepts from Patterns of Global 
Terrorism.
    We hope for a continuation of this authority in fiscal year 2004. 
We would also encourage expanding this authorization to Syria and 
Libya, other countries sorely in need of help for proponents of 
democratic and human rights reform.
    Question. Do you anticipate additional funds will be needed in the 
fiscal year 2004 foreign operations bill for relief and reconstruction 
in Iraq?
    Answer. The funds requested by the President in his wartime 
supplemental request were arrived at following a comprehensive, seven-
month interagency process. In the process of formulating this request, 
we were forced to make assumptions regarding the post-conflict 
situation, such as the amount of damage Saddam would do to his own 
infrastructure. We were also unsure of the state of the Iraq's civilian 
infrastructure after more than two decades of Saddam Hussein's misrule.
    We tried to capture all the costs in the supplemental, and we are 
grateful for Congress' support for the President's request. However, 
some important factors are still unknown at this time, including the 
state of Iraq's infrastructure, its ability to finance its own 
reconstruction and humanitarian needs, the costs that may be incurred 
related to reprisals and the extent of refugee/IDP returns. The State 
Department, through USAID, as well as the military's Civil Affairs 
teams are working very hard right now to develop assessments of the 
situation on the ground.
    We have begun the process of lifting our own sanctions against Iraq 
since the regime that was the target of these sanctions is no longer in 
power. We are also working in the Security Council for an immediate 
lifting of U.N. economic sanctions. This will allow the United Nations, 
contractors, and the Iraqis to bring in the goods they need to rebuild 
Iraq. It will also allow the Iraqis to start producing and selling oil 
to help fund their relief and reconstruction needs.
    Question. What steps has the State Department taken to secure debt 
forgiveness for Iraq from Russia (estimated at $7.6 billion) and France 
(estimated at $2.25 billion)?
    Answer. We have been working closely with Treasury colleagues on 
ways to address Iraq's debt. In the immediate term, we have told other 
creditors not to expect Iraqi debt payments, in order to not divert 
attention or resources from the immediate priorities of establishing a 
stable Iraqi government, meeting Iraq's urgent humanitarian needs, and 
beginning reconstruction.
    Overall, Iraq's debt is a medium-term, not short-term problem. We 
need first to obtain reliable data on Iraq's debt and evaluate Iraq's 
debt sustainability and capacity to pay.
    We have held informal bilateral discussions with visiting foreign 
government officials. USG officials also discussed the question of how 
to proceed with Iraq's debt at the spring World Bank/IMF meetings and 
in the G-7. In April, the Paris Club, of which both France and Russia 
are members, held its first discussion of Iraq. Creditor countries 
discussed the likelihood of an eventual multilateral debt treatment for 
Iraq, without coming to any strong conclusions.
    We want a multilateral approach, which will maximize the debt 
relief to Iraq and give the country breathing room to proceed with 
rebuilding after the decades of Saddam's misrule while spreading the 
cost of that relief fairly among different creditors. The Paris Club, 
which has already begun data reconciliation and preliminary discussions 
of Iraq debt, is the forum that is best suited to provide maximum 
relief.
    An eventual debt treatment should be based on objective, economic 
criteria and should include appropriate conditionality. Until Iraq is 
ready for a multilateral debt treatment, a process that could take 
about two years, creditors should understand that it is unrealistic for 
them to expect to be paid. A formal ``deferral'' of debt is not 
necessary, as long as countries do not try to coerce payment.
    Question. How does the State Department intend to promote dialogue 
between the SPDC and the NLD in Burma at the upcoming ASEAN meeting in 
June?
    Answer. The United States has long been a supporter of the efforts 
of the National League for Democracy and other members of Burma's 
democracy movement to bring democracy and national reconciliation to 
their country. We also strongly support the efforts of United Nations 
Special Envoy Razali Ismail to foster dialogue between Daw Aung San Suu 
Kyi and the Burmese regime; national reconciliation is key to the 
future security and prosperity of the Burmese people. We have 
encouraged and will continue to encourage Burma's neighbors to support 
and work with Ambassador Razali.
    Burma's political and economic problems threaten not only the 
livelihood of the Burmese people but also regional prosperity and 
stability. Three obvious examples are narcotics, refugees, and 
infectious diseases. In fact, in the international community, it is 
Burma's neighbors who suffer most directly from Burma's misguided 
policies. ASEAN was formed to preserve regional stability, and the 
ASEAN countries invited Burma to join the organization in the hopes 
that Burma would adopt international norms. We will work with ASEAN 
toward this goal.
    Question. In February, Assistant Secretary Lorne Craner forcefully 
articulated the SPDC's lack of interest and political will in 
continuing negotiations with Daw Aung San Suu Kyi and suggested State's 
interest in additional sanctions against the junta. What sanctions are 
you contemplating, and how closely do you coordinate policy toward 
Burma with our allies--in particular the British?
    Answer. The Administration has considered a full range of measures 
both positive and negative to encourage the military regime in Burma to 
take appropriate steps toward dialogue and national reconciliation. We 
already have in place an extensive array of sanctions, including an 
arms embargo, a ban on all new U.S. investment in Burma, the suspension 
of all bilateral aid, the withdrawal of GSP privileges, the denial of 
OPIC and EXIMBANK programs, visa restrictions on Burma's senior 
leaders, and a vote against any loan or other utilization of funds to 
or for Burma by international financial institutions in which the 
United States has a major interest. We have also maintained our 
downgraded diplomatic representation at the Charge d'Affaires level 
since 1990. We are keeping our options open and believe multilateral 
efforts are most effective. U.S. efforts are closely coordinated with 
cial Envoy Razali, our allies and friends through frequent 
communication and meetings.
    Question. A better coordinated approach is needed between those who 
manage Burma policy at the State Department on a day-to-day basis and 
those on Capitol Hill who follow Burma closely. This is an issue where 
there should be no policy differences between the Hill and the State 
Department. Please have those at the State Department involved in Burma 
brief the Hill on developments in Burma, as well as the State 
Department's intent to support the NLD and the U.N. special envoy's 
mission to bring about dialogue between the SPDC and the NLD.
    Answer. We have frequent contact with interested parties in the 
Congress on this issue, including briefings, and will continue to do 
so. We remain strong supporters of the efforts of U.N. Special Envoy 
Razali to foster dialogue between Daw Aung San Suu Kyi and the Burmese 
regime.
    Question. Is additional assistance required in the fiscal year 2004 
foreign operations bill to meet the basic needs of refugees from Burma 
in Thailand?
    Answer. The President has requested $6.5 million for Burma-
earmarked ESF funds in fiscal year 2004. We believe this amount will be 
adequate to provide for the basic needs of refugees from Burma in 
Thailand.
    We anticipate spending $3.0 million of fiscal year 2003 earmark 
funds on humanitarian-related projects coordinated by NGOs that provide 
health and educational services to refugee and exile communities on the 
Thai-Burma border. In addition to the ESF funds for Burma, Migration 
and Refugee Assistance funds provide food and health assistance to the 
136,000 Burmese refugees in ten camps along the Thai-Burma border. In 
fiscal year 2003 the Bureau of Population, Refugees, and Migration has 
made grants of more than $5 million to NGO providers in Thailand as 
well as funding 25 percent percent of UNHCR and 21 percent of ICRC 
appeals worldwide.
                                cambodia
    Question. Where is the Government of Cambodia securing the $50 
million in damages it owes to the Government of Thailand and Thai 
businesses as a result of riots in Phnom Penh in January?
    Answer. Cambodian demonstrators broke into and burned the Thai 
Embassy on January 29, 2003, then moved on to methodically attack other 
Thai businesses, including the Samart and Shinawatra telecommunications 
firms. The demonstrators also burned down the Royal Phnom Penh Hotel 
and vandalized the Juliana Hotel. Damage to the embassy and Thai 
businesses has been estimated at about $50 million, although business 
claims for compensation are subject to negotiation with the Cambodian 
government. In its Aide Memoire of January 30, the Royal Thai 
Government (RTG) set as a condition for restoration of normal relations 
the full compensation for all losses incurred by the RTG, its 
diplomatic personnel and Thai nationals. The Cambodian government paid 
$5.6 million as recompense for the Thai embassy. The funds were 
reportedly derived from Phnom Penh municipality revenue surpluses. 
Private claims are under negotiation; unconfirmed reports indicate 
future tax credits are being offered.
    Question. Given the failure of the Cambodian Government to protect 
the Embassy of Thailand from rioters, has the State Department 
considered suggesting a more secure venue outside of Cambodia for the 
upcoming ASEAN meeting in June?
    Answer. No. As Secretary Powell stated at the April 30 hearing, he 
plans to attend meetings in connection with the ASEAN Regional Forum 
and ASEAN Post Ministerial Conference, which are being held in Phnom 
Penh in mid-June with Cambodia as chair. Responding to direct requests 
from the United States and other missions, the Cambodian government has 
taken steps to improve security. The concrete steps taken to date 
include the provision of more security personnel for some embassies, 
closer coordination on embassy security issues, and stricter 
enforcement of regulations regarding the holding of public 
demonstrations. We continue to press for more action on safety. We note 
that Cambodians held the ASEAN summit last November without security 
problems.
    Question. Does the State Department find any inconsistencies in its 
support for a Khmer Rouge tribunal that relies upon Cambodia's corrupt 
legal system and its repeated condemnation of the lawlessness and 
impunity that reigns in Cambodia today?
    Answer. We remain committed to the establishment of a credible 
Khmer Rouge Tribunal inside Cambodia that relies upon U.N. 
participation, which sends a powerful message to the Cambodian people 
that the international community cares about their suffering and that 
those responsible will be held accountable. Given international 
involvement, we expect that the Tribunal will exercise its jurisdiction 
in accordance with international standards of justice, fairness, and 
due process. We also expect that passage and implementation of this 
agreement will meet the standards set out in U.N. General Assembly 
resolution 57/228 of December 18, 2002, to ensure a credible tribunal.
    With many of the perpetrators very advanced in age and some having 
died without being held accountable, this may be the last opportunity 
for the people of Cambodia to see justice for the egregious crimes of 
the Khmer Rouge regime.
    We continue to speak out strongly against political violence, 
corruption, and the climate of impunity in Cambodia. To help end this 
climate of impunity, we seek to promote the rule of law. The U.N.-
Cambodia agreement presents a unique opportunity to seek justice for 
the people of Cambodia and to advance the rule of law. We recognize, 
however, that achieving a credible process will not be easy given the 
state of the judiciary in Cambodia today. After the July election, we 
will be joining other U.N. member states in seeking strong 
international support to help successfully implement the KR Tribunal. 
According to the U.N.-RGC agreement, should the RGC change the 
structure or organization of the Extraordinary Chambers or otherwise 
cause them to function in a manner that does not conform with the terms 
of the agreement, the United Nations reserves the right to cease to 
provide assistance, financial or otherwise, pursuant to the agreement.
    Question. Does the State Department acknowledge--as former forestry 
monitor Global Witness asserts--that CPP is securing much needed 
funding for elections through illegal logging?
    Answer. The Administration has long made clear its views on the 
responsibility of the Cambodian authorities to prevent illegal logging, 
most recently through an April 25 State Department Spokesman's 
Statement.
    We have reason to believe that officials receive illegal logging 
revenues. However, we have no independent confirmation that the CPP is 
securing such funding for the elections. Corruption is a severe problem 
in Cambodia, as is illegal logging. Moreover, the State Department is 
concerned about the lack of serious election campaign finance 
regulation in Cambodia and other election abuses; the National Election 
Committee must show the world that it can properly regulate the 
elections. Aside from the overall election regulatory framework, our 
chief concerns regarding elections are to work to eliminate politically 
motivated violence, coercion and intimidation, and to seek equal access 
to the media for all political parties.
    Question. Is Indonesia waging an effective war against terrorism, 
and does President Megawati have the political will necessary to clamp 
down on Islamic fundamentalists?
    Answer. Since the terrorist attacks in Bali on October 12, 2002, 
the Indonesian government has waged a very effective campaign against 
terrorist networks on its soil. In the past six months, the Indonesian 
National Police have arrested over 60 suspected members of the Jemaah 
Islamiyah terrorist organization, which is believed to be responsible 
for the Bali atrocity and numerous other attacks. About 20 of those 
arrests have occurred within the past two weeks, which indicates that 
the Indonesian authorities remain committed to tracking and dismantling 
terrorist groups. Although the threat of terrorism in Indonesia still 
exists, the progress of the Indonesian police has disrupted ongoing 
planning of attacks and has eroded--but not completely eliminated--the 
ability of terrorist groups to carry out those attacks.
    In addition, the trial of Jemaah Islamiyah's purported spiritual 
leader, Abu Bakar Ba'asyir, began on April 23. Ba'asyir is charged with 
seeking to overthrow the Indonesian government by violent means, and 
faces severe punishment for treasonable offenses if he is found guilty. 
His indictment also accuses him of approving a series of bombings of 38 
churches in Indonesia in 2000, which resulted in 19 deaths. So far, 
there has been minimal public outcry against Ba'asyir's arrest and 
trial, which demonstrates the Indonesian people's rejection of 
terrorist tactics.
    We continue to emphasize to President Megawati and the Indonesian 
government that the fight against terrorism is an ongoing endeavor, and 
must not be allowed to flag in the wake of these important arrests and 
prosecutions. The vast majority of the Indonesian public opposes 
terrorist violence, and will support the Indonesian government's 
efforts to clamp down on individuals and organizations that attempt to 
use violence to further political goals.
    Question. What has been the response of the State Department to 
Indonesian politician Amien Rais's comments last month that President 
Bush should be tried by the United Nations as a war criminal?
    Answer. The State Department does not make a practice of responding 
to every criticism of U.S. policy voiced by individual Indonesian 
politicians. However, the State Department has complained to the 
Indonesian government on numerous occasions, particularly during the 
recent hostilities with Iraq, about intemperate, inaccurate, and in 
some cases reprehensible remarks made by various political figures 
about President Bush and the United States. Those complaints have been 
registered both with the Indonesian Embassy in Washington, and directly 
with Indonesian government authorities in Jakarta.
    Question. Two students recently received three year jail terms for 
burning photographs of President Megawati and Vice President Hamzah 
Haz. Do these draconian sentences indicate a backsliding of political 
and legal reforms in Indonesia?
    Answer. The two students were sentenced under Article 134 of the 
criminal code. The sentences are inconsistent with internationally 
accepted human rights norms as well as treaties signed by the 
Government of Indonesia. Public opinion in Indonesia is divided, with 
some criticism of the government for prosecuting these cases, along 
with assertions that the students' actions are not appropriate in the 
Indonesian cultural context.
    The open discussion of these cases in the Indonesian media 
indicates that Indonesia's transition to democracy is generally on 
track, although by no means complete. The outcome of Indonesia's 
experiment with democracy has profound implications for our strategic 
interests in preserving regional stability and strengthening respect 
for human rights and the rule of law. The U.S. Government will continue 
to assist Indonesia with its effort to create a just and democratic 
society.
    Question. Two students recently received three year jail terms for 
burning photographs of President Megawati and Vice President Hamzah 
Haz. How will crackdown on freedom of expression impact election 
campaigning in the run up to parliamentary and presidential polls next 
year?
    Answer. With substantial U.S. Government assistance, Indonesia has 
made considerable progress in its political reform efforts, and is on 
track to hold its first direct Presidential election and its next 
Parliamentary elections in 2004. The eve of an election year is 
bringing predictable political struggles to Indonesia, and members of 
the public are exploring avenues to voice their discontent with 
government policies. This is all part of the democratic process, and 
should be seen as evidence of continued growth rather than portents of 
instability.
    To date, we have not seen a pattern of suppression of the public's 
freedom of speech or expression.
    Question. Two students recently received three year jail terms for 
burning photographs of President Megawati and Vice President Hamzah 
Haz. Has President Megawati issued any public statements condemning the 
sentences?
    Answer. President Megawati has not made any public comments on the 
sentences.
    Question. Is the State Department concerned that Thailand has 
exercised extra judicial executions in its campaign to crackdown on 
drugs?
    Answer. We are deeply concerned by the wave of killings that has 
accompanied Thailand's anti-drug campaign, which began on February 1, 
2003. We have had numerous discussions with senior Thai officials in 
both Bangkok and Washington on this topic. In these discussions, we 
have urged that all these cases be thoroughly and credibly 
investigated, and that criminal charges be brought against any 
suspected perpetrators. We welcome the Royal Thai Government's public 
declaration that all violent deaths will be thoroughly investigated, 
and that government officials who break the law will be held 
accountable for their actions.
    Question. Has Thailand been a cooperative partner in the war on 
terrorism, and how concerned are you with terrorist activity in 
southern Thailand?
    Answer. Thailand continues to cooperate closely with the United 
States on all aspects of counterterrorism, including intelligence, law 
enforcement and counterterrorism finance. Thailand was an active 
supporter of Operation Enduring Freedom, and Thai military engineers 
are currently doing reconstruction work in Afghanistan. Thailand has 
hosted several U.S.-Thai military exercises with significant 
counterterrorism components. It has also established an inter-agency 
financial crimes group to coordinate counterrorism finance policy. 
Recently, Thailand indicated its willingness to join a critical border 
security program called the Terrorist Interdiction Program.
    Despite recent advances in the global war on terror against both 
al-Qaida and Jemaah Islamiyah, the terrorism threat remains 
significant, and we must remain vigilant. As a major transportation 
hub, Thailand remains vulnerable to the activities of terrorists and 
their operatives. We are confident of the Royal Thai Government's 
commitment to the counterterrorism effort and continue to encourage 
Thailand and its neighbors in Southeast Asia to strengthen their 
ability to respond to terrorist threats.
    Question. What is our exit strategy for Plan Colombia, and do you 
foresee continued substantial foreign assistance requests for Colombia?
    Answer. United States policy towards Colombia supports the 
Colombian Government's efforts to strengthen democratic institutions, 
promote respect for human rights and the rule of law, intensify 
counter-narcotics efforts, foster socio-economic development, address 
immediate humanitarian needs, and end the threats to democracy posed by 
narcotics trafficking and terrorism. We will measure the success of our 
programs by their effectiveness in reducing illegal drug cultivation 
and terrorism, and fostering improvements in all areas of Colombian 
life.
    It would be misleading to attempt to provide an expected time 
schedule for full achievement of United States objectives in the 
country; Colombia's deep-seated internal conflict dates back almost 40 
years. Realization of U.S. policy goals will require a concerted 
Colombian strategy and effort--backed by sustained U.S. assistance over 
a period of years--to establish control over its national territory, 
eliminate narcotics cultivation and distribution, end terrorism, and 
promote human rights and the rule of law.
    The Uribe administration has demonstrated a serious commitment to 
pursuing these objectives with a variety of counterdrug, humanitarian, 
and security measures. President Uribe has already demonstrated 
impressive progress towards achieving Plan Colombia goals. The GOC 
appears to be largely on track to fulfill its financial obligations 
under Plan Colombia and has taken measures to increase the percentage 
of GDP destined for security expenditures. The most recent CNC figures 
showing a decline in the amount of coca cultivation is encouraging. 
Nevertheless, Colombia will continue to need substantial U.S. help and 
support if it is to succeed in accomplishing its objectives. We are 
only halfway through the Plan Colombia timetable, and we would expect 
to continue significant assistance to Colombia at least through 2006. 
Over the longer term, and with continued progress towards achieving the 
goals that the Colombians and we have set for ourselves, we would 
expect to drastically reduce our financial support to Colombia.
    Question. Does the State Department believe that Colombia is 
capable--politically, monetarily, and technically--of sustaining Plan 
Colombia, absent U.S. funding?
    Answer. Plan Colombia is a six-year program originally instituted 
by then-President Andres Pastrana in October 1999. From the outset, the 
United States government praised and supported this comprehensive 
effort to address Colombia's many, inter-related problems and, with 
Congressional support, has committed itself to help the Government of 
Colombia sustain Plan Colombia with training, equipment and funds. We 
are now about halfway through the Plan. Despite the Government of 
Colombia's remarkable progress in implementing the Plan, Colombia will 
need continuing United States assistance.
    Colombian President Alvaro Uribe took office in August 2002; he 
immediately endorsed and expanded upon Plan Colombia. Politically, 
President Uribe has maintained public support for Plan Colombia and his 
own more stringent fiscal measures. Soon after his inauguration, Uribe 
imposed a one-time tax on the assets of the wealthiest segment of 
Colombians. Colombian authorities expect this tax to yield the 
equivalent of 1.2 percent of gross domestic product (GDP), between $800 
million and $1 billion. The Colombian 2003 budget also calls for 
increased government defense expenditures, which would increase 
military, and police spending. The Uribe Administration convinced the 
Colombian Congress to enact extensive, longer-term tax and pension 
reform packages and is moving ahead with a referendum on reducing 
government operating costs.
    Monetarily, Colombia will continue to need substantial United 
States help and support if it is to succeed in defending its democracy 
and the rule of law from narcotraffickers while improving human rights 
and promoting development--all goals of Plan Colombia. In 2002 
President Uribe promised President Bush that his government would, 
consistent with the 2002 Supplemental Appropriations Act, establish 
comprehensive policies to eliminate narcotrafficking as well as to 
reform the Colombian military and police. Uribe has delivered on his 
promise to furnish significant additional financial and other resources 
to implement those policies and reforms.
    The Colombian government's national security strategy, will set out 
the Uribe Administration's plans to dedicate even more Colombian 
resources to improving security while fighting the drug trade. 
President Uribe has repeatedly stressed that Colombia is undertaking 
these commitments to ensure the effectiveness of joint efforts with the 
United States Government to achieve our common goals in combating 
narcotics trafficking and terrorism.
    We have used U.S. assistance to give technical support, in the form 
of equipment, advisors and training to support Plan Colombia. It will 
take more time to train enough pilots, soldiers, judges, agricultural 
experts, and others that Colombia will need to staff Plan Colombia 
completely with Colombians, but we are well on the way.
    Question. Reports indicate that while aerial spraying may be 
working in Colombia, increased coca growth is appearing in neighboring 
countries, including Bolivia (20 percent above 2001 levels) and Peru (5 
percent above 2001 levels).
    What is the State Department's strategy for curtailing this spill-
over effect, and have Bolivia and Peru requested increased 
counternarcotics assistance?
    Answer. We are very pleased that the recently-released CNC ``Major 
Narcotics Producing Nations'' report shows a 15 percent decrease in 
coca cultivation in Colombia for 2002, including an 80 percent 
reduction in the principal production area of Putumayo. This success in 
Colombia will increase the pressure to cultivate coca elsewhere, 
especially in Peru and Bolivia where there is a past history of coca 
cultivation. As long as coca is a good cash crop, people will farm it 
wherever it provides the most profit for the least risk and effort. 
This is the reason our attack against cocaine is based on a regional 
and global strategy.
    Although our major attention and resource focus during the last 
three years has been Colombia, we have continued major and long-term 
programs in Bolivia and Peru to combat the immediate problem of coca 
cultivation and build permanent, professional capacity in each country 
to combat all facets of drug trafficking from raw resources to final 
product. We have smaller programs to improve the drug fighting 
infrastructure and regional cooperation (especially in controlling 
cross-border smuggling) in other countries neighboring Colombia and 
within the major drug trafficking transit corridors.
    While there were increases in coca cultivation in Peru and Bolivia 
this last year, both countries are still well below their peak 
productions--over 70 percent less than in the mid-1990s. Because of 
past eradication success, the actual coca cultivation increase in 2002, 
while of continuing concern, is not as large as might appear based on 
percentages: a total 7,100 hectares increase for both countries 
combined, compared to a regional total of over 205,000 hectares. We are 
maintaining our fiscal year 2004 funding requests at the fiscal year 
2003 levels for Peru and Bolivia, focusing on firming up the political 
support for counter-drug policies rather than program expansion. We 
will continue serious eradication and counter-drug institution building 
in both countries with the current fiscal year 2003 budget and fiscal 
year 2004 budget request.
    Question. Did Armenia offer support to Operation Iraqi Freedom, and 
have they offered any assistance in the post-Saddam period?
    Answer. Armenia has been and continues to be concerned about the 
situation in Iraq because of the sizeable ethnic Armenian population 
there. There are reportedly 30,000-40,000 ethnic Armenians living in 
Iraq, and between 7 and 12 Armenian churches in Iraq. Ambassador Ordway 
is in close contact with officials of the Armenian government to 
discuss contributions Armenia can make in the reconstruction of Iraq.
    Question. There have been numerous discussions between the 
proponents of the CANDLE project for Armenia and the State Department.
    Given declining funding levels for Armenia and the costs associated 
with this project--between $40 and $70 million--does the State 
Department intend to support this project?
    Answer. The State Department is continuing discussions with the 
sponsors of the proposed CANDLE project. We previously requested a 
number of items from the CANDLE sponsors, including evidence of support 
from the Government of Armenia, commitments of funding from other 
donors and/or investors, and commitments of funding for ongoing 
operating costs. When these items are provided, the State Department 
will be in a position to consider providing additional funding for this 
project. Declining funding levels for Armenia will definitely play a 
part in our decision whether to provide further funding for this 
project.
    Question. How might Aliyev's incapacitation impact negotiations 
over Nagorno-Karabakh?
    Answer. A peaceful, mutually acceptable resolution of the conflict 
over Nagorno-Karabakh will require that both sides make politically 
difficult compromises. This will require strong leadership in both 
Armenia and Azerbaijan capable of selling an agreement to the two 
countries' publics.
    Both President Aliyev in Azerbaijan and President Kocharian in 
Armenia have made clear that they are committed to the peace process. 
We believe that they play key roles in the search for peace.
    Question. Has there been any notable progress in negotiations 
between Armenia, Azerbaijan, and Nagorno-Karabakh over the conflict?
    Answer. Momentum generated at the Key West peace talks in April 
2001 waned in 2002. This February, presidential elections were held in 
Armenia. Parliamentary elections will be held there in late May, 
followed by presidential elections in Azerbaijan in October. The 
political atmosphere surrounding these elections has caused both sides 
to adopt conservative approaches to the peace process, which will 
likely continue through the fall.
    The OSCE Minsk Group Co-Chairs (United States, Russia, and France) 
continue to promote negotiations between the parties. The Co-Chairs 
instituted an additional level of talks in 2002 between Special 
Representatives of the two Presidents. These talks supplement the Co-
Chairs' visits to the region and meetings between the Presidents. The 
Co-Chairs are working to lay the groundwork for serious negotiations as 
soon as the two sides are ready to move forward. We believe the period 
following the elections in Azerbaijan will provide an important new 
opportunity to make progress in the peace process.
    Question. What are the next steps in engaging North Korea on a 
multilateral basis, and given past deceptions, how does the State 
Department determine whether the North Korean regime can be trusted to 
negotiate in good faith?
    Answer. The Administration is actively considering next steps in 
light of our discussions in Beijing and our subsequent, ongoing 
consultations with South Korea, Japan, China, and other key concerned 
states and parties. Precisely whether and/or how we proceed on further 
multilateral talks remains to be determined, but we have not excluded 
the possibility of a further round of talks in Beijing, at which we 
would deem essential the participation of Japan and South Korea.
    As to whether the North would negotiate in good faith, the United 
States seeks the verifiable and irreversible termination of North 
Korea's nuclear weapons program. We will not negotiate rewards or 
inducements to obtain this or North Korea's necessary compliance with 
the NPT, the North-South Denculearization Declaration, or its other 
international obligations. If North Korea acts to terminate its nuclear 
weapons program the United States is prepared to consider a bold 
approach that would create a fundamentally new relationship, to the 
extent North Korea is prepared to address other long-standing American 
concerns in the areas of WMD and missile proliferation, its 
conventional force posture, and human rights and humanitarian matters.
                              north korea
    Question. How can North Korea be compelled to comply with its 
obligations under any agreement, and how can the North's compliance 
with agreements be adequately verified?
    Answer. Any resolution of the nuclear issue must include the views 
of North Korea's neighbors, particularly the ROK and Japan. We are 
working with the international community to apply multilateral pressure 
to change North Korea's behavior and to ensure that North Korea 
responds to the international community's demands that it irreversibly 
and verifiably dismantle its nuclear weapons program and comply with 
its international obligations.
    Verification will be an essential component of the elimination of 
North Korea's nuclear weapons program. The International Atomic Energy 
Agency (IAEA) is a logical partner to verify full dismantlement of 
North Korea's nuclear weapons program and establish an on-going 
monitoring program. If needed, the IAEA can access technical support 
from appropriate states to address any unique challenges that may 
arise.
    Question. What more can the United States do to safeguard the human 
rights and dignity of the people of North Korea, including those 
seeking refuge in China?
    Answer. I share your concern about the repression and suffering of 
the North Korean people and am committed to keeping human rights and 
humanitarian concerns high on our agenda with North Korea. During talks 
in Pyongyang in October 2002, Assistant Secretary for East Asian and 
Pacific Affairs James A. Kelly highlighted United States concerns about 
the deplorable human rights record of the North Korean regime. 
Assistant Secretary Kelly also raised these concerns in the talks on 
North Korea in Beijing April 23-25. Assistant Secretary of State for 
Democracy, Human Rights and Labor Lorne W. Craner has also raised 
concerns about North Korean refugees in the context of our human rights 
dialogue with China held in Beijing in December.
    The involuntary return of some North Koreans in China to the DPRK 
is a matter of deep concern to this Administration. State Department 
officials in Washington and Beijing have expressed on multiple 
occasions our concern to the Chinese, and have pressed them not to 
return any individual to North Korea against his or her will. We 
consistently urge China to adhere to its international obligations 
under the 1967 Protocol on Refugees and allow UNHCR access to this 
vulnerable population in order to assess the status of these 
individuals.
    In April, the United States, in close coordination with the EU, 
South Korea, and Japan, co-sponsored a resolution addressing the human 
rights situation in North Korea at the 59th session of the U.N. 
Commission on Human Rights (CHR). The resolution called on the 
Government of the Democratic People's Republic of North Korea to 
respect and protect the human rights of its citizens. The resolution, 
the first such on North Korea, passed by a vote of 28 to 10, with 14 
abstentions.
    Finally, the United States has been a significant donor of food aid 
to North Korea through the World Food Program's annual appeals. On 
February 25, I announced an initial donation of 40,000 tons of food 
assistance and that we are prepared to contribute as much as 60,000 
additional metric tons of such aid this year. I am concerned about 
monitoring and access to all those in need in North Korea; we have 
conveyed this directly to the North Koreans. Additional food aid 
donations will be based on need in North Korea, competing needs 
elsewhere in the world and improvements in food aid monitoring in North 
Korea. Recognizing the deep and urgent need of the North Korean people, 
President Bush has made clear his determination that our food aid will 
not be used as a political tool.
    Human rights and humanitarian concerns in North Korea will continue 
to have a prominent place in our North Korea policy, including our 
multilateral discussions on North Korea with South Korea, China, Japan, 
and others.
                              afghanistan
    Question. To what extent is Iran hampering reconstruction and 
democratic reform in Afghanistan?
    Answer. We do not believe Iran is hampering reconstruction in 
Afghanistan. However, we see continuing efforts to channel support to 
people inside Afghanistan working against the central authority. We 
have made clear that this is unacceptable.
    To date, Iran has pledged support for the Government of Afghanistan 
and has played an active role at donor meetings. On December 22, 2002, 
Iran signed, with Afghanistan and Afghanistan's other five neighbors, 
the Kabul Declaration on Good Neighborly Relations that commits the 
nations to constructive and supportive bilateral relationships based on 
the principles of territorial integrity, mutual respect, friendly 
relations, cooperation and non-interference in each other's internal 
affairs. At the Tokyo Conference in January 2002, Iran pledged $560 
million (a mixture of grants and loans) over six years towards Afghan 
reconstruction. Since then, Iran has been actively engaged in the 
rehabilitation of the road from Islam Qala on the Iranian border to 
Herat in western Afghanistan and in the repair of electricity 
transmission lines, and has signed an agreement with Afghanistan and 
India to provide greater access to the Iranian port of Charbahar.
    Iran has also worked positively with Afghanistan to support 
regional narcotics interdiction efforts and has provided $3 million to 
support alternative livelihood assistance in provinces where the Afghan 
Government is destroying poppy crops.
    Question. What preparations are taking place to support national 
elections in Afghanistan scheduled for June 2004, and are there any 
discussions taking place to postpone the elections in order to better 
prepare for the polls?
    Answer. The United States supports the Afghan Government's 
commitment to holding the elections in June 2004, as called for in the 
Bonn Accords. We have budgeted $22 million in ESF for fiscal year 2003, 
and requested $30 million for fiscal year 2004, to support the Bonn-
related activities. A modest portion of these funds will support the 
elections process.
    Under the Bonn Accords, the U.N. Assistance Mission in Afghanistan 
(UNAMA) is charged with helping prepare for Afghan elections. UNAMA is 
preparing a budget for registration and elections, and initial 
indications point to costs well in excess of $100 million. This budget 
remains mostly unfunded. Registration is nonetheless expected to begin 
in August 2003, and we are working closely with Afghan and U.N. 
officials to rally other donors to fill the anticipated funding gap. 
UNAMA also is supervising a national public education campaign, and the 
International Foundation for Election Systems (IFES) is completing an 
assessment of logistical requirements for the elections.
    Question. What steps has Pakistan taken to rout Afghan terrorists 
from their soil, and is there any indication that these terrorists are 
in contact with active or retired Pakistani intelligence officers?
    Answer. Pakistan is a key ally in the war against terrorism and 
continues its active measures against extremists and terrorists. 
President Musharraf has given Pakistan's full commitment to the United 
States to track down and apprehend Taliban and al-Qaida leaders.
    Since the fall of 2001, Pakistan has apprehended more than 500 
suspected al-Qaida/Taliban operatives and affiliates, including 
September 11 plotter Ramzi bin-al-Shibh and al Qaida operational 
commander Khalid Sheikh Mohammed. It has moved against terrorists and 
extremists through its own legal system, and has committed its own 
security forces--and taken casualties--to pursue Taliban and al-Qaida 
in its border regions. We are pleased with this excellent and 
continuing cooperation.
    We are aware of reports that some retired ISID intelligence 
officers, who are believed to have been strong Taliban supporters 
continue to speak in support of the Taliban. We are unaware, however, 
of any Government of Pakistan policy to support the Taliban or any 
other terrorists. We continue to discuss Pakistan-Afghan relations with 
President Musharraf and Prime Minister Jamali, and have received their 
assurance that Pakistan supports the Karzai government and is actively 
working to strengthen both the Afghan government and the two nations' 
bilateral relationship.
    Question. What is the long-term economic impact of SARS on the 
China and Hong Kong economies, economic stability in China and Hong 
Kong?
    Answer. The long-term impact of the SARS outbreak on the economies 
of China and Hong Kong will depend to a large extent on the duration of 
the crisis and, in the case of China, the geographic scope of the 
spread of SARS. So far, certain areas of China, such as Beijing and 
Guangdong, have had the highest incidence of SARS; other areas of the 
country have reported relatively low numbers of SARS cases, but China's 
capacity for disease surveillance in rural areas is relatively weak. 
Thus, it may be some time before the full extent of China's outbreak, 
as well as its effectiveness in containing it, is understood.
    SARS has already delivered a strong short-term shock to both 
economies, especially in the tourism and travel sectors. Private 
economic estimates suggest SARS could cut China's GDP growth in 2003 by 
0.5 to 2 percentage points. For Hong Kong, with an economy more 
dependent on travel and tourism, analysts have cut their estimates for 
2003 GDP growth by as much as 1 to 3 percentage points.
    However, most economists continue to assess that this shock will 
not lead to a broader and deeper economic crisis, unless the SARS 
epidemic continues to spread in the coming weeks and months.
    The number of cases continues to grow in Mainland China, including 
in the rural areas, where public health infrastructure is weakest. 
However, China is now taking aggressive steps to contain and control 
SARS, including restricting travel, closing schools and other public 
places, and quarantine of those infected with SARS. The WHO and U.S. 
Department of Health and Human Services through its Centers for Disease 
Control and Prevention (CDC), at China's request, have fielded a small 
number of technical assistance teams throughout the country to provide 
epidemiological investigation and containment guidance. The WHO and CDC 
also has a team in Hong Kong. The United States and a number of other 
countries are now finalizing emergency assistance packages to help 
China control SARS. A number of private U.S. companies also are 
providing financial assistance and donating supplies to assist this 
effort.
    Question. Given the firing of senior Beijing officials and the 
SARS-related rioting that recently took place near Tianjin, what are 
the political implications of SARS on the Chinese government's 
authority?
    Answer. The SARS-related protests and disturbances that are taking 
place in China seem to be symptoms of the Chinese people's 
dissatisfaction with the way the SARS outbreak is being handled at the 
local level. However, President Hu Jintao and Chinese government senior 
leaders may very well feel as though their political legitimacy and 
credibility among the Chinese people are at stake. The April 20 
dismissals of Health Minister Meng Xuenong were designed to demonstrate 
to the public that China's leaders at senior levels will be held 
accountable for any missteps in the fight against SARS.
    Severe restrictions on travel, the forced quarantines of suspected 
and real SARS cases, and the creation of SARS-only clinics will 
continue to test the government's relationship with its citizens, many 
of whom deeply distrust the government. More protests are likely. The 
Chinese government, however, may fear that not implementing draconian 
measures will further the SARS virus' spread and could lead to a 
potentially fatal loss of public confidence in its leadership. 
Consequently, it appears willing to risk relatively small-scale local 
protests against its policies to achieve the larger goal of stamping 
out SARS.
    Question. How might the initial response to SARS impact the new 
leadership of President Hu Jintao?
    Answer. China's initial response to the SARS outbreak seriously 
damaged its international reputation and cast doubt on the willingness 
and ability of Hu Jintao and China's senior leaders to responsibly 
manage and contain the health crisis. Following the dismissals of 
Minister of Health Zhang Wenkang and Beijing Mayor Meng Xuenong from 
their posts on April 20, senior leaders, and President Hu in 
particular, have been much more active and forthcoming about the 
seriousness of the outbreak. They have provided daily updates on new 
cases and are showing a commitment to containing the outbreak. While 
these efforts have offset some of the damage done to the image of 
China's leaders, containing the outbreak is still the greatest 
challenge facing the Hu administration. It remains to be seen whether 
SARS is a challenge they can overcome.
    Question. What leverage does China have over North Korea to 
continue multilateral dialogue, and are you confident that China will 
exert the appropriate amount of pressure on the North Korean government 
to continue this dialogue?
    Answer. As a member of the United Nations Security Council 
Permanent 5 and as the neighbor, donor of aid, longtime ally, and 
largest trading partner of the DPRK, China has considerable influence 
with the North Korean government. We are cooperating well with the PRC 
on this matter, and China has consistently indicated its support for a 
non-nuclear Korean peninsula and has engaged seriously with the DPRK 
regime to emphasize to Pyongyang that its nuclear activities are 
unacceptable to the PRC and the international community. The recent 
multilateral talks in Beijing would not have happened without China's 
efforts to get the DPRK to the table. China's role as a full 
participant in those talks is a demonstration of the seriousness with 
which China now views the North Korean nuclear issue. We are confident 
that China's strong interest in and stated commitment to a non-nuclear 
Korean Peninsula will ensure that Beijing keeps appropriate pressure on 
the DPRK to reverse its present course, comply with its commitments, 
and address the serious concerns of the international community.
    Question. What is the State Department's strategy for promoting 
democracy, human rights, and rule of law in China?
    Answer. While we remain seriously concerned about human rights 
abuses in China and about several recent events such as the execution 
of a Tibetan without due process and the arrest of a number of 
dissidents, we have seen signs of incremental progress in the last year 
overall. Our strategy is to advance democracy, human rights, and rule 
of law through bilateral and multilateral channels, and through 
projects that advance long-term democratic and legal reform.
    When we resumed the bilateral human rights dialogue in October 
2001, we made clear that dialogue alone was not sufficient and tangible 
results would be required. During the December 2002 round of human 
rights discussions, the Chinese agreed to invite without preconditions 
the U.N. Special Rapporteurs on Religious Intolerance and Torture, the 
Working Group on Arbitrary Detention, and the leaders of the 
Congressionally-chartered U.S. Commission on International Religious 
Freedom. Since the October 2001 round of talks, China has released ten 
political prisoners, including China's ``Godfather of Dissent'' Xu 
Wenli and seven prominent Tibetan prisoners. In addition, the Dalai 
Lama's brother and personal representatives traveled to Tibet and 
Beijing for talks in July and September respectively. The President and 
the State Department have spoken out repeatedly against the persecution 
of Uighur Muslims in Xinjiang, reminding the Chinese that the War on 
Terror should not be used as an excuse to crack down on those who 
express their political and religious views peacefully.
    As for projects to promote reform, the Department made 
approximately ten grants for a total of $7 million dollars in fiscal 
year 2002. We support legal reforms to protect citizens' rights at the 
grassroots, strengthen the provision of legal services to women, 
promote worker rights and the rule of law, and help realize judicial 
independence. We are funding programs to expand electoral democracy and 
increase transparency and public participation in politics. We are also 
supporting NGO's that define themselves as advocates for interest 
groups for the disenfranchised. In 2003, we will expand our efforts and 
continue to seek out cutting-edge programs.
    Question. Has any evidence been uncovered in Iraq that indicates 
the transfer of Kolchuga radar system took place?
    Answer. At this time, we have no confirmed evidence that Kolchugas 
are in Iraq. The question of whether Ukraine transferred Kolchugas to 
Iraq remains open.
    Question. What support has Ukraine provided to Operation Iraqi 
Freedom?
    Answer. Ukraine's deployment of a nuclear-biological-chemical (NBC) 
protection battalion to Kuwait was a welcome contribution to coalition 
forces. President Kuchma's personal support for the deployment was 
instrumental in obtaining Rada approval. Ukraine also provided heavy 
transport aviation for the coalition. We are currently discussing with 
senior Ukrainian officials possible Ukrainian participation in a post-
conflict stability force.
    Question. The Ukrainian Government continues to deny United States 
democracy-building NGOs the ability to register in Ukraine.
    What steps has the State Department taken to ensure that the 
Ukrainian Government registers these NGOs, and what difficulties do 
these NGOs encounter working in Ukraine?
    Answer. We are pleased that the Government of Ukraine recently 
registered the Institute for Sustainable Communities, an NGO involved 
in development of civil society. We are disappointed, however, that the 
government has not renewed the registration of International Democratic 
Institute or International Republican Institute projects, despite 
repeated promises over the past year to act on their application. We 
continue to raise our concerns about this issue at every opportunity 
and all levels of the government. While NDI and IRI have continued to 
operate effectively, their unregistered status has led to difficulties 
related to personnel and other administrative issues and renders them 
and their Ukrainian partners vulnerable to various forms of government 
pressure and harassment.
    Question. Has the Ukrainian Government demonstrated a more firm 
commitment to the rule of law through greater respect and protection of 
human rights or transparent and fair resolution of business disputes 
involving foreign companies?
    Answer. The Government of Ukraine has improved its human rights 
record in some areas, but serious problems persist, especially with 
respect to harassment and intimidation of journalists. Over the past 
several years, the Government of Ukraine has taken steps to improve the 
administration of justice, including the enactment in 2001 of the Law 
on the Judicial System and the Law on Enforcement of Foreign Court 
Decisions. Passage early this year of a forward-leaning Civil Code was 
undermined by concurrent passage of a retrograde and contradictory 
Economic (Commercial) Code. The judiciary continues to depend on the 
executive branch for funding, which limits its independence. In late 
January, the Government again expressed a commitment to resolve a 
number of long-standing disputes involving U.S. companies, but concrete 
progress in this area remains slow.
    Question. What role is Russia playing in the reconstruction of 
Afghanistan, and what assistance has Russia provided to the Afghan MOD?
    Answer. The Russian Government has pledged USD 46 million in 
military spare parts, vehicles, aircraft and supplies, but as yet 
nothing has actually been delivered yet. The Russians also were 
prepared to provide a combat search and rescue support during OEF. 
However, no emergencies requiring Russian assistance materialized.
    Question. What is the status of the withdrawal of Russian military 
bases in Georgia?
    Answer. At the Istanbul OSCE Summit in 1999, Russia and Georgia 
agreed that Russia would withdraw forces in excess of agreed levels by 
the end of 2000 (this task was completed by Russia on time); that 
Russia would disband its military bases at Vaziani and Gudauta by July 
1, 2001; and that Russia and Georgia would reach agreement on the 
duration of the Russian presence at two remaining bases, Akhalkalaki 
and Batumi.
    Vaziani was disbanded and transferred to Georgia on time; while the 
Russian regular military unit at Gudauta has been withdrawn, Russian 
``peacekeeping'' forces remain at the base.
    At this point Russia and Georgia need to resolve two key remaining 
issues: the duration of the Russian presence at the Akhalkalaki and 
Batumi bases, and the status of the Russian presence at Gudauta, 
including related transparency steps.
    In the most recent Georgia-Russia Ministerial-level meeting on 
these issues in February, the two sides exchanged ideas on Gudauta, but 
there was no movement on the question the duration of the Russian 
presence at the two other bases. Russia insists that, absent large 
financial support, it will need 11 years to close the two bases. 
Georgia insists Akhalkalaki and Batumi should be closed within three 
years.
    We are encouraging the two parties to intensify their efforts to 
resolve these remaining issues.
    NATO Allies have made clear that we will not submit the Adapted 
Conventional Forces in Europe (CFE) Treaty for ratification by 
parliaments until key Istanbul commitments--on the CFE flank, Georgia, 
and Moldova--are fulfilled. Good progress is currently being made in 
Moldova with regard to withdrawal of Russian military equipment and 
munitions; NATO Allies now regard the flank reduction commitment as 
having been met.
    Question. Given declining foreign assistance to Russia, what are 
the State Department's plans for continuing democracy and rule of law 
programs in that country?
    Answer. Russia has made remarkable progress in economic reforms, 
but still faces challenges it its democratic development. FREEDOM 
Support Act (FSA) funding is slated to decline beginning in fiscal year 
2004, but democracy and human rights programs will continue for several 
years to come. During this time, we will increasingly focus on 
democracy and rule of law to ensure that we consolidate and sustain the 
progress made over the past decade. We will seek to advance structural 
changes that are needed to create a hospital environment for Russian 
civil society.
    FSA technical assistance programs have played a vital role in 
advancing progress toward rule of law in Russia, including supporting 
every aspect of the development of the new criminal procedure code, 
which has drastically changed the roles for Russian judges, prosecutors 
and defense attorneys. Our focus is now on helping the Russian bar 
consolidate the gains it has made, particularly by sponsoring 
professional education events to help the bar hone its advocacy skills.
    In addition to FSA democracy programs, we will continue to support 
civil society development and democracy via National Endowment for 
Democracy, Embassy Democracy Commission, U.S.-Russian citizen contacts, 
and professional and student exchanges.
    Question. What is the State Department doing to end harassment of 
foreign aid workers in Russia by their intelligence services?
    Answer. The U.S. Government is deeply troubled by a pattern of 
harassment by Russian special services of Americans (and others) 
involved in cooperative programs in Russia. This is inconsistent with 
the spirit of the broader U.S.-Russia relationship. We have firmly 
urged senior Russian Government officials, including the Foreign 
Minister and the Director of the Federal Security Service, to put a 
stop to such activity--much of which we believe stems from Soviet-era 
thinking in the security service bureaucracies.
    Official harassment includes but is not limited to: groundless 
allegations against the Peace Corps; harassment of the coordinators for 
U.S. Government assistance in the Russian Far East and for the Library 
of Congress funded Open World exchange program; and the denial of re-
entry to the AFL-CIO Solidarity Center field representative, an OSCE 
Mission to Tajikistan staffer, and several missionaries.
    Recently the Russian Government informed us it has relented on its 
decision to deny transit to the OSCE Mission to Tajikistan staffer, an 
American citizen. We continue to press Moscow to re-think its other 
decisions of this type, emphasizing these are damaging to Russia's 
image abroad and working against President Putin's pledges to build a 
strong, open civil society and robust democratic political system.
    Question. What steps has the State Department taken to ensure that 
Russia more fully complies with international human rights laws in 
Chechnya?
    Answer. We remain concerned by continuing, credible reports of 
violations of human rights and humanitarian law in Chechnya by Russian 
federal forces, forces of the Kadyrov administration, and Chechen 
separatist fighters. The most serious include arbitrary detentions of 
civilians, disappearances, and extrajudicial executions. These 
incidents are continuing--and in some respects reportedly have 
increased--despite President Putin's injunction to stop the large-scale 
security sweeps that used to result in such abuses. We continue to 
press the Russian government, including in our private meetings and 
through our vote for the Chechnya resolution at the UNCHR this spring, 
to put an end to these abuses and to investigate and bring to account 
the persons responsible, as well as to work for a durable political 
settlement.
    Some Chechen separatist fighters have carried out terrorist attacks 
against civilians, including the assassination of local government 
officials. Some Chechen group seized a theater in Moscow last October 
and carried out a suicide truck bombing of the main government building 
in Grozny in December. We have called on the Chechen separatist 
leadership to repudiate, in word and in deed, terrorist acts and 
individuals, be they Chechen or international. The evidence so far 
suggests they have much more to do in this area.
    On the political side, we are encouraging the Russian Government to 
follow through with public commitments it has made in relation to the 
March 23 constitutional referendum in Chechnya. We hope this will 
initiate a political process including democratic elections for 
institutions of self-government acceptable to the people of Chechnya, 
and ultimately lead to a political solution of this long and tragic 
conflict.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Mr. Secretary, I mentioned Mr. Gingrich's speech in my 
opening statement. There are hundreds of former Congressmen in this 
town. They give speeches every day. You know why this one caught my 
attention? Because I believe that his sentiments are shared by senior 
officials in this Administration.
    These officials favor force over diplomacy. They believe in going 
it alone. They believe that alliances and international institutions 
impede, rather than promote, U.S. interests. They believe that the 
Pentagon, not the State Department, should be handling key aspects of 
foreign policy.
    Mr. Secretary, why are the State Department, and the idea of 
multilateralism, under such attack in this Administration?
    Answer. This Administration is fully engaged multilaterally on a 
host of issues around the world. From HIV/AIDS and SARS to 
transnational terrorism, we are working closely through regional 
organizations, the United Nations, and other international agencies. We 
are actively developing a reconstruction effort in Iraq that will 
include the contributions of many nations, and as the interim authority 
grows into a full representative government for the people of Iraq, 
international institutions will play an important and significant role 
there.
    Question. Only a couple of years ago, Condoleezza Rice was saying, 
and I quote: ``We don't need to have the 82nd Airborne escorting kids 
to kindergarten.''
    We all know that Dr. Rice was exaggerating for effect. But, I agree 
with her basic premise: we don't want the Defense Department, whose 
mission is fighting wars, too deeply involved in nation building.
    Despite that, the White House and the Pentagon wanted all the 
reconstruction funds for Iraq to be controlled by the Pentagon. I and 
others here did not support that, but we gave the discretion to the 
President to apportion the funds. Who's in charge over there? General 
Garner? General Franks? I have a Defense Department chart that shows 
who is responsible for which pieces of the reconstruction program. The 
State Department isn't even mentioned. Do you have any role yet, or is 
the State Department just an observer?
    According to the AP, the President is expected to declare the end 
of major combat in Iraq by the end of this week. Shouldn't the State 
Department then assume responsibility for the relief and reconstruction 
phase?
    How much of the $2.4 billion has been spent, if any, and by which 
agencies? How much of it do you expect to be managed by State and 
USAID? What is--or will be--the U.N.'s role?
    Can anyone compete for U.S. aid contracts, or are you going to 
punish companies from countries that didn't agree with us at the United 
Nations?
    Answer. The situation on the ground in Iraq remains unstable; as 
such, there is no question that General Franks, as the military 
commander, is the governing authority and will remain so until 
stability is established and we are prepared to start handing off to 
civilian authorities. Creating a stable environment means, as a first 
step, ensuring that Saddam's entire ruling infrastructure and security 
apparatus is dismantled and disarmed, including irregulars and 
paramilitary forces, locating and securing WMD, and eliminating any 
residual terrorist infrastructure.
    The establishment of a secure and stable environment still remains 
the key task in meeting Iraqis' immediate humanitarian needs. Therefore 
continued coordination with military forces, including civil affairs 
units and the Army Corps of Engineers, is of vital importance.
    With respect to the Office of Reconstruction and Humanitarian 
Assistance (ORHA), there are currently dozens of State Department 
employees working with General Garner, including five Ambassadors. 
Deputy Assistant Secretary of State Ryan Crocker has supported General 
Garner and Presidential Envoy Zalmay Khalilzad's efforts in the two 
regional political conferences that have started the process of 
establishing an inclusive, representative Iraqi Interim Authority. The 
State Department's Bureaus of Near Eastern Affairs (NEA), International 
Narcotics and Law Enforcement Affairs (INL), Economic and Business 
Affairs (EB) and Democracy, Human Rights and Labor (DRL) have been 
actively involved with ORHA for some time in a wide range of efforts, 
including supporting Iraqi efforts in the reconstruction of the 
criminal justice sector, the development of a prosperous, market-based 
economy and the establishment of democratic processes. Along with 
USAID, the State Department's Bureau of Population, Refugees, and 
Migration (PRM) is heavily involved in assisting United Nations, other 
international organization, and NGO humanitarian efforts on behalf of 
the Iraqi people.
    As we transition from immediate security and humanitarian 
priorities, to institution building and the establishment of an 
economic and political process out of the interim authority, the State 
Department will play a greater role, as will other civilian government 
agencies.
    Most of the $2.4 billion appropriated for Iraq Relief and 
Reconstruction has not yet been allocated to individual agencies as 
assessment missions are still ongoing. We expect that USAID will 
control the largest portion of these funds for reconstruction along 
with State Department for remaining humanitarian needs, once allocated.
    We are also calling upon the United Nations to play a vital role in 
Iraq. We have introduced a Security Council Resolution that establishes 
the position of a U.N. Special Coordinator to coordinate participation 
by the U.N. and other international agencies in humanitarian assistance 
and economic reconstruction, and assist in the development of a 
representative government. The Coordinator will also support 
international efforts to contribute to civil administration, to promote 
legal and judicial reform and human rights, and to help rebuild the 
civilian police force. There is a tremendous amount of work to be done, 
and U.N. expertise will be instrumental. As a practical matter, the 
Coordinator will serve as a principal point of contact for the United 
Nations in working with the Coalition and the Iraqi people.
    Reconstruction contracts funded by U.S. taxpayers will be let in 
accordance with all relevant federal procurement regulations. USAID has 
been allowed to waive a provision of law in order to allow foreign 
firms to compete for reconstruction subcontracts, and we have worked 
hard to ensure that our coalition partners and others are aware of 
these opportunities. All the information needed to compete for these 
projects is posted on the Internet at www.usaid.gov.
    Saddam's regime continually put political favoritism and personal 
enrichment above the needs of the Iraqi people when making its 
procurement and contracting choices. The United States and our 
coalition partners will not do the same. We are confident that a new, 
representative Iraqi authority will not do so either.
    Question. Mr. Secretary, the Administration used the possession of 
weapons of mass destruction (WMD) by Saddam Hussein as the primary 
justification for going to war. We seemed certain that Saddam Hussein 
had large numbers of WMD.
    Yet so far, no such weapons have been found.
    With all of the looting that followed after the fall of Baghdad, I 
am concerned that these weapons may now be outside of Iraq in the hands 
of terrorists.
    Is there any credible information that these weapons have been 
smuggled out of Iraq? If so, could that pose an even greater threat 
than Saddam Hussein? Do we believe that they are still inside Iraq? 
Have they been destroyed?
    Or, did we have bad information to begin with about the existence 
of these weapons?
Follow up
    What happens if we haven't found anything in 6 months? 12 months? 
What conclusions should we reach--that they are in someone else's 
hands? That they never existed? That Osama Bin Laden or other terrorist 
network has them?
    Answer. Iraq is now being disarmed. Coalition forces are engaged in 
searching for and securing WMD assets. What is emerging is that 
capabilities are more dispersed and disguised than we thought. All 
sources of information are being pursued. Even though we have no firm 
evidence that WMD has been smuggled out of Iraq, we will continue to 
watch carefully and act upon any information or indications we receive.
    We are confident that WMD will be found. On-site inspection of 
suspect sites for hidden materiel is a daunting task. We are searching 
an area the size of California. And we are not talking about finding 
something as large and as stationary as an ICBM silo. Chemical and 
biological munitions can be hidden anywhere and production facilities 
could be set up in a building the size of a small house--or a basement. 
Likewise, Iraqi missiles, though larger, are mobile systems that are 
easily concealed. Recall also that the Iraqis had years to prepare 
underground and other facilities for the express purpose of hiding 
their WMD and missiles from U.N. inspectors.
    We are also beginning to get cooperation from Iraqi scientists and 
former officials as well as computer files and documents that provide 
the clues and keys. We are interviewing some of these people and 
continue to seek others. With their help, we will find Iraq's WMD. And 
while some individuals are, indeed, proving helpful, we are talking 
about a cultural change. People have to be certain that the climate of 
fear and intimidation is truly gone for good before they will be 
willing to talk about the past.
    The inspection process will take time to ferret out the Iraqi WMD. 
But be assured that it will do so. We are working closely with our 
Coalition partners, deploying multinational teams of experts to search 
Iraq.
    Rather than set artificial deadlines, we are committed to staying 
the course until the job is done. Coalition forces continue to follow 
up leads, examine suspect sites and interview Iraqi scientists. We are 
confident that WMD will be found and we will ensure that it is 
eliminated.
    Question. The Supplemental contains $10 million for 
``Investigations and research into allegations of war crimes by Saddam 
Hussein and other Iraqis, and for a contribution to an international 
tribunal to bring these individuals to justice.''
    We specified ``international tribunal'' because the Iraqi judicial 
system is corrupt, bankrupt, and lacks credibility. This is the same 
reason why we have supported international tribunals to prosecute 
Serbian, Rwandan, and Sierra Leone war criminals.
    However, we hear that the Administration is proposing an Iraqi 
tribunal to try accused war criminals. Why the different approach? 
Doesn't this risk the kind of ``victors justice'' that has been 
discredited in the past?
    Answer. We believe that members of Saddam Hussein's regime who are 
responsible for crimes committed against Iraqi citizens should be held 
accountable before an Iraqi-led process, that could include tribunals 
and truth and reconciliation commissions. It is our policy to encourage 
and help states to pursue credible justice rather than abdicating their 
responsibility or having it taken away. Based on our consultations with 
Iraqi jurists and lawyers inside and outside Iraq, we believe there are 
qualified Iraqis who are ready and willing to accept the mandate of 
justice. Our goal is to help create the conditions that will allow them 
to make the essential decisions, while at all times providing the 
necessary international support and expertise. We believe this approach 
has the best prospects both to ensure accountability for the crimes of 
the previous regime and to help re-establish the rule of law in Iraq.
    Question. The Defense chapter of the Supplemental contains $25 
million for aid to foreign countries to combat terrorism. This is a 
foreign aid program which should be funded by this Subcommittee and run 
by the State Department, not the Pentagon. I am also told that the 
Pentagon is seeking legislative authority to manage similar programs, 
with even more funding, in fiscal year 2004. Aren't you concerned about 
this? Should the Pentagon make its own foreign policy and manage its 
own foreign aid budget? As a former Chairman of the Joint Chiefs, 
doesn't this divert the Pentagon from its primary war fighting mission?
    Answer. The Global War on Terrorism and combat operations in 
Afghanistan and Iraq require that we be responsive and adapt quickly to 
circumstances in extraordinary ways. It is in our interest to assist 
our foreign partners as they engage in operations against terrorists 
that threaten the United States and our friends and allies. The $25 
million in the Defense chapter of the President's Emergency Wartime 
Supplemental will be used to assist key foreign partners in improving 
capabilities to conduct counter-terrorist combat operations. The State 
Department has and will continue to work closely with the Pentagon as 
we press on in our fight against terrorism. Indeed, the legislation 
requires the concurrence of the State Department before proceeding. I 
want to assure you, however, that I have no plans to relinquish any of 
State's foreign policy prerogatives and authorities.
                         israel loan guarantees
    Question. The roadmap lays out a path to a peaceful settlement of 
the conflict. Are the terms of the roadmap negotiable? When Israeli 
officials say they disagree with various provisions in the roadmap, how 
do you respond?
    Every U.S. Administration, including this one, has said it opposes 
the settlements, but the construction continues, as does the violence. 
What settlement activity is currently going on? Do you expect the 
settlement expansion to continue, despite the language in the 
supplemental?
    Answer. Regarding the roadmap.--The roadmap is a framework for the 
broad steps Israel and the Palestinians must take to achieve President 
Bush's vision of peace, and thus offers a way for both sides to restart 
direct negotiations. There are obligations and difficult choices ahead 
for both sides. We have presented the roadmap to both sides and now 
look forward to their contributions on how best to move ahead on 
implementation.
    Regarding Israeli settlements.--Settlement activity is simply 
inconsistent with President Bush's two-state vision. As President Bush 
stated, ``as progress is made toward peace, settlement activity in the 
Occupied Territories must end.'' This view has been made abundantly 
clear to the Government of Israel. In addition, consistent with the 
legislation that authorized the loan guarantees for Israeli, Israeli 
expenditures on settlements must be deducted from the loan guarantees.
                         complex emergency fund
    Question. Among the increases is $100 million for an emergency fund 
for ``complex foreign crises.'' Isn't this essentially a blank check? 
What limits would there be on the use of this fund? Could it be used 
for weapons? Since you have asked for this authority ``notwithstanding 
any other provision of law,'' what is to prevent the fund from being 
used to supply weapons to an autocratic government that violates human 
rights?
    Answer. The fiscal year 2004 budget requests a new $100 million 
U.S. Emergency Fund for Complex Foreign Crises (``Fund'') to provide 
the President the necessary flexibility to respond quickly and 
effectively to a wide range of unforeseen complex crises. At present, 
no contingency account exists for these types of crises, and we 
frequently are forced to cut ongoing programs to meet urgent needs. 
Such crises may include: peace and humanitarian intervention operations 
to prevent or respond to foreign territorial disputes; armed ethnic and 
civil conflicts that pose threats to regional and international peace; 
and acts of ethnic cleansing, mass killing, or genocide. The Fund may 
not be used for natural disasters, as existing contingency funding is 
already available to meet crises related to those situations.
    As proposed, the ``notwithstanding'' language of the Fund gives the 
President broad flexibility to provide whatever type of assistance 
would be needed to meet the requirements of a particular situation, 
including defense articles and services. In each case, however, it is 
the President who must make the determination that a complex emergency 
exists and that it is in the U.S. national interest to furnish 
assistance in response. Reserving this decision for the President 
ensures that any provision of assistance under the Fund's authority 
will be consistent with longstanding U.S. policies supporting 
responsible arms transfers and respect for human rights.
                         development assistance
    Question. Despite the $2.5 billion increase above the fiscal year 
2003 level, the President's fiscal year 2004 budget request would cut 
funding for the Development Assistance account by $14 million. This 
account funds everything from agricultural research to children's 
education to environmental conservation to democracy building. It funds 
the bulk of our programs to alleviate poverty. How do you justify 
cutting these programs?
    Answer. The $2.5 billion increase represents a commitment by the 
Administration to lay a sound foundation for improving the lives of 
impoverished people. This includes $1.3 billion for the Millennium 
Challenge Account that will increase and better target development 
assistance and programs to alleviate poverty.
    In fiscal year 2003 the Development Assistance account and the 
Child Survival and Health Programs fund were requested as a single 
account, and the combined total of the fiscal year 2004 request level 
for these two accounts remains the same. However, within this straight-
lined level, there is a significant increase in the HIV/AIDS program, 
which in turn requires offsetting reductions in other sectors. The 
reduction of the Development Assistance account therefore reflects a 
nominal shift of funds to the Child Survival and Health Programs Fund 
to reduce the impact of decreases in the Child Survival, Maternal 
Health and Infectious Disease programs. Effective programs in these 
areas are also key elements in our programs to alleviate poverty.
                    development assistance follow up
    Question. The total amount requested for Development Assistance for 
fiscal year 2004 is $1.345 billion. That is less than my tiny State of 
Vermont spends on public education. Do you believe that this is enough 
for the richest, most powerful country in the world to spend on 
combating global poverty?
    Answer. The $1.345 billion requested for Development Assistance is 
only one component of the entire program to address global poverty. The 
total amount requested for USAID and other related economic assistance 
programs is, in fact, nearly $11 billion.
    In addition to Development Assistance, global poverty issues are 
also addressed with funding made available through other accounts. For 
example, the Economic Support Fund focuses additional funds primarily 
in the Middle East, and separate accounts address similar issues in 
Eurasia and Eastern Europe. The Public Law 480 Title II program 
alleviates food security issues throughout the world.
    As part of the fiscal year 2004 request, the Administration is also 
launching a major new initiative, the Millennium Challenge Account. The 
MCA, when fully funded in future years, will be a major component of 
the United States contribution towards global development, and will 
increase its core development assistance by 50 percent.
    The MCA will serve as an incentive to poorer countries to adopt 
sound policies that provide their citizens an escape from poverty. 
Countries that rule justly, invest in their people, and promote 
economic freedom will energize individual initiative, mobilize domestic 
capital, attract foreign invest, and expand markets. These conditions 
in turn will enable these countries to become part of the global 
market, a key to economic growth and poverty reduction.
                      millennium challenge account
    Question. (a) Mr. Secretary, $1.3 billion of the President's fiscal 
year 2004 budget request is for the first installment of the new 
Millennium Challenge Account. I support this, although I do not agree 
with the Administration's plan to create a new corporate bureaucracy to 
manage it. Why not establish a bureau at USAID with flexible 
authorities to manage these funds?
    Answer. The MCA is a truly new approach. First, it is selective, 
targeting those countries that ``rule justly, invest in the health and 
education of their people, and encourage economic freedom.'' Second, 
the MCA establishes a true partnership in which the developing country, 
with full participation of its citizens, proposes its own priorities 
and plans. Finally, the MCA will place a clear focus on results. Funds 
will go only to those countries with well-implemented programs that 
have clear objectives and benchmarks.
    A new institution is the best way to implement and highlight this 
innovative and targeted approach. The existing agencies that might 
administer the MCA--State and USAID--both have many other bureaucratic 
mandates and priorities. The MCA will complement the assistance they 
provide to address key U.S. priorities, such as humanitarian crises, 
failed states, infectious disease, and regional challenges. Unlike the 
MCA, such assistance cannot be based solely on country performance or 
business-like partnerships.
    Because of its unique mandate, the MCA will need flexible personnel 
and program authorities to carry out this targeted and innovative 
concept. If it is to respond to developing country priorities, for 
example, it cannot be earmarked to fund specific areas. The MCA should 
start with a clean slate--an innovative, flexible, narrowly targeted, 
and highly visible Millennium Challenge Corporation (MCC)--that can 
give it the best chance to succeed and show that this approach works.
    Question. (b) This was supposed to be new money, yet both the Child 
Survival and Health account, and the Development Assistance account, 
are being cut in the President's budget. How do you explain this?
    Answer. For fiscal year 2004, the Administration has requested 
$1.495 billion for the Child Survival and Disease Program and $1.345 
billion for the Development Assistance account, for a total of $2.840 
billion for both accounts. This request is identical to the total 
Administration request for the two accounts in fiscal year 2003. In 
addition, the President is making new requests in fiscal year 2004 of 
$450 million for the Emergency Plan for AIDS Relief and $200 million 
for the Famine Fund, which will also contribute to child survival.
    Question. (c) I also have questions about eligibility for the 
Millennium Account. Countries must show that they are taking serious 
steps to combat corruption, support health and education, and good 
governance. That makes sense. But a country like Brazil would not be 
eligible for the MCA because its per capita income is too high. Brazil 
is a country of 100 million people of immense importance to the United 
States, where a small percentage of the population is very rich and the 
vast majority is desperately poor. Shouldn't we look at ways to use the 
MCA to promote better policies in regions of a country with such 
serious needs, and of such importance to the United States, as Brazil?
    Answer. The MCA is a targeted program, designed to spur economic 
growth in the poorest countries. We recognize that some countries with 
per capita GDP above the MCA cutoff still have large pockets of 
poverty. Such countries also have greater wealth and more access to 
international capital and investment. They are better able to address 
challenges on their own. Brazil, for example, attracted $71.9 billion 
in foreign direct investment over the last three years. Investor demand 
for Brazil's April 29 bond issue was more than seven times the $1 
billion actually sold. MCA beneficiaries are not able to attract such 
funds.
    Eligibility for the MCA is not the full measure of our relationship 
with any country. The United States has many initiatives, in the trade 
as well as the aid arena. Brazil is the third largest beneficiary under 
our Generalized System of Preferences for tariffs and would benefit 
from successful conclusion of FTAA negotiations, which it co-chairs 
with the United States. We will continue to make available select USAID 
funding, as well as OPIC and EXIM financing. (EXIM's third highest 
country exposure is with Brazil.) Brazil recently received about $1 
billion in World Bank and Inter-American Development Bank loans for 
human development and social support programs, and other international 
financial institution funds will also remain available.
    Question. We have given hundreds and hundreds of millions of 
dollars in aid to Pakistan since September 11. Yet al Qaida and Taliban 
fighters continue to find sanctuary in Pakistan, and to launch attacks 
against U.S. forces in Afghanistan. Can't this be stopped?
    Answer. Pakistan is a key ally in the war against terror and 
continues to take active measures against extremists and terrorists. 
The Government of Pakistan is fully committed to tracking down and 
apprehending Taliban and al-Qaida leaders. Pakistan's success in 
disrupting imminent attacks against our interests has saved United 
States and Pakistani lives.
    Since the fall of 2001, Pakistan has apprehended over 500 suspected 
al-Qaida and Taliban operatives. Pakistan has committed its own 
security forces--and taken casualties-in pursuit of terrorists in 
Pakistan's major cities and border regions. We are supporting Pakistan 
in these actions, and United States and Pakistani forces work closely 
together in our efforts to eliminate the Taliban and al-Qaida threat.
    President Karzai visited Islamabad on April 23 and held what we 
understand were very productive discussions on these issues. He and 
President Musharraf have reportedly agreed on new measures to enhance 
their cooperation on security issues. We are hopeful this type of 
cooperation will also reduce the number of terrorist attacks and save 
lives.
    Question. The Karzai government is increasingly seen as incapable 
of wielding authority outside of Kabul. Aren't you concerned? Shouldn't 
the U.S. military be showing more muscle against the warlords, to back 
up the central government and keep Afghanistan from sliding backwards?
    Answer. The United States takes seriously the need for the Afghan 
government to extend its central authority throughout Afghanistan. 
Improving the capacity of the Transitional Islamic State of Afghanistan 
(TISA) and enhancing its authority outside of Kabul are fundamental 
aspects of our policy. We are actively seeking ways to increase our 
assistance through TISA ministries and finding ways to better link our 
local programs to and through TISA. Provincial Reconstruction Teams 
have been deployed to Gardez, Bamiyan and Konduz. Other PRTs will 
follow to Mazar e-Sharif by early June (led by the UK), and then 
Jalalabad, Parwan, Kandahar, and Herat. One of the objectives of the 
PRTs is to extend TISA authority by linking TISA to local government 
through reconstruction projects. These teams have State and USAID 
officers as well as potential assignment of USDA and HHS officers. 
Afghan National Army (ANA) units are also deploying to the same areas 
as the PRTs. In addition, we are working with the Germans to extend 
police training from Kabul to all eight PRT areas of operation.
    The United States also remains actively engaged with our Coalition 
partners in rebuilding and training an Afghan National Army and 
National Police Force to increase security throughout the country and 
to build the foundations of a stable Afghanistan under central 
authority. The key to expanding central authority over regional 
commanders and various warlords in the near-term is the Disarmament, 
Demobilization and Reintegration (DDR) program. Japan is the lead 
nation for DDR and is supported by the U.N. Assistance Mission to 
Afghanistan. Significant progress in DDR implementation has been made 
over the last few months. President Karzai has announced a start date 
of 22 June. The United States is currently reviewing ways and methods 
where we can help this essential program move ahead and succeed. The 
best approach to Afghan security is to stay the course of developing 
indigenous security institutions and promoting disarmament under 
international auspices.
    Question. The President's fiscal year 2004 budget request would cut 
funding for the former Soviet Union from $755 million to $576 million. 
Aid to Russia would fall from $148 million to $73 million. I know of 
many programs to promote legal reform, improve health care, combat 
organized crime, improve market-based agriculture, clean up toxic 
pollutants, and other initiatives that will be shut down because of 
this cut. Does that make sense to you?
    Answer. Part of the apparent large cut in the overall fiscal year 
2004 request for FREEDOM Support Act (FSA) assistance reflects a shift 
in funding for educational and professional exchanges from the FSA 
account to the ECE account in the Commerce, State, Justice 
appropriation request.
    The lower request level also recognizes, particularly for Russia, 
progress already achieved on reform, especially economic reform. 
Programs in this area will likely be phased out over the next several 
years.
    We realize that Russia continues to face challenges in democratic 
development. We are developing a strategy to phase out FSA assistance 
to Russia over the next several years that will seek to ensure a legacy 
of sustainable institutions to support civil society and democratic 
institutions. During this time, we will increasingly focus on democracy 
and rule of law to ensure that we consolidate and sustain the progress 
made over the past decade. We will seek to advance structural changes 
that are needed to create a hospitable environment for Russian civil 
society.
    FSA technical assistance programs have played a vital role in 
advancing progress toward rule of law in Russia, including supporting 
every aspect of the development of the new criminal procedure code, 
which has drastically changed the roles for Russian judges, prosecutors 
and defense attorneys. Our focus is now on helping the Russian bar 
consolidate the gains it has made, particularly by sponsoring 
professional education events to help the bar hone its advocacy skills. 
In 2001, an interagency task force identified health as one of the 
three priority areas for FSA assistance in Russia. Russia has one of 
the highest rates of increases in infection of HIV/AIDS. Multi-drug 
resistant TB is another serious problem, particularly in prisons. 
Funding for health programs has increased over the last two years and 
we plan to continue these programs for some years to come.
    Some anti-crime activities that had been funded under FSA, such as 
programs to combat organized crime and money laundering, will likely 
continue, perhaps at different levels, with alternate funding sources.
    Our strategy is not yet complete, so we don't have all the answers. 
But we are determined to help Russia preserve the remarkable gains she 
has made since 1992 and to complete the transition into a market-based 
democracy.
    Question. Mr. Secretary, I have long felt that the United States--
under Republican and Democratic administrations--has failed to devote 
anywhere near enough time and effort to build a strong relationship 
with our southern neighbor, Mexico. I thought that would change with 
the election of President Fox, who is by far the best hope Mexico has 
had in recent memory. President Bush seemed to feel the same way, but 
what we have seen amounts to little more than photo ops. Now we hear 
that since Mexico did not support the United States in the U.N. 
Security Council, President Bush is not taking President Fox's phone 
calls. Why haven't we made more of this opportunity to build closer 
relations with Mexico, and what can we expect in the coming year or 
two?
    Answer. Our bilateral relations with Mexico and the Fox 
administration remain close and cooperative. We have taken advantage of 
the opportunity for closer relations presented by a democratically-
elected government in Mexico which shares our commitment to the rule of 
law, human rights, and free markets.
    The Bush and Fox administrations have, over the past two years, 
worked closely together to combat transnational crime in all its 
aspects, including terrorism, trafficking in illicit drugs and in 
people. Our law enforcement relationship with Mexico has never been 
better. Similarly, our cooperation on border security is excellent, as 
demonstrated by the April 23-24 meetings between Homeland Security 
Secretary Ridge and Mexican Governance Secretary Creel in San Diego. We 
very much hope to see proactive cooperation from Mexico in resolving 
issues currently in dispute, including Mexico's water debt to the 
United States and its use of non-tariff barriers to impede U.S. 
agricultural exports to Mexico.
    We were indeed disappointed that the Fox administration did not, in 
the face of Iraqi intransigence on disarmament, support a successor 
resolution to UNSCR 1441. We certainly hope that Mexico will support us 
when resolutions regarding the lifting of sanctions and other post-
conflict actions to benefit the people of Iraq are put before the 
Council.
    Question. Mr. Secretary, I admire Colombian President Uribe and I 
want to support him. I think his Minister of Foreign Affairs and 
Minister of Defense are superb. Colombia is now the third largest 
recipient of United States aid.
    We are spending over half a billion dollars a year in Colombia. We 
are spraying hundreds of thousands of acres of coca. Over the past 
three years, we have given the Colombian military all kinds of new 
aircraft and equipment. It is now going to cost hundreds of millions of 
dollars a year just to operate and maintain the aircraft. Are we going 
to be paying for this? What's the end game?
    Answer. U.S. assistance pays for much of the operations of the 
rapidly expanding military and national police air programs that 
support counter narcotics activities. However, one of the principal 
central objectives of U.S. counter-drug assistance is to develop the 
capability of both the Colombian Army Aviation Brigade and the 
Colombian National Police Air Wing to operate and maintain their 
programs without the support of USG-funded contract pilots, mechanics 
and technical personnel.
    For the military, after an extensive recruiting and training 
program, we will have sufficient pilots for all three types of 
helicopters by mid-2003. We are providing these pilots the operational 
experience and professional guidance for them to mature into command 
pilots, a process that averages two years. We have trained a total of 
127 military helicopter pilots, 29 of whom have advanced to Pilot in 
Command or Instructor Pilot status. As this pool of aviators matures, 
we will draw down the number of civilian contract pilots.
    Training of mechanics takes years to impart the necessary skills 
and practical experience, but we are making progress and are steadily 
increasing the number and skills of military helicopter mechanics. Many 
observers are not aware of the youth of the Colombian Military Aviation 
Brigade--it had only one helicopter as recently as six years ago. Our 
progress must be measured against the tremendously increasing needs of 
this growing program.
    For the national police, the primary and overriding goal has been 
to bring illicit coca and opium poppy cultivation under control as 
quickly as possible. This last year's 15 percent reduction in coca 
cultivation is a strong indication that we have turned the corner. At 
present, there are no available Colombian police spray pilots, and 
hence the use of civilian contract pilots is required. However, our 
program hires Colombian pilots to the maximum extent possible, and we 
are now identifying potential CNP pilots as candidates for 2003 spray 
plane training.
    The Colombian National Police Narcotics Directorate (DIRAN) Air 
Service has been established for a significant period, is essentially 
self-sufficient in pilots and has an effective maintenance capability 
requiring only some civilian contractor assistance.
    Question. For fiscal year 2003, we modified the human rights 
conditions so the Administration can now provide 75 percent of the 
military aid immediately. Only 25 percent is subject to the conditions. 
I supported this for one reason, and it was not because the human 
rights situation is improving. In fact, according to a February report 
of the United Nations Human Rights Commissioner:

    ``There was `a significant increase in reports of violations 
attributed directly to members of the [Colombian] security forces, as 
compared to the year 2001.' These reports included torture, excessive 
use of force and executions.
    ``The U.N. human rights office `was unable to observe any 
significant progress in terms of trials, whether criminal or 
disciplinary, of public officials responsible for serious human rights 
violations . . .'
    `` `The Colombian armed forces continued to tolerate and in some 
cases collaborate with paramilitary forces. Paramilitaries continued to 
expand operations in areas where the presence of the Colombian armed 
forces was high.' ''

    The reason I agreed to change the conditions was because I know of 
the tremendous pressure you are under to continue military aid. You can 
now disburse 75 percent of the aid immediately. But that means we 
expect the State Department to insist on full compliance with the 
conditions before releasing the remaining 25 percent of the aid. We 
want to see significant progress on human rights, which we have not 
seen in the past. Do you agree?
    Answer. We recognize that Section 564, Division E of the fiscal 
year 2003 Omnibus Appropriations Act (Public Law 108-7) revises 
previous law, allowing obligation of 75 percent of the funds for the 
Colombian Armed Forces prior to certification. We appreciate your 
decision and believe it is fully consistent with U.S. policy to 
strengthen democratic institutions, promote respect for human rights 
and the rule of law, intensify counter-narcotics efforts, and end the 
threats to democracy posed by narcotics trafficking and terrorism in 
Colombia.
    The Administration takes the Colombia human rights certification 
process very seriously and will review all evidence pertaining to the 
human rights conditions when deciding whether conditions found in 
Section 564(a) have been met. As in the past, we will insist on full 
compliance will all human rights conditions prior to making his 
determination and certification.
    In recent years the Colombian Armed Forces has taken a number of 
necessary steps to improve its human rights record and sever military-
paramilitary ties. Nevertheless, both we and the Government of Colombia 
recognize that serious problems remain, and we use every opportunity to 
engage Colombian government and military officials on concrete measures 
they should take to improve their human rights performance.
    Question. The President's fiscal year 2004 budget request contains 
only $100 million in Foreign Operations funds for the Global Fund to 
Fight AIDS, TB and Malaria. That is $150 million less than we 
appropriated in fiscal year 2003. What kind of message does that send?
    Answer. In his State of the Union address in January, the President 
announced an historic five-year, $15 billion Emergency Plan for AIDS 
Relief, including a $1 billion pledge to the Global Fund, bringing the 
total U.S. commitment to the Global Fund since its inception to $1.65 
billion--nearly one-half of all money pledged to the Fund to date. The 
$100 million request for the Global Fund in the fiscal year 2004 
Foreign Operations request contains only half of President Bush's total 
request, $200 million, for the Global Fund in fiscal year 2004. The 
other $100 million is contained in the budget request for the 
Department of Health and Human Services.
    This $200 million, if approved by Congress, will be the first 
installment of the $1 billion that the President has pledged to the 
Global Fund for fiscal year 2004 through fiscal year 2008, as contained 
in his Emergency Plan. The United States has been the most consistent 
financial supporter of the Global Fund and has made the longest-term 
pledge, providing a benchmark for other donors. The election of 
Secretary of Health and Human Services Tommy G. Thompson as the Fund's 
Board Chair is another sign of the U.S. government's support, and its 
commitment to ensuring that the Fund is accountable and sustainable.
    The President's five-year, $15 billion Emergency Plan for AIDS 
Relief is the most aggressive initiative yet proposed to fight HIV/
AIDS, and will include the largest AIDS treatment program to date. The 
Emergency Plan will, if approved by Congress, continue U.S. government 
funding to the Global Fund and to HIV/AIDS programs in more than 50 
countries, and focus about $9 billion in new money on 14 of the 
hardest-hit of these countries in Africa and the Caribbean. The goals 
of the Emergency Plan are to prevent 7 million new infections, provide 
treatment for 2 million people, and provide care and support for 10 
million people, including children orphaned by the disease and HIV-
positive people in the 14 focus countries.
    Question. Mr. Secretary, last August several Americans were killed 
and injured in an ambush near the Freeport gold mine in Papua, 
Indonesia. There is credible evidence that elements of the military 
were responsible, and that the military continues to obstruct efforts 
to investigate that crime. Because of this, the Administration has not 
resumed the IMET program with Indonesia.
    I do not believe we should cut off all relations with the 
Indonesian military. But if we are going to give them aid or training, 
they should show that they want to reform. No one, including former 
U.S. diplomats who know the Indonesian military, says they have any 
interest in reform.
    Can we be confident that the Administration will not resume IMET 
until there is a thorough investigation and we know whether the 
military was involved in the assassination of the Americans, and that 
those responsible will be punished?
    Answer. We are under no illusions about the Indonesian military's 
poor human rights record, and IMET is not a reward for the military's 
past behavior. Whether we proceed with IMET or not, we will be 
relentless in our pursuit of justice for the murder of American 
citizens. Unrestricted IMET does, however, provide exposure for foreign 
civilian and military personnel to alternative value systems in 
settings where they are challenged to think for themselves. It also 
enhances future access for the United States. As we have indicated 
earlier, we will consult with the Congress before proceeding with 
obligation of these funds.
    Due to our concerns about human rights abuses and stalled military 
reforms, U.S. interaction with the military is limited in scope. IMET 
will help provide education to key Indonesian military officers in 
areas directly related to reform and professionalization of the 
military.
    We see IMET as a precursor to reform. Without knowledge and 
training, there is little chance of developing sufficient numbers of 
reform-minded officers to make a difference in the larger institution. 
We must also be realistic; IMET is a long-term program that will 
require many years of continuity to achieve significant results by 
annually sending a handful of officers to U.S. schools. The importance 
of a $400,000 IMET program has been exaggerated both by proponents and 
opponents; we can, at best, expect gradual results. In the past, IMET 
graduates have been the most likely pool of reformers in Indonesia.
    The FBI is continuing its investigation and we continue to assign 
it the highest priority in our policy concerns with the Indonesian 
government. Indonesian Government actions in this case are an important 
factor in our evaluation of future military assistance programs for 
Indonesia, along with other factors such as U.S. national security 
interests, counter terrorism cooperation, respect for human rights, 
civil-military relations, political developments in Indonesia, and the 
regional strategic environment.
    Question. Mr. Secretary, as you know, the Mexico City policy 
requires private non-governmental organizations to agree not to spend 
their private funds to advocate for safer abortions even where abortion 
is legal, if they also receive funds from USAID.
    When President Bush reimposed these restrictions on his first day 
in office, he said the Mexico City policy was necessary to reduce 
abortions. It has now been two years since the President imposed these 
restrictions. What evidence do you have that this policy is reducing 
abortions.
    Answer. In restoring the Mexico City policy, the President said 
that taxpayer funds should not be used to pay for abortions or to 
advocate or actively promote abortion, either here or abroad. He also 
stated that one of the best ways to prevent abortion is by providing 
quality voluntary family planning services.
    The President has demonstrated support for family planning by 
consistently requesting $425 million dollars for international family 
planning and reproductive health activities in fiscal years 2002, 2003, 
and 2004, a level that was higher than funding levels in the previous 
five years before he took office.
    While reliable data on the incidence of abortion is absent in many 
countries, there is evidence that abortions have declined where family 
planning services are made available. For example, in Russia, because 
of limited contraceptive availability, abortion had been used as the 
major method of family planning. However, the recent increased 
availability of modern family planning methods has contributed to a 
greater than one-third drop in the abortion rate. Similar results have 
been seen in Hungary, Chile, Colombia, Mexico, South Korea, Kazakhstan, 
and Ukraine.
                            famine in africa
    Question. Mr. Secretary, there is an ongoing famine in sub-Saharan 
Africa that has placed approximately 40 million people at risk of 
starvation. During consideration of the last 2 appropriations bills, I 
joined with other Senators to add more than $1 billion in food aid to 
deal with the situation--only to see the House, working with OMB, 
significantly reduce these funding levels in conference.
    Humanitarian NGOs, the UN, and even people in the Administration 
say there simply is not enough food aid to deal with the crisis. And, 
if something is not done soon, the situation in Africa will get even 
worse.
    It will be months before fiscal year 2004 food aid is available. In 
the interim, what does the administration plan to do to address this 
crisis?
    Answer. The Administration has allocated over 1.2 million metric 
tons of food aid over the past year to southern Africa, Ethiopia and 
Eritrea, valued at $713 million. Approximately 450,000 metric tons of 
this food is currently en route to Ethiopia and Eritrea, the two 
countries of most concern in the coming months. Additional large 
contributions to sub-Saharan Africa are also in the planning stages, 
for delivery in the region near the end of the fiscal year. These 
commodities have been resourced by USAID through the funding mechanisms 
of Public Law 480 Title II, the Bill Emerson Humanitarian Trust, and 
through the U.S. Department of Agriculture's 416(b) authority.
    USAID's Office of Food for Peace (FFP) will pre-position food 
stocks in the United States and Africa using current resources for use 
in the interim period in question. In addition, FFP maintains an 
unallocated budget reserve, which will be tapped near the end of the 
fiscal year to ensure that the flow of food aid remains constant and 
directed to the areas of most concern.
    USAID has given top priority to the food aid crisis in sub-Saharan 
Africa over the past year, and has provided close to half of all the 
food aid provided to the region. USAID will continue this high level of 
attention to the region over the foreseeable future.
    Question. What is the Administration's position on membership in 
the International Coffee Organization (ICO)? Beyond ICO membership, 
what is the Administration's plan to address the collapse of coffee 
prices around the world that has devastated the economies of developing 
nations?
    Answer. The Administration is currently reviewing the issue of 
whether the United States should rejoin the International Coffee 
Organization (ICO). As part of this review, the Department of State has 
reached out to industry, the NGO community and Members of Congress. 
Formal review under the United States Trade Representative-led Trade 
Policy Review Group process will be initiated in the near future.
    In response to the hardships faced by coffee producers because of 
the on-going coffee crisis, the Administration believes that it is 
essential to promote the development of alternative economic 
opportunities over time, while supporting initiatives to help producers 
improve coffee quality and develop new markets more immediately.
    Over the medium term, economic diversification will be the key to 
resolving this problem. In the case of Central America, one of the 
hardest hit regions, we are negotiating a free trade agreement that 
will provide a host of alternative development opportunities. Progress 
in the WTO on reforming agricultural trade would greatly assist the 
rural areas of developing countries around the world.
    Meanwhile, we are taking steps to alleviate the coffee crisis 
through a range of USAID assistance programs to both small and medium 
producers in coffee-exporting regions around the world. USAID 
activities support coffee and diversification efforts in over 25 
countries in Latin America, Africa and Asia. The main objectives of the 
USAID programs are to assist farmers that cannot effectively compete in 
the coffee sector to diversify their activities and identify other 
sources of income and employment and create sustainable small holder 
coffee systems that provide significant income, employment and social, 
where the potential exists for the production of high quality coffee.
    USAID is also actively coordinating with the World Bank and the 
Inter-American Development Bank. USAID co-wrote a paper with the IDB 
and the World Bank in 2002 that outlined a strategy to address the 
coffee crisis in Central American by increasing the ability of 
efficient producers to compete more effectively while encouraging 
inefficient producers to exit the coffee sector for other activities in 
which they are better able to compete.
    USAID investments in Latin America & the Caribbean will total over 
$63 million to address the coffee crisis through humanitarian relief, 
agricultural diversification and improved competitiveness within the 
coffee sector. In addition, a regional Coffee Quality Program will 
invest $8 million dollars to improve product quality and marketing, and 
to establish business linkages in Central America and the Dominican 
Republic. Over the next five years, USAID/Colombia will invest $7 
million to promote specialty coffee as an alternative to illicit drugs.
    Question. Mr. Secretary, I want to ask you about the free trade 
agreement you are negotiating with Central America. I recently met with 
Nicaraguan President Bolanos, who I have great respect for. I am 
concerned about how this agreement may affect Nicaragua's fragile 
democracy.
    Nicaragua will need substantial assistance to get through a 
difficult transition to free trade. Without help, free trade applied 
too quickly could throw hundreds of thousands of poor subsistence 
farmers out of work. The free trade agreement should include a bold and 
imaginative program of aid to help them adjust to a new economy without 
destroying their democracy. We should also enlist the cooperation of 
the World Bank, the IM and the Inter-American Development Bank. I'm 
prepared to work with you on this. I'd appreciate it if you would keep 
me informed about how you plan to do this.
    Answer. Preparing Nicaragua and the other countries of Central 
America to take fullest advantage of the free trade agreement in 
addition to the transition to free market economies is part of the 
USG's strategy for the actual negotiations. Representatives from State, 
USAID, USTR, Commerce and other departments participate in the 
interagency CAFTA trade capacity building (TCB) working group, which 
identifies country-specific TCB needs and organizes donor coordination 
to respond to those needs. This working group is also reaching out to 
NGOs, international financial institutions (including both the World 
Bank and the Inter-American Development Bank), and the private sector 
as appropriate. The working group also meets with the Central Americans 
during the trade talks to assess progress and identify other needs 
under TCB. The next round of talks will take place May 12-16 in 
Guatemala.
    USAID has several mechanisms, including its Program Supporting 
Central America Participation in the FTAA (PROALCA), that may be 
tailored for CAFTA needs. PROALCA intends to open a new $4 million 
window for technical assistance which may be used by Nicaragua as well 
as other Central American countries. Under the Opportunity Alliance, 
USAID is supporting the re-orientation of agriculture programs toward 
more trade-related activities, such as non-traditional agricultural 
exports.
    Question. In territory controlled by the LTTE, there are innocent 
civilians, including children, who have lost limbs or suffered other 
serious injuries and disabilities as a result of the conflict. This is 
what the Leahy War Victims Fund was designed to address. Can't we 
permit USAID to meet with representatives of the LTTE to discuss ways 
to make this assistance available through reputable NGOs?
    Answer. The United States intends to provide substantial 
reconstruction and humanitarian assistance in Sri Lanka, through 
international and local NGOs of our choice, including to benefit people 
in LTTE controlled areas of the North and East. Assistance will be 
provided consistent with U.S. law and will include funding from the 
Leahy War Victims Fund. The LTTE has been designated as a foreign 
terrorist organization pursuant to section 219 of the Immigration and 
Nationality Act, as amended, and pursuant to Executive Order 13224, but 
such designations would not preclude U.S. government officials from 
meeting with the LTTE.
    The United States does not negotiate with terrorist organizations 
and has never engaged with the LTTE. We are currently considering, 
however, directly informing the LTTE and the government our plans for 
providing assistance to persons residing in LTTE-controlled areas.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Is the United States committed to a long-term presence in 
Afghanistan to establish peace and security?
    Answer. Yes. President Bush made clear in a Joint Statement with 
President Karzai on January 28, 2002 that a lasting and permanent 
solution for Afghanistan's security needs must be based on 
strengthening Afghanistan's own capabilities. Nothing has changed in 
the intervening months. The United States contributed over $900 million 
in assistance to Afghanistan last year, and with continuing 
Congressional support, we will match that level again this year. This 
money is going to support projects for health, education, refugees, 
agriculture, infrastructure, empowering women, as well as security.
    Provincial Reconstruction Teams (PRTs) led by the United States are 
combining military presence, civil affairs workers, and representatives 
of the Karzai government to extend the benefits of security to all 
regions of Afghanistan. Following our lead, other coalition members 
plan to take the lead on PRTs of their own.
    Meanwhile, our contributions to Disarmament, Demobilization and 
Reintegration (DDR) and the training of the Afghan National Army (ANA) 
are beginning the long-term process of shifting power from regional 
commanders to a well-equipped, professionally trained military. Eight 
battalions already are trained and deployed throughout Afghanistan, and 
the people of the country have welcomed them.
    To underscore our long-term commitment to Afghanistan, a series of 
high-level officials, including the Secretary of Defense, the Secretary 
of Health and Human Services, the President's special envoy to 
Afghanistan, and the Deputy Secretary of State, have visited 
Afghanistan in the last month, and the Secretary of Agriculture is 
scheduled to visit later in 2003.
    These efforts are having a visible impact on Afghanistan and are 
laying the groundwork for a new constitutional government and elections 
next year. With Congress' support, we will continue to build a 
democratic Afghanistan and help the Afghan government bring the 
benefits of peace and security throughout the country.
    Question. Are we dedicating enough funds to the reconstruction of 
Afghanistan? ($896M to date, not including fiscal year 2004 request)? 
After all, the Marshall Plan had a price tag of $88B in today's 
dollars. Can we expect future supplementals and money in the fiscal 
year 2005 request to fund Afghan reconstruction? Do you still support a 
funding goal of $8B for Afghanistan, as you have previously stated?
    Answer. Assistance from the United States and other donors has been 
sufficient to address Afghanistan's key needs in a timely fashion. We 
provided over $900 million in assistance per year in fiscal year 2002 
and fiscal year 2003 (including supplemental packages each year).
    Last year, a key priority was humanitarian assistance, and over 
one-third of our assistance was directed to assist returning refugees 
and help avert famine. This year, the humanitarian crisis has eased, 
permitting us to direct much of our assistance toward rebuilding 
infrastructure and the Afghan government's institutions and security 
capabilities. At the same time we are funding ambitious health, 
education and agricultural projects and supporting preparations for a 
constitutional assembly this fall and elections next June.
    The Administration has requested almost $700 million for 2004 (not 
counting funds to be expended by the Department of Defense), which, 
together with resources from other donors, should be sufficient to 
address anticipated funding needs. We are developing the fiscal year 
2005 request, though final decisions have not been made.
    In late 2001, the World Bank and the Asian Development Bank 
estimated Afghanistan's cumulative five-year funding needs (to be 
funded by all donors) to be in the range of $8 billion to $12 billion. 
This remains a reasonable estimate, and we have worked closely with 
Afghan leaders to help raise funds from international donors.
    Question. What are we doing to ensure Afghan women will have a 
direct role in society to vote, work, go to school, and serve in the 
new government? Would you support a call to require that a set 
percentage of aid be directed toward the advancement of Afghan women, 
or be conducted by women led relief organizations?
    Answer. Life for women under the Karzai government represents a 
dramatic improvement over the serious and systematic abuses of the 
Taliban regime. Some women, primarily in Kabul, have begun discarding 
the burqa, the head-to-toe veil that had been rigidly enforced by the 
Taliban. Women are once again permitted to work outside the home, and 
female civil servants and teachers have returned to work. Girls flocked 
to the schools when they re-opened in March 2002, and it is estimated 
that of the 3 million new students this past year, 35 percent were 
girls. The Ministry of Education is hoping that girls will make up 50 
percent of the students soon, and estimates that numbers were up when 
schools opened again in March 2003. Within the Afghan government, the 
Ministers for Public Health and Women's Affairs, as well as the Chair 
of the Human Rights Commission, are women, and many more women serve as 
Deputy Ministers, Office Directors, and in mid-ranking governmental 
positions. As Afghans write a new constitution and devise a new legal 
system, we are impressing upon them the importance of upholding and 
respecting internationally recognized human rights standards, including 
the rights of women.
    Afghanistan established a Commission to Combat Trafficking in 
Persons and created a Human Rights Commission with well-known human 
rights champion Sima Simar as its chairperson. The United States 
provided start-up funding and technical assistance to the Ministry of 
Women's Affairs to refurbish the building, provide technical advisors 
to the Ministry, and establish a women's resource center with internet 
access, computer training, and print and video materials on human 
rights at the Ministry.
    The United States, through USAID, provided over one million 
textbooks in 2002, many of which benefited Afghan schoolgirls. The 
United States has helped rebuild and rehabilitate more than 230 schools 
to date, and plans to do an additional 1,000 more and provide training 
for teachers, most of whom are women, as part of a package of $61 
million of support for primary education over the next three years.
    The U.S. government is supporting the Ministry of Women's Affairs 
in its efforts to open a network of women's resource centers in each of 
Afghanistan's 32 provinces. Such centers will provide a safe place 
where women will receive training in a range of subjects, including 
human rights, political participation, and job skills training. USAID 
is funding the construction of 14 provincial centers, and grants by the 
U.S.-Afghan Women's Council will fund educational programs in these 
centers. Education is fundamental to progress for women.
    These projects specifically target and benefit women, while others, 
such as school rebuilding efforts, benefit all Afghans, including women 
and girls. For that reason, and because of the need for flexibility in 
a fluid situation, establishing earmarks or set percentages of aid 
would hinder rather than help our efforts to assist Afghan women, as 
would mandating aid delivery to specific organizations.
    Question. What is the proper mix of funds to fight HIV/AIDS on a 
global level--how did State and HHS determine what to contribute to the 
Global Fund versus bilateral assistance from the United States to 
selected countries? The budget only contains $100M for the Global Fund. 
Is the United States still committed to the Global Fund? The G-8 has 
not met its original goals for the Global Fund, either.
    Answer. We believe that the President's Emergency Plan for AIDS 
Relief, as the largest, single commitment in history to an 
international public health initiative involving a single disease, 
contains the proper mix of funds for this Administration to address the 
HIV/AIDS pandemic on a global scale. The President's $15 billion 
Emergency Plan for AIDS Relief (PEPFAR) calls for spending, over 5 
years:
  --Approximately $5 billion for continuation of existing programs in 
        nearly 50 countries;
  --An additional $1 billion for the Global Fund to Fight AIDS, 
        Tuberculosis and Malaria; and
  --About $9 billion for the President's new 14-country initiative.
    The Plan seeks to prevent 7 million new infections, treat 2 million 
HIV-infected people, and care for 10 million HIV-infected individuals 
and AIDS orphans. To accomplish these goals, implementation of the Plan 
will be based on the Ugandan model involving a layered network of 
medical centers and the ABC (Abstinence, Being Faithful, and, when 
necessary, Condom use) approach to stemming the tide of HIV/AIDS.
    PEPFAR increases financial and technical assistance to both 
bilateral and multilateral activities. Bilateral programs and the 
Global Fund complement each other's contributions to the fight against 
HIV/AIDS and should both receive increased support. Bilateral programs 
are vital for technical assistance and capacity building. The projects 
financed by the Global Fund usually build upon the foundations 
established by bilateral programs.
    The United States is firmly committed to the Global Fund. The $100 
million request for the Global Fund in the fiscal year 2004 Foreign 
Operations Appropriations budget request contains only half of 
President Bush's total request, $200 million, for the Global Fund in 
fiscal year 2004. The other $100 million is contained in the fiscal 
year 2004 budget request for the Department of Health and Human 
Services.
    The President's announcement of a $1 billion pledge to the Global 
Fund brings the total U.S. commitment to the Global Fund since its 
inception to $1.65 billion--nearly one-half of all money pledged to the 
Fund to date. The United States has been the most consistent financial 
supporter of the Global Fund and has made the longest-term pledge, 
providing a benchmark for other donors. The election of Secretary of 
Health and Human Services Tommy G. Thompson as the Fund's Board Chair 
is another sign of the U.S. Government's support, and its commitment to 
ensuring that the Fund is accountable and sustainable.
    The President looks forward to the G8 Summit in Evian as an 
opportunity to urge other governments and private donors to join us in 
increasing efforts to combat this disease both domestically and 
internationally.
    Question. Is the Administration committed to realizing its new plan 
for $15B over 5 years? Will cuts be made to other foreign aid programs 
in order to pay for the AIDS initiative, or will the commitment to 
fighting AIDS be in furtherance of our commitment to international 
development?
    Answer. The Administration is fully committed to implementing its 
new plan for $15 billion over 5 years to the global effort against HIV/
AIDS as an additional component of our international development 
activities. Of the $15 billion, roughly $10 billion is new money for 
the President's new fourteen-country initiative and increased support 
of the Global Fund to Fight AIDS, Tuberculosis and Malaria, in 
furtherance of our commitment to international development, with the 
remaining funds allocated for the continuation of existing programs.
    Question. Is the United States committed to a long-term presence in 
Iraq to establish peace and security? Wouldn't a short-term departure 
only allow the forces of fanaticism and fundamentalism to re-emerge?
    Answer. The United States is committed to helping the Iraqi people 
establish a whole, free nation at peace with itself and its neighbors, 
and governed by the rule of law. As President Bush has said, the United 
States will remain in Iraq as long as necessary to achieve these 
objectives, but not a day longer.
    Question. What are we doing to ensure Iraqi women will have a 
direct role in society--to vote, work, go to school, and serve in the 
new government? Would you support a call to require that a set 
percentage of aid be directed toward the advancement of Iraqi women, or 
be conducted by women-led relief organizations?
    Answer. The United States recognizes the vital role Iraqi women 
will play in the creation of a unified, free Iraq. We are committed to 
equal rights for all Iraqi citizens. This includes the full 
participation of women in social, political and economic life, 
including in reconstruction efforts and in Iraq's future government.
    Iraqi women participated in the first two political conferences 
held by the Coalition, and the conference statements affirmed the 
importance of the role of women. Given the difficult circumstances 
under which the first conferences were held, we were unable to reach 
out to sufficient numbers of Iraqi women to secure their participation. 
Serious efforts are currently underway to identify larger numbers of 
Iraqi women to participate in future meetings and to take part in the 
rebuilding of Iraqi institutions and the drafting of new laws.
    Despite a brutal dictatorship, Iraqi women have continued to make 
great strides in education and in professions over the past decades. We 
want to ensure that this progress continues and that Iraqi women will 
make the contributions that their talent, ambition and dedication to 
their country's future will enable.
    United Nations Security Council Resolution 1483, introduced by the 
United States, the UK, and Spain calls for the establishment of ``the 
rule of law that affords equal rights and justice to all Iraqi citizens 
without regard to ethnicity, religion, or gender.''
    We do not support the establishment of a set percentage of aid to 
be directed to any particular issue or group of organizations. We do 
not believe that this is necessary to achieve our goal of equal rights 
and the participation of women in the rebirth of Iraq and its 
institutions. Supporting the educational, political, economic and 
social development of women and girls is a key, identified priority in 
many of the relief and reconstruction programs that the USG supports 
through funding to the United Nations, other IOs, NGOs and independent 
contractors in the areas of education, democratic governance, civil 
society and legal reform. We are also committed to ensuring that as 
Iraq makes the transition to a free market economy that women, as well 
as men, are provided with the training and support necessary to thrive 
in this new business environment.
    Question. Secretary Powell, you have served as both Chairman of the 
Joint Chiefs and now Secretary of State. Is the Administration pursuing 
the proper path with DOD in the lead? How long should DOD be in the 
lead? Is there a transition plan for State and USAID to takeover the 
more traditional roles of foreign assistance and economic development? 
Is there an effective liaison system in place for DOD to call upon 
State's expertise when necessary?
    Answer. The President has determined that the Department of Defense 
has the lead for our activities in post-war Iraq. The State Department 
has supported DOD's lead strongly. First, during the activities of the 
Office of Reconstruction and Humanitarian Assistance (ORHA) and, now, 
within the framework of the Coalition Provisional Authority (CPA).
    Both State and USAID have provided, and will continue to provide 
expertise to this DOD-led effort, detailing of personal on-the-ground 
to ORHA and CPA to fulfill the U.S. objective of assisting the Iraqi 
people to establishing a free and democratic nation that is a 
responsible member of the international community.
    State and USAID will continue to carry out the President's wishes, 
cooperating with and supporting the DOD in every way possible to reach 
a successful conclusion in Iraq.
    Question. How will you judge when the violence has stopped and the 
Palestinian Authority has lived up its end of the bargain? Who will 
determine when safety has been achieved? Russia? The EU? The United 
Nations? How will be power be shared between the United States, United 
Nations, EU, and Russia?
    Answer. We've always said that we are prepared to send in U.S.-led 
monitors if this would prove useful to the parties, to observe and 
coordinate with both sides, to look into claims or charges that one 
side might make against the other. We're not talking about an armed, 
interpositional force, but a coordinating group on the ground, which 
could grow into a larger group over time that could serve a monitoring 
function. We have been in close consultation with Palestinian leaders 
to develop a plan for assisting the Palestinians with security, and the 
United States, working with other interested friends in the region and 
from the Quartet will assist the Palestinians in that regard. We have 
been clear that any monitoring arrangement would be U.S. led and have a 
U.S. face.
    Question. How will you judge when the violence has stopped and the 
Palestinian Authority has lived up its end of the bargain? Who will 
determine when safety has been achieved? Russia? The EU? The United 
Nations? How will be power be shared between the United States, United 
Nations, EU, and Russia?
    Answer. We've always said that we are prepared to send in U.S.-led 
monitors if this would prove useful to the parties, to observe and 
coordinate with both sides, to look into claims or charges that one 
side might make against the other. We're not talking about an armed, 
interpositional force, but a coordinating group on the ground, which 
could grow into a larger group over time that could serve a monitoring 
function. We have been in close consultation with Palestinian leaders 
to develop a plan for assisting the Palestinians with security, and the 
United States, working with other interested friends in the region and 
from the Quartet will assist the Palestinians in that regard. We have 
been clear that any monitoring arrangement would be U.S. led and have a 
U.S. face.
    Question. As we begin to tackle the issues of ``winning the peace'' 
in Iraq and continue our efforts in Afghanistan as well, I hope that 
the U.S. Government's programs will devote attention to improving the 
status of women. Women are so important for caring for children and 
educating them. In addition, women should have equal access to 
participation in politics and in business and the work place, as well. 
If I were to select one area for emphasis, it would be education. What 
are our plans for reconstituting the educational systems in Iraq and 
Afghanistan and for encouraging equal access to schooling for women and 
girls?
    Answer. In Iraq, the U.S. Agency for International Development 
(USAID) has awarded a contract to Creative Associates International to 
address immediate educational needs and promote participation of the 
Iraqi people in a sustainable, effective and decentralized educational 
system. The U.S. Government's goal is to ensure that children will be 
able to start the new school year in September 2003 in a system 
dedicated to education, not propaganda. Equal opportunity for girls is 
an urgent goal of a reformed educational system.
    The rehabilitation of schools is critical, including ensuring 
sufficient electricity, water and sanitation facilities, and sufficient 
equipment and supplies to facilitate learning. We also recognize the 
importance of ensuring proper compensation to teachers for their 
efforts. In support of our efforts to build the foundations of a 
democratic society in Iraq, it is important that we work with Iraqis to 
ensure that such values as pluralism and equality are taught in 
schools.
    We will also support community awareness and social mobilization 
programs which highlight the importance of children returning to, and 
staying in school, with a particular emphasis on ensuring that girls 
offered are full and equal opportunities.
    In Afghanistan, girls' education has improved dramatically under 
the Karzai government, no small achievement after the serious, 
systematic discrimination of the Taliban regime. Girls flocked to the 
schools when they re-opened in March 2002, and it is estimated that of 
the 3 million new students this past year, 35 percent were girls. The 
Ministry of Education is hoping that girls will make up 50 percent of 
the students soon, and estimates that numbers were up when schools 
opened again in March 2003.
    The United States, through USAID, provided over fifteen million 
textbooks in 2002, many of which benefited Afghan schoolgirls. The 
United States has helped rebuild and rehabilitate more than 230 schools 
to date, and plans to do an additional 1,000 as well as provide 
training for teachers, most of whom are women, as part of a package of 
$61 million of support for primary education over the next three years.
    The U.S. government is supporting the Ministry of Women's Affairs 
in its efforts to open a network of women's resource centers in each of 
Afghanistan's 32 provinces. Such centers will provide a safe place 
where women will receive training in a range of subjects, including 
human rights, political participation, and job skills training. USAID 
is funding the construction of 14 provincial centers and will provide 
funding for the centers, including health education programs, daycare, 
etc. ($5 million of the fiscal year 2003 funds to be obligated by 
Summer 2003). Education is fundamental to progress for women and, 
moreover, for Afghanistan as a whole.
    Question. After all the commitment and even heroic actions by our 
troops, first in Afghanistan and now in Iraq, will we have the wisdom 
and steadfastness to follow through on our commitment to promoting 
democracy? How well are we doing with our previous efforts? Why are 
funds for the promotion of democracy in Eastern Europe (``SEED funds'') 
being cut, just when we need examples of U.S. determination and 
perseverance and good models for the democratic development of 
Afghanistan and Iraq?
    Answer. Since 1989, the Support for East European Democracy (SEED) 
Act has promoted important U.S. national interests and strategic goals 
in North Central and South Central Europe. Indeed, many SEED-funded 
programs have provided excellent role models and experienced personnel 
as we set up similar programs in Afghanistan and Iraq.
    With the graduation of the northern tier countries, the SEED 
program has shifted its focus southward. This region could still pull 
in our allies and ultimately the United States to uphold vital 
interests, as the past conflicts in Bosnia-Herzegovina (Bosnia) and 
Kosovo and more recent insurgencies in southern Serbia and Macedonia 
demonstrated. SEED assistance provides a defense. It funds important 
peace implementation programs that have laid the foundation for longer-
term development through the rise of democratic institutions and market 
economies. It also supports the region in its drive for integration in 
Euro-Atlantic institutions, as witness the historic November 2002 
invitation to seven more SEED-recipient countries to join NATO, and the 
December 2002 invitation to eight to join the European Union.
    To facilitate continued reform and transition in Southeastern 
Europe, SEED assistance supports innovative models, technical 
assistance, and training. SEED funding fosters civil security and rule 
of law in these transitional societies, increases adherence to 
democratic practices and respect for human rights, and promotes broad-
based economic growth. Many in the region have made important progress 
toward achieving the objectives of the SEED program: development of 
democratic institutions and political pluralism and of free market 
economic systems. All the recipients are now democracies, and all are 
experiencing economic growth. Extensive SEED investments during recent 
years have successfully helped the region overcome crises, so that in 
fiscal year 2004 we can continue to reduce the overall request while 
maintaining the momentum of the reforms underway. The Department's 
fiscal year 2004 budget request shifts $10 million in funding for 
educational and cultural exchanges to support the above efforts from 
the SEED account to the Educational & Cultural Exchange account under 
the Commerce-Justice-State portion of the budget.
                            against stonings
    Question. Here in the Senate I have sponsored a resolution, Senate 
Concurrent Resolution 26, against executions by stoning. If passed, it 
would simply ask you to work with the international community to 
promote international standards of human rights and to encourage the 
repeal of laws permitting stoning.
    Will the State Department devote attention to this egregious 
violation of human rights, which affects women so disproportionately? 
What can our diplomacy do to encourage the Nigerian government to save 
Amina Lawal and other women who may be sentenced to death by stoning in 
parts of Nigeria where shari'a law is in effect?
    Answer. Thank you for this important question. I can assure you 
that we are devoting attention to this issue, which as you say, affects 
women disproportionately. Stoning is an exceptionally cruel form of 
punishment that violates internationally accepted human rights 
standards and norms.
    We are closely monitoring the case of Ms. Lawal, and those of other 
Nigerian men and women facing similarly harsh sentences. We have 
repeatedly told the Government of Nigeria that it must adhere to its 
commitments under the Universal Declaration of Human Rights and the 
International Covenant on Civil and Political Rights, both of which ban 
cruel and unusual punishments and prohibits death sentences in all but 
the most severe crimes.
    The good news to date is that Nigeria's Minister of State for 
Foreign Affairs has said repeatedly that there is ``no way'' a stoning 
sentence would be carried out in Nigeria. He has given public 
assurances that the Supreme Court would ``supersede'' the Shari'a 
system if necessary to stop the execution of a stoning sentence. Also, 
in his last National Day address on October 1, Nigerian President 
Obasanjo noted that no stoning sentence has ever been carried out in 
Nigeria. He told the Nigerian people that none ever would. And, 
Nigeria's Attorney General has said that harsh Shari'a punishments 
violate Nigeria's Constitution and international commitments.
    That said, DRL is monitoring these cases closely because there has 
not been a final resolution in Nigeria to the Lawal case, and stoning 
has not been banned. The Nigerian constitution does not provide for 
federal intervention in cases active in state courts; only through the 
appeals process will federal issues of the constitutionality of harsh 
Shari'a sentences be aired.
    Please know that we will do what we can to help Amina Lawal and 
others facing this fate, and to encourage an end to this cruel 
practice.
                      wmd threats outside the fsu
    Question. The threat of weapons of mass destruction is perhaps the 
greatest concern in our war against terrorism and was a major reason 
for our incursion into Iraq. However, our nonproliferation efforts to 
date against biological and chemical weapons, as well as nuclear 
devices, have been limited to the countries of the former Soviet Union. 
Last year an effort to expand the authorization of Nunn-Lugar 
legislation was scuttled in the House.
    Is the State Department working with the Departments of Defense and 
Energy to obtain authorization to expand our counter-proliferation 
efforts to include countries beyond the states of the former Soviet 
Union? How successful and sustained have our nonproliferation efforts 
been and what are the obstacles to such expansion and fully effective 
implementation?
    Answer. The Nunn-Lugar ``Cooperative Threat Reduction'' (CTR) 
Program is only one part of U.S. nonproliferation activities. While CTR 
is currently limited by law to the states of the former Soviet Union 
(FSU), the Departments of State and Energy have nonproliferation 
program authorities to operate globally and are doing so. In addition 
to these authorities, the President has requested for fiscal year 2004 
that the Congress give him authority to use up to $50 million in CTR 
funds outside the FSU. Although almost all the countries in the world 
have become parties to the Nuclear Non-Proliferation Treaty, and a 
large majority have adhered to the Chemical Weapons Convention and 
Biological Weapons Convention, we face significant nonproliferation 
problems. But while the news has been grim from South Asia, Iran, North 
Korea and, until recently, Iraq, we have also achieved important 
successes.
    Beyond the FSU, the State Department runs two important global 
programs. One is the Nonproliferation and Disarmament Fund (NDF), which 
tackles tough, urgent problems, such as the removal of highly enriched 
uranium from Vinca, Serbia to safe storage in Russia, and destruction 
of WMD-capable missiles in Eastern Europe. The NDF also has developed 
and deployed an automated system, ``Tracker,'' that already enables 
nine countries and 63 ministries to inventory and account for weapons-
sensitive exports/imports, and its use is expanding. NDF is working 
towards building an international consortium to support Tracker.
    Second, our Export Control and Related Border Security Assistance 
Program (EXBS) runs programs in 35 countries, aiming to help our 
partners control the flow of dangerous technologies and amaterials in 
the most dangerous parts of the world. Our EXBS Program draws on 
expertise from a number of agencies, and coordinates closely with 
efforts by the Departments of Energy and Defense to strengthen other 
countries' controls on transfers of WMD and missile-relevant 
technologies.
    We have important partnerships with key governments to prevent the 
spread of these technologies, through the Missile Technology Control 
Regime (MTCR), the Australia Group (AG) for chemical and biological 
weapons technologies, the Nuclear Suppliers Group and the Zangger 
Committee for nuclear transfers, and the Wassenaar Arrangement for 
sensitive weapons technologies (including shoulder-fired anti-aircraft 
missile systems, MANPADS). We are constantly working to make these 
nonproliferation regimes more effective.
    Another important partnership is with the International Atomic 
Energy Agency (IAEA), whose safeguards program aims to ensure that 
civilian nuclear facilities remain civilian, and provides critical 
assurance that nuclear material in civil nuclear programs is not 
misused for non-peaceful purposes and that covert nuclear activities 
are not being pursued. We are prepared to back tough safeguards with 
increased funding.
    At the same time, we must continue to focus significant effort on 
the still sizable residual stocks of dangerous materials from the 
massive WMD establishment of the former Soviet Union. The 
Administration has accelerated funding for a number of projects. The 
Departments of Energy, Defense and State have collaborated under the 
CTR and other authorities to improve security at Russian storage 
facilities, to consolidate stored fissile materials, to stop new 
production and to purchase or down-blend nuclear material from former 
nuclear weapons to reduce supply. The State Department provides the 
diplomatic lead for several threat reduction programs of the Defense 
and Energy Departments. We are also responsible for the U.S. 
Government's involvement in the International Science Centers in Russia 
and Ukraine, which employ former Soviet weapons scientists in peaceful, 
commercial projects--to reduce the temptation for those scientists to 
hire themselves out to proliferators.
    Question. Student Visas and security.--In the aftermath of 9/11, we 
have significantly tightened security procedures for people visiting 
our country for temporary purposes. At the same time, we must strike a 
balance that will allow free travel and exchange of visits which are so 
characteristic of American society. With regard to the issuance of 
visas for foreign students, I have found the need for better 
coordination between the Department of State and the new Department of 
Homeland Security. Since February of this year, men from certain high-
risk mid-East countries who fail to register their departure will find 
their student visas canceled. However, Homeland Security has not yet 
proposed any method for reviewing or waiving the ineligibility of those 
put into the NSEERS automated system for such violations. I hope you 
will work with Secretary Tom Ridge to remedy this apparent blind spot 
in our visa adjudication process.
    Answer. The DHS NSEERS regulations, 8 CFR 264.1(f)(8), state that 
if an alien fails to fulfill the departure control requirements upon 
leaving the United States, he or she will thereafter be presumed 
ineligible under section 212(a)(3)(a)(ii) of the Immigration and 
Nationality Act for admission to the United States. In an INS [DHS] 
memorandum of December 20, 2002, the agency provided field guidance 
relating to returning NSEERS violators citing factors that can be used 
at the Port of Entry to allow applicants to overcome this regulatory 
presumption of ineligibility. With DHS concurrence, the State 
Department provided subsequent guidance to all Embassies and Consulates 
transmitting these factors to consular officers to use in determining 
whether NSEERS violators can be issued visas. The instructions to posts 
stated that Consular Officers ``can issue visas to aliens entered into 
lookout as NSEERS violators, provided that the applicant can 
demonstrate good cause for the violation and/or reasonable assurances 
that the applicant will comply with these requirements in the future.'' 
The instructions further stated that ``Although Conoff cannot guarantee 
any applicant that this procedure will ensure an applicant with NSEERS 
violations will be admitted to the United States, these procedures are 
consistent with the DHS guidelines and should in most cases be 
sufficient to allow the alien to be admitted to the United States.''
    Question. Do you believe that we are dedicating enough to the 
Foreign Operations budget to effectively carry out our national 
diplomatic goals?
    Answer. Yes. The requested fiscal year 2004 Foreign Operations 
budget that funds programs for the Department of State, USAID, and 
other foreign affairs agencies is $18.8 billion. This represents a 16 
percent increase over the fiscal year 2003 funding level and does not 
include the fiscal year 2003 emergency wartime supplemental of $7.5 
billion.
    Today, our number one priority is to fight and win the global war 
on terrorism. President Bush recently identified the battle of Iraq as 
a part of this larger war. The budget furthers this goal by providing 
economic, military, and democracy assistance to key foreign partners 
and allies, including $4.7 billion to countries that have joined us in 
the war on terrorism.
    The budget also promotes international peace and prosperity by 
launching the most innovative approach to U.S. foreign assistance in 
more than forty years. The new Millennium Challenge Account (MCA), an 
independent government corporation will redefine ``aid.'' As President 
Bush told African leaders meeting in Mauritius recently, this aid will 
go to ``nations that encourage economic freedom, root out corruption, 
and respect the rights of their people.''
    Moreover, this budget offers hope and a helping hand to countries 
facing health catastrophes, poverty and despair, and humanitarian 
disasters. Such funding will combat the global HIV/AIDS epidemic, meet 
the needs of refugees and internally displaced persons, and provide 
emergency food assistance to support dire famine needs. In addition, 
the budget includes a new proposal to enable swift responses to complex 
foreign crises.

                          SUBCOMMITTEE RECESS

    Senator McConnell. Thank you all very much. The 
subcommittee will stand in recess to reconvene at 2 p.m., 
Thursday, June 5, in room SD-192. At that time we will hear 
testimony from the Honorable Andrew S. Natsios, Administrator, 
Agency for International Development.
    [Whereupon, at 3:06 p.m., Wednesday, April 30, the 
subcommittee was recessed, to reconvene at 2 p.m., Thursday, 
June 5.]

</pre></body></html>
